<html>
<title> - IRAQ: NEXT STEPS</title>
<body><pre>[Senate Hearing 108-293]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-293
 
 IRAQ: NEXT STEPS--HOW TO INTERNATIONALIZE IRAQ AND ORGANIZE THE U.S. 
            GOVERNMENT TO ADMINISTER RECONSTRUCTION EFFORTS

=======================================================================

                                HEARING



                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE



                      ONE HUNDRED EIGHTH CONGRESS



                             FIRST SESSION



                               __________

                           SEPTEMBER 23, 2003

                               __________



       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



91-525              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN D. CHAFEE, Rhode Island      PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Atwood, Hon. J. Brian, Dean, Humphrey Institute of Public 
  Affairs, University of Minnesota, Minneapolis, Minnesota.......     4
    Prepared statement...........................................     8

Dobbins, Hon. James, Director, International Security and Defense 
  Policy Center, RAND Washington Office, Arlington, Virginia.....    12
    Prepared statement...........................................    16

Hamre, Hon. John J., president and chief executive officer, 
  Center for Strategic and International Studies, Washington, 
  D.C............................................................    19
    Prepared statement...........................................    21


                                Appendix

Statement submitted by Richard N. Haass..........................    47

Additional material submitted by Dr. John J. Hamre

Iraq's Post-Conflict Reconstruction: A Field Review and 
  Recommendations, July 17, 2003.................................    49

A Wiser Peace: An Action Strategy for a Post-Conflict Iraq, 
  January 2003...................................................    58

Final Report of the Bi-Partisan Commission on Post-Conflict 
  Reconstruction, January 2003...................................    69

Statement submitted by the American Association of Engineering 
  Societies......................................................    86

                                 (iii)

  


                           IRAQ: NEXT STEPS--
                      HOW TO INTERNATIONALIZE IRAQ
                    AND ORGANIZE THE U.S. GOVERNMENT
                  TO ADMINISTER RECONSTRUCTION EFFORTS

                      Tuesday, September 23, 2003

                              United States Senate,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The committee met at 2:32 p.m., in room SD-106, Dirksen 
Senate Office Building, Hon. Richard G. Lugar, chairman of the 
committee, presiding.
    Present: Senators Lugar, Hagel, Biden, Sarbanes, Nelson, 
Feingold, and Corzine.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order.
    Our colleagues have been involved in the normal Tuesday 
party caucuses, and I suspect they will be ambling in. Either 
that, or they know more than I do, and we are about to have a 
roll call vote, and they are staying there.
    I would mention at the outset that the leaders have 
indicated we will finish the Interior appropriations bill this 
afternoon, and that usually leads, unfortunately, to roll call 
votes, including final passage. I understand the time 
requirements of our witnesses, as well as Senators, and I will 
do the best that I can to balance all of this and to keep the 
continuity of the hearing moving.
    But for that reason, I will commence with my opening 
statement, and I will recognize, of course, the distinguished 
ranking member, Senator Biden, for his statement when he 
appears. Then we will proceed to the witnesses so that we will 
have the testimony before us and then answers to questions from 
the Senators.
    It is indeed our pleasure to welcome Ambassador Jim 
Dobbins, Director of the International Security and Defense 
Policy Center at the RAND Corporation; Dr. John Hamre, former 
Deputy Secretary of Defense, currently President of the Center 
for Strategic and International Studies; and Dean Brian Atwood 
of the Hubert H. Humphrey Institute of Public Affairs of the 
University of Minnesota and former Administrator of the U.S. 
Agency for International Development.
    We had hoped also to have Ambassador Richard Haass here in 
his new capacity as President of the Council on Foreign 
Relations, but with the revised schedule due to the hurricane--
and we appreciate each of our witnesses being so 
accommodating--Ambassador Haass could not be here today, but we 
have received his excellent testimony which will be inserted in 
the record.
    The committee also looks forward to hearing our 
distinguished panel's views on what is needed to 
internationalize and make successful the reconstruction effort 
in Iraq and how the United States Government can more 
effectively administer its own reconstruction activities. Each 
of you has been involved at the highest levels in United States 
foreign policy decision-making, and we are grateful to you for 
your willingness to share your experience with us today.
    This hearing is the first in a series of hearings on Iraq 
by this committee. The series will frame the issues the 
Congress must address as it reviews President Bush's proposed 
$87 billion supplemental funding request for maintaining and 
sustaining United States military forces and supporting Iraq 
reconstruction efforts. However, our intention is to look well 
beyond the scope of this supplemental. Tomorrow, we have 
scheduled two additional hearings that will examine our long-
term planning in Iraq and the prospects for Iraqi 
democratization. And we are pleased that Ambassador Jerry 
Bremer is in Washington and will be available for the morning 
hearing.
    During the last several weeks, the Bush administration has 
expanded its efforts to secure international financial, 
humanitarian, and military contributions for Iraq. Secretary 
Powell and our diplomats are exploring, even as we speak, 
Security Council resolution language that would facilitate 
greater United Nations involvement in Iraq. As the President 
emphasized in his UN speech this morning, the administration is 
providing new estimates and plans developed by the Coalition 
Provisional Authority in Iraq, and President Bush has delivered 
an address to the American people about the necessary 
commitment of United States resources in Iraq. I commend the 
President on these steps, which have the potential to greatly 
improve our prospects for success.
    There is general consensus in the international community 
and within the United States Government that the critical task 
at hand is to establish a sovereign Iraqi government as quickly 
as possible and to prevent Iraq from becoming a so-called 
failed state. To achieve this goal, we need to reach agreement 
on the roles and responsibilities of the international 
community in Iraq and on how we can more effectively organize 
our own efforts. The stakes for United States national security 
in Iraq remain extraordinarily high. Beyond the obvious 
implications for U.S. credibility, the outcome in Iraq may 
determine how we are perceived in the Islamic world for a 
generation. And it will affect the degree of international 
cooperation in the war on terror. It will affect the status of 
our own military and the prospects for economic growth in the 
United States. We must succeed in Iraq while conserving United 
States
resources through efficient decision-making and international
involvement.
    In previous hearings, I have expressed my own view that 
securing greater support from the international community for 
the operation in Iraq is essential. International assistance is 
needed not only to get more personnel on the ground but to make 
available more military professionals with the right skills. 
American military forces have performed brilliantly, but we do 
not have enough personnel with so-called nation-building 
skills, including police and civil affairs experts, to meet the 
needs in Iraq.
    And further, with the United States economy facing a rising 
deficit, other nation's resources are needed to reduce the 
burden of Iraq reconstruction. Ambassador Bremer said on July 
31, 2003, that it would take $50 billion to $100 billion to 
reconstruct Iraq. The administration's supplemental asked for 
$21 billion for that purpose. Clearly, help from other donors 
is needed to fill the gap.
    Finally, we need other nations to be involved in Iraq to 
help assure the Iraqis that the results of our nation-building 
are legitimate and that the international community is 
committed to a successful reconstruction of the country. The 
pledging conference scheduled in October will be an opportunity 
for all nations to exhibit that leadership.
    An important way to ease anti-Americanism in Iraq is to 
show the Iraqis and the world that we have a step-by-step plan 
to rebuild Iraq that involves a broad coalition of nations and 
Iraqi representatives. This plan does not need to include an 
exact time line, but it should identify the sources of revenue 
that will be used to fund reconstruction during the next 5 
years at least and provide benchmarks that can be used to 
measure success.
    As we seek international contributions, we must ensure that 
our own efforts are efficient. We do not have time to waste on 
interagency rivalries. There must be seamless planning and 
cooperation among U.S. agencies with the Defense Department in 
charge of the war-fighting and security and the State 
Department in charge of nation-building and diplomacy.
    Now, in April, Congress provided extraordinary flexibility 
to the President in administering resources devoted to Iraq 
reconstruction. Bureaucratic disagreements and the resulting 
delays in funding projects in Iraq during the first few months 
after major combat slowed progress on reconstruction and 
reduced the confidence of the Iraqi people in our intentions 
and in our abilities.
    In July, Dr. Hamre's team of experts commissioned by the 
Department of Defense stated in their excellent report that we 
cannot conduct Iraq reconstruction as business as usual. This 
report recommended:

          The CPA should be given complete flexibility to spend 
        money, even appropriated funds and vested assets, as it 
        views necessary without project-by-project oversight by 
        Washington.

    In assessing the President's supplemental request, Congress 
must ask: Are the best mechanisms in place to provide resources 
for Iraq reconstruction? What role should each U.S. Government 
agency play in that reconstruction process? How should we 
reorganize our own Government to recruit the necessary 
personnel and provide the best administration of national and 
international resources in current and future nation-building 
endeavors? And how much authority should U.S. agencies, the 
Coalition Provisional Authority, and even the Iraqi Governing 
Council and the Iraqi ministers it has appointed have in 
allocating those resources and setting priorities?
    In addition to being the first of our current series of 
hearings on Iraq, this is the 10th hearing on Iraq held by the 
Foreign Relations Committee this year. We have tried to provide 
a forum in the committee for the constructive discussion of 
Iraq policy. In our last hearing on July 29, I said that our 
national sense of confidence and commitment in Iraq must 
approximate what we demonstrated during the Berlin Airlift, a 
sense that we could achieve the impossible, despite short time 
constraints and severe conditions of risk and consequences. I 
still believe that America can achieve our objectives in Iraq, 
and I look forward to this series of hearings which will help 
inform the congressional component of these efforts.
    At this point, I welcome again the witnesses, and I know 
that we have a batting order for testimony today, which I would 
suggest be, first of all, Brian Atwood; second, Jim Dobbins; 
and third, John Hamre. I think that comports with your 
understanding. At this point, Dean Atwood, I would recognize 
you for your testimony.

STATEMENT OF HON. J. BRIAN ATWOOD, DEAN, HUMPHREY INSTITUTE OF 
PUBLIC AFFAIRS, UNIVERSITY OF MINNESOTA, MINNEAPOLIS, MINNESOTA

    Dean Atwood. Thank you very much, Mr. Chairman. It is very 
nice to be back at this table before the Foreign Relations 
Committee, and I very much appreciate your leadership and that 
of Senator Hagel. I think you have enlightened the American 
people on several of the issues that we confront today.
    Mr. Chairman, I support our efforts to transform Iraq. I 
opposed going in without the support of the international 
community, but that is the past. If we now fail to build a 
stable and democratic Iraq, we will have handed terrorism a 
major victory.
    I also support the President's request for supplemental 
resources for Iraq, but only if there are conditions attached 
to this appropriation that alter the approach that we have 
heretofore taken. In my view, proceeding on the current path 
could mean throwing good money after bad.
    My experience with post-conflict situations leads me to 
conclude that there are no prototypes. Every situation is 
messy. Each requires a strong security umbrella, deft diplomacy 
to achieve a semblance of agreement among factions, effective 
humanitarian relief for the victims of violence, and strong 
reconstruction and development programs that reinforce the 
effort to reconcile differences and give palpable hope to the 
population.
    These situations also require a strong international 
presence that establishes the legitimacy of the transition, 
signals the concern of the global community, and enables many 
nations to utilize their strongest assets and their resources 
to build a new nation. This multiplicity of missions and 
organizations, from military units to humanitarian NGO's, 
creates very difficult interfaces between organizational 
cultures and not a small amount of tension. Still, if there is 
a well-understood plan and a vision for the future that the 
local population shares, the transition can surmount the bumps 
in the road and move forward.
    Several of these key elements are missing in Iraq. Most 
importantly, there is no clearly understood plan that is 
embraced by the Iraqi people and by the organizations working 
there. The constant shifts in position by the Coalition 
Provisional Authority are confusing to Iraqis. No one knows 
whether we are building the nation from the top down or from 
the bottom up. Is the United States really interested in 
creating an Iraqi democracy, or are we fearful that giving 
power to the Iraqi people will produce policies counter to our 
interests? Perhaps the worst manifestation of this confusion is 
a growing belief on the part of ordinary Iraqis that the chaos 
they are experiencing must be what we Americans really want.
    I do understand that a new plan, a 98-page plan, has been 
released to the Congress and sent here. I welcome that. I do 
think it's very, very important that that plan be made public 
and that the Iraqi people embrace it. Clearly, that is a step 
in the right direction.
    No transition can proceed apace without security. Today 
there is no pervasive security presence on the ground in Iraq. 
Our troops are either protecting key institutions or they 
remain garrisoned in secure locations. They are seen only 
rarely by Iraqis, usually in fast-moving convoys going from one 
location to another. We are spread too thin to offer the 
security umbrella needed to protect the essential transition 
activities.
    Mr. Chairman, the Brahimi panel on UN operations, on which 
I served, warned the Security Council that UN peacekeepers 
should not be deployed unless and until they had mustered a 
force of sufficient size and capability to defeat or deter the 
``lingering forces of war.'' The coalition led by the United 
States and Britain did not heed that advice in Iraq. The 
consequence is that many of our soldiers have paid the ultimate 
price and Iraq has become a magnet for terrorists who see it as 
part of the international battleground for their cause.
    We do not have the option of leaving Iraq in this era of 
terrorism. Yet, we owe it to our military to give them the 
force structure to protect themselves. To date, the young men 
and women of our military services have not been well served by 
the civilian leadership of the Pentagon.
    It is critically urgent to establish a security umbrella 
for Iraq and to secure a UN resolution authorizing a UN 
peacekeeping force. When this is in hand, we should then 
request that NATO form the core of that force. A failure in 
Iraq would be a direct threat to our European allies in that it 
would facilitate the spread of terrorism. This is, therefore, a 
legitimate role for NATO. We have a strong case to take to the 
leaders of the NATO nations, but we cannot take that case to 
them until the UN acts.
    We must also accelerate the training of an Iraqi military 
force and a separate police contingent, but we cannot rush that 
process, and we are perhaps already guilty of having done that. 
In the meantime, we urgently need a pervasive blue-hatted UN 
presence in the country.
    Mr. Chairman, I fear we will fail in our effort to gain an 
international consensus and a strong UN resolution so long as 
we continue to insist that the civilian transition be under an 
American administrator. The French Government's position that 
we should transfer power to the Iraqis within months is wrong. 
I agree with Secretary Powell that if we rush this transfer, we 
will have created a very fragile government whose legitimacy 
will be questioned each time a crisis arises. But in the 
interim, the administration of Iraq should be UN not U.S.
    The U.S. does not need the high profile it now has in Iraq. 
In fact, this profile has both raised and then dashed Iraqi 
expectations with the sad result that Iraqis today believe that 
their current state of chaos is an American plot. It is time, 
it seems to me, to announce that we are at least willing to 
step aside after a short transition period in favor of a 
representative of the UN Secretary-General who will coordinate 
the multi-faceted transition activities. This is important in 
encouraging other donors to come forward and enabling all 
relevant UN specialized agencies to play an even larger role.
    A concession on this point, Mr. Chairman, may make other 
Security Council members more likely to accept U.S. leadership 
of the peacekeeping force. I believe that having an American 
military commander, hopefully of a NATO core force, would be 
well worth the price of giving up the American civilian 
administrator, and I might add this is not a reflection on 
Ambassador Jerry Bremer, a former colleague of mine at the 
State Department, who is a very competent professional. Rather, 
it recognizes that our goals can better be accomplished with a 
broader UN-sanctioned international coalition and a lower 
American profile.
    It is also time, Mr. Chairman, to end the Pentagon's 
control over the civilian side of the reconstruct effort. My 
experience in working with the military in Kosovo, Bosnia, and 
Haiti is that they are highly efficient in undertaking both 
engineering and logistical missions in post-conflict 
transitions. These capabilities and the security umbrella they 
provide contribute greatly to a reconstruction effort. The 
problem is that DoD's tasking procedures and their coordination 
protocols do not translate well in a fluid transitional 
civilian environment. NGO's do not work well under Pentagon 
task orders, nor do the contractors whose expertise lies in 
various essential development or humanitarian fields, such as 
education, health care, or democratization. Furthermore, DoD 
has precious few professionals who have worked in foreign 
cultures. DoD professionals tend to approach a transition as if 
it were a linear exercise, proceeding from mission to mission. 
What is needed are multiple activities undertaken 
simultaneously, humanitarian relief, reconciliation programs, 
infrastructure repairs, political and economic development. 
These are not part of the Pentagon's playbook.
    Mr. Chairman, I would urge this committee to separate out 
the reconstruction portion of this supplemental request and 
authorize it for expenditure by the State Department and USAID. 
State can use these resources to leverage other donors. It also 
can make resources available to UN agencies through its 
International Organizations and Refugee Bureaus, and AID should 
vastly expand its ground presence and those of its NGO and 
contractor network. Its Office of Transitions Initiatives has 
great flexibility in transitions, and its professionals are 
comfortable working in foreign environments, even very 
difficult ones. Such a move also would allay the concerns of 
other potential donors who normally work on the ground with 
State and AID and who feel uncomfortable working directly with 
the Department of Defense.
    These two actions by our Government, yielding control of 
the civilian operations to the UN and removing the Pentagon 
from full control of the reconstruction funding, would 
dramatically improve the international climate and enhance our 
prospects for burden-sharing. It is vitally important that we 
begin immediately to internationalize this effort. American 
talent and resources are desperately needed if the transition 
is to succeed, but we do not need control, and we most 
certainly do not need such a high profile. If we back the UN, 
the UN has a greater chance of success than does the near 
unilateral approach we have taken to date.
    Mr. Chairman, it seems to me that the window for democracy 
is still open in Iraq, but it will not be open much longer. 
Political parties are proliferating, and yet there is little 
understanding there of how the search for power relates to 
other democratic values, such as the protection of minorities. 
Iraqis are pleased that Saddam is gone, but at the same time, 
they consider themselves to be ungovernable. Some say that they 
need 12 Saddams to govern the country. Many equate democracy 
with the chaos and the street violence that they are now 
experiencing. They also believe that the Americans could stop 
all of this and bring order if we wanted to. So once again, we 
are reminded that progress in these situations is tied to 
security.
    Democracy in Iraq cannot be imposed from the top down. If 
that is the exit strategy of the administration, it will fail. 
It does seem to be the strategy of the French Government, and I 
disagree with it intensely. Before the window of opportunity 
closes, it is urgent that we start a bottom-up democratization 
and community reconciliation effort now. This means electing 
neighborhood councils, school boards, and eventually village 
and municipal councils. These communities understand their 
needs, and if they are given the legitimization of their fellow 
citizens through localized elections, they can be the channel 
for informing the reconstruction efforts.
    The next step would be for communities to work together in 
regional institutions. The combination of representative local 
government and rising levels of hope that will flow from 
tangible progress in fixing the nation's infrastructure will 
prepare the foundation for a national constitution and 
elections.
    Mr. Chairman, the time is short, and we have already wasted 
precious moments. The only way to overcome the very poor 
beginning we have made in Iraq is to fundamentally change our 
approach. That means internationalizing the effort under UN 
auspices, shifting responsibility for civilian reconstruction 
operations to civilian agencies, and moving from a top-down to 
a bottom-up reconstruction strategy. The first requirement is, 
as always, security. A UN force large enough to defeat and/or 
deter our potential enemies, commanded by an American and with 
NATO at its core, is the sine qua non for success. To achieve 
that goal, we will have to give up American control of the 
civilian transition. We should do this because it is consistent 
with our long-term objectives. I urge this committee to 
separate out the reconstruction resources requested in this 
supplemental to enhance our prospects for internationalizing 
the effort.
    Thank you, Mr. Chairman.

    [The prepared statement of Dean Atwood follows:]

                 Prepared Statement of J. Brian Atwood

    Chairman Lugar, Senator Biden, members of the Foreign Relations 
Committee, it is good to be back at this table. Thank you for inviting 
me.
    I am pleased to offer my thoughts today on the President's 
supplemental request for the reconstruction effort in Iraq. This 
committee's inquiry is vitally important to Americans who are today 
preoccupied with the threat of terrorism and who are becoming 
increasingly worried that our intervention in Iraq has run off the 
tracks and has not made them safer.
    Mr. Chairman, I support our efforts to transform Iraq. I opposed 
going in without the support of the international community, but that 
is the past. If we now fail to build a stable and democratic Iraq, we 
will have handed terrorism a major victory. I also support the 
President's request for supplemental resources for Iraq, but only if 
there are conditions attached to this appropriation that alter the 
approach the administration has taken to date. Proceeding on the 
current path will mean throwing good money after bad.
    I worked on several post-conflict reconstruction missions during my 
tenure at USAID. I also served on a panel created by UN Secretary 
General Kofi Annan to review UN peace operations. The panel's report, 
known as the Brahimi Report, after our chairman, offered several 
recommendations for improving UN peace-keeping and peace-building 
operations. More recently, I participate in the joint CSIS and U.S. 
Army Association study on Post-Conflict Reconstruction chaired by my 
fellow panelist John Hamre and General Gordon Sullivan. I was a member 
of the Council on Foreign Relations Commission that produced the study 
tided ``Iraq: The Day After.'' And finally, I serve on the Board of the 
National Democratic Institute (NDI), an organization that is working in 
Iraq to build support for democratic change. References to Iraqi 
opinion in this testimony are derived from recent focus group research 
conducted by NDI in 15 locations in Iraq.
    Mr. Chairman, my experience with post-conflict situations leads me 
to conclude that there are no prototypes. Every situation is messy. 
Each requires a strong security umbrella, deft diplomacy to achieve a 
semblance of agreement among factions, effective humanitarian relief 
for the victims of violence and strong reconstruction and development 
programs that reinforce the effort to reconcile differences and give 
palpable hope to the population.
    These situations also require a strong international presence that 
establishes the legitimacy of the transition, signals the concern of 
the global community and enables many nations to utilize their 
strongest assets and their resources to build a new nation. This 
multiplicity of missions and organizations--from military units to 
humanitarian NGO's--creates very difficult interfaces between 
organizational cultures and not a small amount of tension. Still, if 
there is a well-understood plan and a vision for the future that the 
local population shares, the transition can surmount the bumps in the 
road and move forward.
    Several of these key elements are missing in Iraq. Most 
importantly, there is no clearly understood plan that is embraced by 
the Iraqi people and by the organizations working there. The constant 
shifts in position by the Coalition Provisional Authority are confusing 
to Iraqis. No one knows whether we are building the nation from the, 
top down or from the bottom up. Is the United States really interested 
in creating an Iraqi democracy, or are we fearful that giving power to 
the Iraqi people will produce policies counter to our interests? 
Perhaps the worst manifestation of this confusion is a growing belief 
on the part of ordinary Iraqis that the chaos they are experiencing 
must be what we Americans really want.
    No transition can proceed apace without security. Today there is no 
pervasive security presence on the ground in Iraq. Our troops are 
either protecting key institutions or they remain garrisoned in secure 
locations. They are seen only rarely by Iraqis, usually in fast-moving 
convoys going from one location to another. We are spread too thin to 
offer the security umbrella needed to protect the essential transition 
activities.
    Mr. Chairman, the Brahimi panel on UN peace operations, warned the 
Security Council that UN peacekeepers should not be deployed unless and 
until they had mustered a force of sufficient size and capability to 
defeat or deter the ``lingering forces of war.'' The coalition led by 
the United States and Britain did not heed that advice in Iraq. The 
consequence is that many of our soldiers have paid the ultimate price 
and Iraq has become a magnet for terrorists who see it as part of the 
international battleground for their cause.
    Iraq today is reminiscent of the situation the Clinton 
administration faced in Somalia in 1993-94. We did not have a clear 
mission there and we did not have enough troops to protect ourselves. 
When we suffered through incidents such as ``Black Hawk Down,'' the 
inadequacy of our force size became obvious. Our departure from Somalia 
followed, a Secretary of Defense resigned and the ``Somalia syndrome'' 
inhibited decision makers for several years.
    We do not have the option of leaving Iraq in this era of terrorism. 
Yet, we owe it to our military to give them the force structure to 
protect themselves. To date, the young men and women of our military 
services have not been well served by the civilian leadership of the 
Pentagon.
    It is critically urgent to establish a security umbrella for Iraq 
and to secure a UN resolution authorizing a UN peacekeeping force. When 
this is in hand, we should then request that NATO form the core of that 
force. A failure in Iraq would be a direct threat to our European 
allies in that it would facilitate the spread of terrorism. This is, 
therefore, a legitimate role for NATO. We have a strong case to take to 
the leaders of the NATO nations.
    We must also accelerate the training of an Iraqi military force and 
a separate police contingent. The Iraqis need to take control of their 
own security, but this process cannot be rushed. Arming Iraqis before 
vetting them and training them thoroughly would be very dangerous. We 
are already guilty of having done that. In the meantime, we urgently 
need a pervasive blue-hatted UN presence in the country.
    Mr. Chairman, I fear we will fail in our effort to gain an 
international consensus and a strong UN resolution so long as we 
continue to insist that the civilian transition be under an American 
Administrator. The French government's position that we should transfer 
power to the Iraqis within months is wrong. I agree with Secretary 
Powell that if we rush this transfer, we will have created a very 
fragile government whose legitimacy will be questioned each time a 
crisis arises. But in the interim, the administration of Iraq should be 
UN, not U.S.
    The United States does not need the high profile it now has in 
Iraq. In fact, this profile has both raised and then dashed Iraqi 
expectations with the sad result that Iraqis believe that their current 
state of chaos is an American plot. It is time to step aside in favor 
of a Representative of the UN Secretary General who will coordinate the 
multi-faceted transition activities. This also will encourage other 
donors to come forward and enable all relevant UN specialized agencies 
to play an even larger role.
    A concession on this point, Mr. Chairman, may make other Security 
Council members more likely to accept U.S. leadership of the 
peacekeeping force. I believe having an American military commander, 
hopefully of a NATO core force, would be well worth the price of giving 
up the American civilian administrator. This is not a reflection on 
Ambassador Jerry Bremer, a very competent professional. Rather, it 
recognizes that our goals can better be accomplished with a broader UN-
sanctioned international coalition and a lower American profile.
    It also is time, Mr. Chairman, to end the Pentagon's control over 
the civilian side of the reconstruction effort. My experience in 
working with the military in Kosovo, Bosnia and Haiti is that they are 
highly efficient in undertaking both engineering and logistical 
missions in post-conflict transitions. These capabilities--and the 
security umbrella they provide--contribute greatly to a reconstruction 
effort. The problem is that DoD's tasking procedures and their 
coordination protocols do not translate well in a fluid transitional 
civilian environment. NGO's do not work well under Pentagon ``task 
orders,'' nor do the contractors whose expertise lies in various 
essential development or humanitarian fields, such as education, 
healthcare or democratization. Furthermore, DoD has precious few 
professionals who have worked in foreign cultures. DoD professionals 
tend to approach a transition as if it were a linear exercise, 
proceeding from mission to mission ad seriatum. ``What is needed are 
multiple activities undertaken simultaneously--humanitarian relief, 
reconciliation programs, infrastructure repairs, political and economic 
development. These are not part of the Pentagon's playbook.
    Mr. Chairman, I would urge this committee to separate out the 
reconstruction portion of this supplemental request and authorize it 
for expenditure by the State Department and USAID. State can use these 
resources to leverage other donors. It also can make resources 
available to UN agencies through its International Organizations and 
Refugee Bureaus. USAID should vastly expand its ground presence and 
those of its NGO and contractor network. Its Office of Transitions 
Initiatives has great flexibility in transitions and its professionals 
are comfortable working in foreign environments, even very difficult 
ones. Such a move also would allay the concerns of other potential 
donors who normally work with State and AID and who feel uncomfortable 
working directly with the Defense Department.
    These two actions by our government--yielding control of the 
civilian operations to the UN and removing the Pentagon from full 
control of the reconstruction funding--would dramatically improve the 
international climate and enhance our prospects for burden sharing. It 
is vitally important that we begin immediately to internationalize this 
effort. American talent and resources are needed if this transition is 
to succeed, but we do not need control and we most certainly do not 
need such a high profile. If we back the UN, the UN has a greater 
chance of success than does the near-unilateral approach we have taken 
to date.
    Mr. Chairman, the focus group research conducted by NDI shows that 
the window is still open for democracy in Iraq. Political parties are 
proliferating, yet there is little understanding of how the search for 
power relates to other democratic values, such as the protection of 
minorities. Iraqis are pleased that Saddam is gone, but, at the same 
time, they consider themselves to be ungovernable. Some will say they 
need 12 Saddams to govern the country. Many equate democracy with the 
chaos and street violence they are now experiencing. They also believe 
that the Americans could stop all of this and bring order if we wanted 
to. Once again, we are reminded that progress in these situations is 
tied to security.
    Democracy in Iraq cannot be imposed from the top down. If that is 
the exit strategy of the administration, it will fail. Before the 
window of opportunity closes forever, it is urgent that we start a 
bottom-up democratization and community reconciliation effort now. This 
means electing neighborhood councils, school boards and eventually 
village and municipal councils. These communities understand their 
needs, and if they are given the legitimization of their fellow 
citizens through localized elections, they can be the channel for 
informing the reconstruction efforts.
    The next step would be for communities to work together in regional 
institutions. The combination of representative local government and 
rising levels of hope that will flow from tangible progress in fixing 
the nation's infrastructure, will prepare the foundation for a national 
constitution and national elections.
    Mr. Chairman, time is short and we already have wasted precious 
moments. The only way to overcome the very poor beginning we have made 
in Iraq is to fundamentally change our approach. That means 
internationalizing the effort under UN auspices, shifting 
responsibility for civilian reconstruction operations to civilian 
agencies and moving from a top-down to a bottom-up reconstruction 
strategy. The first requirement is, as always, security. A UN force 
large enough to defeat and/or deter our potential enemies, commanded by 
an American and with NATO at its core, is the sina qua non for success. 
To achieve that goal, we will have to give up American control of the 
civilian transition. We should do this because it is consistent with 
our long-term objectives. I urge this committee to separate out the 
reconstruction resources requested in this supplemental to enhance our 
prospects for internationalizing this effort.

    The Chairman. Thank you very much, Dr. Atwood.
    I would like to call now on the ranking member, Senator 
Biden, for his opening statement.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    Senator Biden.  Thank you, Mr. Chairman. I will not take 
the time to do my whole opening statement except to begin by 
welcoming three distinguished witnesses. We are truly grateful 
that you are here. You have had vast experience, all three of 
you, and I am anxious to hear what all three have to say.
    I will just say that I was pleased the President went to 
the United Nations. I share Brian's concern about the French 
plan, which I think is a plan for failure, but I also am 
disappointed that the President did not more definitely put the 
French in the position where their plan was able to be shown to 
be one that did not make much sense. Instead, I had hoped that 
he would speak more about what our objectives were in concrete 
terms and our willingness to share that responsibility and ask 
for participation and help.
    But I will refrain from the rest of my statement, except to 
say, Dr. Hamre, your report, I think, was absolutely first-
rate. I am fearful that that window is closing, and there is 
not much room left now. What you and your committee warned us 
all about may come to pass.
    So I hope that your testimony today. and Mr. Bremer's 
tomorrow and others', can generate some consensus to flow from 
this moment on about how to do what we all acknowledge we have 
to do. We either get the world community involved in paying 
part of the freight and taking part of the responsibility, or 
we do it all ourselves. I mean, that is it. This is not rocket 
science. This is not that hard in terms of the basic objective. 
Or we walk away, which would be an absolute, unmitigated 
disaster.
    So, Mr. Chairman, I ask unanimous consent that my statement 
be placed in the record.
    I hope we get a chance to pursue some of--and you are kind 
of going to be preaching to the choir I think. This is an issue 
where the division politically has been negligible in terms of 
partisanship up here. We all want to succeed. So I look forward 
to having a chance to have a little discussion with you after 
your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Well, thank you very much, Senator Biden, and 
your statement will be published in full in the record.

    [The prepared statement of Senator Biden follows:]

                  Prepared Statement of Senator Biden

    Secretary Hamre, Dean Atwood, Ambassador Dobbins, it is a pleasure 
to welcome you before the committee. Each of you has a wealth of 
experience and wisdom to offer as we seek to chart a course that will 
lead to success in Iraq.
    Two weeks ago, President Bush made an apparent U-turn in his Iraq 
policy that, in my judgment, finally sets us in the right direction. It 
was a change in course that many of us had been advocating for months.
    First, the President vowed to make Iraq the world's problem, not 
just our own, by going back to the U.N. and seeking the support of its 
members for troops and money.
    Second, the President began to level with the American people about 
the hard road ahead to win the peace. It will take years, require 
billions of dollars, and call on tens of thousands of troops. He 
acknowledged that our mission in Iraq is far from accomplished. In 
fact, it has only just begun.
    The administration's mid-course correction is belated recognition 
that we have not, as some administration officials seemed to suggest, 
won some sort of a prize in Iraq. Far from it. Iraq is an enormous 
challenge with a hefty price tag.
    But it is a challenge we must meet. If we fail, the impact on our 
national security would be grave. Failure is not an option.
    Losing the peace in Iraq could condemn that country to a future as 
a failed state. We know from bitter experience that failed states are 
breeding grounds for terrorism. Equally bad, losing the peace could 
mean the return of the old regime, emboldened by the belief that it had 
defeated America.
    Losing the peace would enhance the power and influence of hard-
liners in Iran and Syria. It would put moderates and reformers in 
Jordan, Egypt and Saudi Arabia on the defensive. It would make reviving 
the Middle East peace process even more difficult. Combined with a 
potential failure in Afghanistan, losing the peace in Iraq would even 
risk Pakistan, a nuclear armed state, falling into the hands of 
extremists.
    In short, losing the peace in Iraq would mark a major victory for 
the forces of tyranny and terrorism and a significant setback for the 
forces of progress and modernization. Our credibility in Iraq, the 
region, and across the globe would hit rock bottom. America and 
Americans would be far less secure.
    We must show the wisdom and the commitment to help Iraq write a 
different future. If we succeed in transforming Iraq into a stable, 
unified country with a representative government, there will be 
significant benefits to our national security.
    Success in Iraq could begin the process of altering the strategic 
map of the region. It could boost reformers in Iran, Saudi Arabia, 
Egypt and elsewhere. It would put Syria and its allies in Hezbollah on 
the defensive.
    Success in Iraq would improve the prospects for Israeli-Palestinian 
peace. It would deal a significant setback to those who argue that the 
only future for Arabs and Muslims is one of religious extremism, 
perpetual conflict with imagined enemies, economic stagnation, and 
autocratic
government.
    It is critical that we inject a sense of urgency into our efforts. 
Time is running out. Dr. Hamre, your report of two months ago 
emphasized that the window of opportunity was closing fast. If Iraqis 
don't begin to see law and order, basic services, and the economy 
improve rapidly, we may well lose them. If that happens, it will make 
the current insecurity look mild by comparison.
    Not only do we risk losing the Iraqi people, we may lose the 
American people if they believe that we are not telling them the truth 
or doing all we can to share the enormous burden in Iraq.
    That is why we need a Security Council resolution that gives 
political cover to leaders around the world so that they can contribute 
funds, troops, and police. Without that assistance we will continue to 
provide nearly 90% of the troops, take more than 90% of the casualties, 
and pay for well over 90% of the costs of reconstruction.
    Some may argue that a new Security Council resolution is not worth 
the effort because it will not immediately result in a large number of 
foreign troops or financial aid. That argument misses the point. A new 
resolution will increase the legitimacy of our efforts. And, over time, 
if the President demonstrates a sincere commitment to working with our 
international partners, it will yield tangible results.
    Relations that were strained for more than two years by this 
administration's ``our way or the highway'' approach will not be mended 
overnight. What is important is that we start the process of repairing 
them. That is what a new Security Council resolution represents and why 
it is so important to achieve. I urge the President to not waiver from 
the path he appeared to choose when he addressed the nation two weeks 
ago.
    Dr. Hamre, Ambassador Dobbins and Dean Atwood, I hope you will give 
us your best judgment today on what we need to do over the next several 
weeks and months to get on track in Iraq. What are the most urgent 
tasks on the ground? How do we accomplish them? How do we convince more 
countries to share the burden? What should we be prepared to give up to 
get them on board. And Dr. Hamre, I'd especially like to know from you 
whether the recommendations you made in your report two months ago are 
being followed.
    I look forward to your testimony.

    The Chairman. I would like to recognize now Ambassador 
Dobbins.

   STATEMENT OF HON. JAMES DOBBINS, DIRECTOR, INTERNATIONAL 
  SECURITY AND DEFENSE POLICY CENTER, RAND WASHINGTON OFFICE, 
                      ARLINGTON, VIRGINIA

    Ambassador Dobbins. Thank you very much, Mr. Chairman. I am 
honored to be called to testify before this committee and to do 
so in such distinguished company.
    At RAND, we have recently completed a study of the American 
experience in nation-building, going back to Germany and Japan 
after 1945 and then Somalia, Haiti, Bosnia, Kosovo, and 
Afghanistan in the '90's, into the current decade. I think 
looking at the early months in Iraq, one would have to conclude 
that the most important lesson learned from the Iraq experience 
is that we have not learned the lessons of our experience over 
the last 60 years adequately and particularly the experience of 
the last decade. After all, this is the sixth major nation-
building exercise which the United States has launched in a 
decade; and incidentally, five of those have been in Muslim 
nations. Now, the issue therefore is we have had a lot of 
experience in this. We should be getting better. We are not. 
And the question arises as to why not.
    For the last decade, successive administrations have tended 
to treat each new operation as if it was the first they had 
ever encountered and tended to send new people with new ideas 
to face old problems, and not surprisingly, they often made old 
mistakes.
    But perhaps more seriously we have tended to treat each of 
these missions as if it is the last we are ever going to do, 
and the result is, when the mission is concluded, we tend to 
dissipate the people who participated in it. We do not have a 
system of studying the lessons, of integrating them into our 
strategy, into our doctrine, into our planning for future 
missions. We do not have a system by which personnel who engage 
in this are rewarded, they are kept within the system, are 
trained, and are made available for future such operations.
    Now, this endless and repeated improvisation reflects a 
view that nation-building is an aberration, a once off mission 
that is not likely to be repeated. Yet, in the '90's, the 
Clinton administration conducted a major nation-building 
exercise operation on the average every 2 years, and the 
current administration, which came into office strongly 
disinclined to continue engaging in these kinds of activities, 
has found itself compelled as the result of circumstances to 
launch two such operations within 18 months. So I think that 
the conclusion that all of us need to come to is that nation-
building is, in the current world environment, an inescapable 
responsibility for the world's only superpower and one, 
therefore, that we need to learn to do better.
    Our first task obviously is to do better in Iraq, and I 
appreciate the opportunity to comment on how the United States 
can best organize itself and the international community to 
succeed in that task. But I do urge that we look beyond Iraq 
and also ask ourselves how we can do better next time, how we 
can ensure that the lessons we learn in Iraq are integrated in 
our efforts to handle the next such mission.
    In our studies, we found that both the German and Japanese 
occupations, as well as the more recent nation-building 
experiences of the 1990's, have lessons to teach that are 
applicable in Iraq. But of them, I would have to say that Iraq 
is more like Yugoslavia in the 1990's than it is Germany or 
Japan in the 1940's. Germany and Japan had homogeneous 
populations and first-world economies. Iraq and Yugoslavia, on 
the other hand, were both multi-ethnic states carved out of the 
Ottoman Empire at the end of the Second World War. Both 
comprised populations that were sharply divided along ethnic 
and religious grounds. And of course, Iraq like Bosnia and 
Kosovo is Muslim.
    One major difference between Bosnia and Kosovo, on the one 
hand, and Iraq on the other, is that the latter is roughly 10 
times bigger than either of the former. This means that Iraq's 
stabilization and reconstruction was always likely to require 
roughly 10 times more men and 10 times more money than was the 
case in Kosovo or Bosnia.
    Now, the very scale of the task upon which we have embarked 
does suggest that broad burden-sharing on the model of the 
1990's would have been more appropriate than the largely 
unilateral approach taken by the United States to its nation-
building experiences in the 1940's.
    In the 1940's, after all, the United States produced 50 
percent of the world's wealth; 50 percent of global GDP was 
made in America. We could afford to bear the burden of German 
and Japanese reconstruction largely unaided. In fact, there was 
no real alternative. Either we did it or nobody was going to do 
it. But today, and in the 1990's, the United States represents 
only about 22 percent of the world's wealth. This meant that 
burden-sharing and broad participation became both more 
feasible and, for the American taxpayer, more essential. As a 
result, through the last decade, the United States and its 
allies grappled with the need, on the one hand, to preserve 
adequate unity of command in these kinds of operations because 
that is important, while on the other hand maximizing 
participation, recognizing that other countries would 
participate significantly only to the extent they were given a 
voice in the management of the enterprise commensurate with 
their participation.
    In Somalia and Haiti, we experimented with a chronological 
division of labor. The U.S. led a largely U.S.-funded, U.S.-
manned coalition for the first 6 months, and then we turned it 
over to the UN after 6 months. That worked very poorly in 
Somalia. It worked a little better in Haiti. In Bosnia and 
Kosovo, we looked at a different division of labor. It was 
functional rather than chronological. It was a division of 
labor, where NATO, under American leadership, managed the 
military tasks while either an ad hoc coalition in Bosnia or 
the UN in Kosovo managed the civil tasks.
    It does seem to me that the Bosnian and Kosovo experiences 
can serve as useful models in considering how to organize the 
international role in Iraq. In both cases, the military tasks 
were organized by NATO. They integrated a number of non-NATO 
nations, as well as NATO allies. In Bosnia, the United States 
contributed 22 percent of the total in troops and money. In 
Kosovo, we got that down to 16 percent and yet were able to 
exercise adequate leadership and strong unity of command.
    On the civil side, there are two models. One would be the 
model that Brian has already alluded to of a UN administrator, 
but the alternative model in Bosnia is an administrator that 
genuinely represents a coalition, not the UN, but a coalition 
of countries that are contributing to the achievement of the 
mission. That also, I think, is a viable model for Iraq.
    Whatever the specific institutional arrangements that 
emerge from the current negotiations in New York, the United 
States will, in any case, have to take the lead in integrating 
the efforts and contributions of other nations. On the civil 
side, this is preeminently a job for the State Department, 
assisted by Treasury, AID, Justice, and others. But State is 
going to have a difficult time coordinating the participation 
of others in an exercise in which it bears little direct 
responsibility.
    Now, looked at solely from an internal U.S. perspective, 
one can make a good case for either State or DoD having the 
lead in civil reconstruction. State has the expertise. DoD has 
the resources. And unity of command is important, and the 
military role at this phase is the dominant role.
    Within Iraq itself, this distinction makes little practical 
difference. General Sanchez and Ambassador Bremer both report 
up separate command chains. Neither of them works for the 
other.
    In Washington, the appointment of a single lead agency does 
fix responsibility, but it also tends to disincentivize the 
other agencies whose participation is important.
    And whatever the virtues of the current arrangement inside 
the Washington beltway, the centralization of civil 
responsibilities under DoD does present an obstacle to broader 
multinational participation. However the United States chooses 
to organize itself, other nations are going to continue to 
assign civil responsibilities to civil agencies, and those 
civil agencies will expect to be able to collaborate with their 
American homologues.
    Now, Iraq is not the last time that the United States is 
going to find itself leading a multinational effort to rebuild 
a shattered nation. Failed states in ungoverned territories 
represent fundamental challenges to the international system, 
as we discovered on September 11th, and there are all too many 
of them around the world.
    Over the past decade, the United States has made a very 
significant investment in the combat efficiency of its forces. 
We have seen, as the result of that, how we can, from one 
combat to the next, from the first Gulf War to Kosovo to the 
second Gulf War, do more with less, defeat larger, more capable 
adversaries with smaller forces, with lower casualties more 
quickly. There has been no comparable increase in the capacity 
of the U.S. armed forces or of the U.S. civil agencies to 
manage the post-conflict reconstruction and stabilization 
missions. And the reason for this, in my judgment, is there has 
been no commensurate investment in their capability to do so.
    In the last decade, there was a gradual learning curve. We 
never got good, but we did get better. Haiti was better managed 
than Somalia. It would be hard not to be. Bosnia was better 
managed than Haiti; Kosovo was better managed than Bosnia. 
There was a modest learning curve which has not been sustained 
into the current decade.
    If agencies are to make investments to improve their 
capacity to conduct post-conflict reconstruction and 
stabilization, they need, first of all, a clear sense of their 
future responsibilities. In the 1990's, in the aftermath of the 
Somalia debacle, the U.S. military's role in nation-building 
was probably excessively circumscribed. It was too narrow. For 
instance, tasks that might have better been done by DoD, like 
training the Bosnian and Croatian armies, were left to the 
State Department. In the current decade, we seemed to have 
moved in the opposite direction in which civil responsibilities 
that DoD has not exercised since 1952 were transferred to it en 
masse a few weeks before the beginning of the current conflict, 
which at a minimum imposed huge additional start-up costs to an 
already complex, difficult exercise.
    If we are going to do this better in the future, what we 
need is a playbook that everybody has bought into, the 
Congress, the administration, Democrats and Republicans. In my 
view what is needed is a comprehensive and definitive 
description of each agency's responsibilities in such 
circumstances, laid out in legislation that enjoys bipartisan 
support and is the result of close collaboration between the 
executive and legislative branches. Just as
the Goldwater/Nichols Act and preceding legislation provides 
the
institutional framework for which America prepares for and
conducts its wars, so a similarly enduring arrangement should 
be
established for the conduct of post-conflict reconstruction and
stabilization.
    I also would suggest that there could be some streamlining 
and reform on the legislative side. At present, reconstruction 
funding tends to take many forms: development assistance, 
economic security assistance, peacekeeping funds, humanitarian 
assistance, refugee and migration assistance, foreign military 
assistance, human rights assistance, et cetera. Each funding 
source comes with different mandates and restrictions. Each is 
allocated to and controlled by different elements of the 
administration's bureaucracy. Each has different constituencies 
and different oversight arrangements in the Congress. No 
coordinator, no matter how exalted his title, can exercise 
adequate control over these disparate funding sources and 
ensure that they are tailored to the needs of the moment. I 
know, having tried to do so in Somalia, in Haiti, in Bosnia, in 
Kosovo, and finally in Afghanistan, and it was only in the 
Balkans where Congress had already consolidated most of our 
international assistance to that region into a single account 
that it became possible for the coordinator to actually match 
resources with policy in cooperation with the relevant 
committees and, in particular, with the staff of this 
committee.
    In sum, I recommend that Congress and the administration 
work to regularize and institutionalize the manner in which the 
United States handles its post-conflict responsibilities, 
allocating roles among the agencies in a manner most likely to 
endure from one administration to the next and from one party 
to the next. With those kind of long-term expectations, one can 
expect investments to be made in personnel, in capabilities, so 
that the relevant agencies will bring to the next contingency 
the capabilities and the requirements which will be needed in 
those circumstances.
    As I have suggested, Iraq is the sixth major American-led 
nation-building mission in the last decade. We should be 
getting better, but we are not. Iraq is the biggest nation-
building challenge the United States has faced at least since 
the 1940's, but it will not be the last. We should, therefore, 
begin now working to avoid the immense and largely unnecessary 
start-up costs that our lack of foresight, planning, and 
investment have imposed on the current and previous operations.
    Thank you.

    [The prepared statement of Ambassador Dobbins follows:]

             Prepared Statement of Ambassador James Dobbins

    Chairman Lugar and members of committee, thank you for inviting me 
to testify today on the next steps in Iraq's reconstruction.
    If there is any lesson to be learned from our ``post-conflict'' 
involvement in Iraq to date, it is that we have failed to adequately 
learn the lessons from previous such experiences. This is not to say 
that the lessons are undiscovered, obscure or in dispute. On the 
contrary, nearly all who have studied or experienced previous such 
cases agree on the salient lessons to be drawn. But we have not 
institutionalized that knowledge; we have not integrated it into our 
doctrine, our training, and our planning for future operations. Neither 
have we regarded people with experience in this field as a national 
asset, to be retained, rewarded for good service, trained further and 
placed in positions from which they can be made available the next time 
such skills are called for.
    In its early months, the U.S.-led stabilization and reconstruction 
of Iraq has not gone as smoothly as might have been expected, given the 
abundant, recent, and relevant U.S. experience. This is, after all, the 
sixth major nation-building enterprise the United States has mounted in 
the past decade and the fifth such in a Muslim nation. In these 
previous cases the United States and its allies have faced many similar 
challenges. In Somalia, Haiti, Kosovo, and Afghanistan we also saw the 
collapse of central state authority. In each of those instances, local 
police, courts, penal services, and militaries were damaged, disrupted, 
disbanded, or discredited and consequently unavailable to fill the 
post-conflict security gap. In Somalia, Bosnia, Kosovo, and Afghanistan 
extremist elements emerged to fill the resultant vacuum of power. In 
all of these cases organized crime linked to political extremists 
became a major challenge to the occupying authority. In Bosnia and 
Kosovo, U.S.-led stabilization forces ultimately proved adequate to 
surmount these challenges. In Somalia, Afghanistan and Iraq, they did 
not or have not yet.
    Nation-building has been a controversial mission over the past 
decade. The intensity of our domestic debate has inhibited agencies 
from making the investments that would be needed to do these tasks 
better. Institutional resistance in departments of State and Defense, 
neither of which regards nation-building among their core missions, has 
also been an obstacle. As a result, successive administrations have 
treated each new mission as if it were the first and, more importantly, 
as if it were the last. Each time we have sent out new people to face 
old problems, and seen them make old mistakes. Each time we have 
dissipated accumulated expertise after an operation has been concluded, 
failing to study the lessons and integrate the results in our doctrine, 
training and future planning, or to retain and make use of the 
experienced personnel in ways that ensure their availability for the 
next mission when it arrives.
    This endless and repeated improvisation reflects a view that 
nation-building is an aberration, a mission unlikely to be repeated. 
Yet, in the 1990's, the Clinton administration conducted a major 
nation-building intervention, on the average, every two years. The 
current administration, despite a strong disinclination to engage U.S. 
armed forces in such activities, has felt compelled by circumstances to 
launch two major nation-building enterprises within 18 months. It 
should now be clear that nation-building, whatever our preferences, is 
and is likely to remain an inescapable responsibility for the world's 
only superpower.
    The first task before us must be to organize our own and 
international efforts in Iraq to the best effect. But it is not too 
early to look beyond Iraq, and to begin to put in place institutional 
arrangements within the U.S. government that will better equip us to 
handle such responsibilities the next time the need arises.
    Both the German and Japanese occupations and the more recent 
nation-building experience of the 1990's have lessons to teach 
applicable to Iraq. But Iraq today is more like Yugoslavia in the 
1990's than Germany or Japan in the 1940's. Germany and Japan had 
homogeneous populations and first world economies. Iraq and Yugoslavia 
are or were multiethnic states with second world economies carved out 
of the Ottoman empire in the aftermath of WWI. Both comprise 
populations sharply divided along ethnic and religious lines. And of 
course Iraq, like Bosnia and Kosovo, is Moslem.
    One major difference between Bosnia and Kosovo, on the one hand, 
and Iraq, on the other, is that the latter is roughly ten times bigger 
than either of the former. This means that Iraq's stabilization and 
reconstruction is likely to require roughly ten times more money and 
manpower than either of the earlier cases. The very scale of the task 
upon which we have embarked suggests that broad burden sharing, on the 
model of the 1990's, would be more appropriate than the largely 
unilateral approach taken by the United States to its nation-building 
responsibilities in the 1940's.
    In the 1940's, when the United States took on the democratic 
transformation of Germany and Japan, our nation produced half the 
world's wealth. We could bear the burden of German and Japanese 
reconstruction largely unaided. Indeed there was no real alternative to 
our doing so. In the 1990's, as the demand for nation-building again 
rose, the United States produced only 22% of global GDP. Burden sharing 
in such enterprises became both feasible, and, for the American 
taxpayer, essential. Throughout the last decade we grappled, therefore, 
with the need to preserve adequate unity of command while assuring the 
broadest possible participation, recognizing that other countries would 
participate only to the extent that they were given a voice in the 
management of the enterprise commensurate with their contribution.
    In Somalia and Haiti we experimented with a chronological division 
of labor, one in which the U.S. led the first relatively brief phase, 
and then passed responsibility to the UN. This worked poorly in 
Somalia, somewhat better in Haiti. But Haiti was a benign environment. 
In Bosnia and Kosovo we developed a functional rather than 
chronological division of labor, in which NATO, operating under a UN 
mandate, took on the military roles while either an ad hoc coalition, 
in Bosnia, or the UN itself, in Kosovo, took on the civil tasks of 
reconstruction and stabilization.
    The Bosnian and Kosovo experiences can serve as useful models in 
considering how to organize an expanded international presence in Iraq 
today. Under both models, the military tasks were undertaken by a 
coalition of the willing operating under a UN mandate. NATO offered a 
ready-made instrument for managing those coalition operations. Having 
proved itself in Bosnia and Kosovo, NATO is now taking on the 
peacekeeping mission in Afghanistan.
    On the civil side, the Bosnian model, if applied to Iraq, would 
yield a coalition of the willing, again with a UN mandate, but managed 
outside the UN framework. Under such an arrangement Ambassador Bremer 
or his successor would be responsible not simply to Washington, but to 
a broader group of donors, who would staff and pay for the civil 
aspects of Iraq's reconstruction. Under the Kosovo model the UN would 
assume these responsibilities. Under either arrangement, management 
positions would be allocated according to the size of each nation's 
contribution, which is to say that leadership would effectively remain 
with the United States as long as it was the largest troop and money 
contributor.
    Whatever specific institutional arrangements emerge from the 
current negotiations in New York, the United States will need to take 
the lead in integrating the efforts and contributions of other 
countries. On the civil side, this is preeminently a job for the State 
Department, assisted by Treasury, AID, Justice and others. State will 
have difficulty coordinating the participation of others in an 
enterprise for which it bears little direct responsibility.
    Looked at solely from an internal USG perspective; one can make 
good cases for either State or DoD leadership of civil reconstruction. 
State has the expertise, DoD the resources. Unity of effort in such 
operations is important.
    Within Iraq itself, this distinction makes little practical 
difference. General Sanchez and Ambassador Bremer both report up 
separate command chains, and neither works for the other.
    In Washington the appointment of a single lead agency fixes 
responsibility, but also tends to disincentivize other agencies.
    Whatever the virtues of the current arrangement inside the 
Washington beltway, however, the centralization of civil 
responsibilities under DoD presents an obstacle to broader 
multinational participation and true burden sharing. Other nations will 
continue to assign responsibility for civil tasks to their civil 
agencies, and will wish to collaborate with their accustomed partners 
on the U.S. side.
    Iraq is not the last time the United States will find itself 
leading a multinational effort to rebuild a shattered nation. Failed 
states and ungoverned territories represent fundamental challenges to 
the international system no matter how distant, inaccessible or 
impoverished they may be, as we discovered so tragically on September 
11, 2001. Even as we work to get our efforts in Iraq on a better track 
we need to consider how to handle the next such operation more 
successfully.
    Over the past decade, the United States has made major investments 
in the combat efficiency of its forces. The return on investment has 
been evident in the dramatic improvement in war fighting demonstrated 
from Desert Storm to the Kosovo air campaign to Operation Iraqi 
Freedom. There has been no comparable increase in the capacity of U.S. 
armed forces or of U.S. civilian agencies to conduct post combat 
stabilization and reconstruction operations. Throughout the 1990s, the 
management of each major mission showed some limited advance over its 
predecessor. In the current decade, even this modestly improved 
learning curve has not been sustained. The Afghan mission can certainly 
be considered an improvement over Somalia but cannot yet be assessed as 
being more successful than Haiti. It is too early to evaluate the 
success of the post-conflict mission in Iraq, but its first few months 
do not raise it above those in Bosnia and Kosovo at a similar stage.
    If agencies are to make the investments necessary to improve their 
capacity to conduct post-conflict reconstruction and stabilization 
missions, they will need, first of all, a clear sense of their future 
responsibilities. In the 1990's, in the aftermath of the Somali 
debacle, the U.S. military's role in nation-building was excessively 
circumscribed. The State Department was sometimes called upon to manage 
tasks better left to the Defense Department--training the Bosnian and 
Croatian armies for instance. More recently we seem to have moved to 
the opposite extreme, with the Department of Defense assuming 
responsibilities for a wide range of essentially civil tasks. Whatever 
the virtues of this arrangement, the choice, in the weeks leading up to 
the recent conflict, to assign to DoD a broad range of responsibilities 
that it had not exercised since 1952 certainly imposed significant 
additional start-up costs upon an already challenging enterprise.
    There are proposals circulating to create new positions or 
institutions to handle nation-building responsibilities in the future. 
In my own view what is needed above all is a comprehensive and 
definitive description of each agency's responsibilities in such 
circumstances, laid out in legislation that enjoys bipartisan support, 
and is the result of close collaboration between the Executive and 
Legislative branches. Just as the Goldwater/Nichols Act and preceding 
legislation provides the institutional framework through which America 
prepares for and conducts its wars, so a similarly enduring arrangement 
should be established for the conduct of post-conflict reconstruction 
and stabilization missions.
    There is also room for reform on the Legislative side. At present 
reconstruction funding takes many forms--development assistance (DA), 
economic security assistance (ESF), peacekeeping funds (PKO), 
humanitarian assistance, refugee and migration assistance, foreign 
military assistance (FMF), democratization and human rights assistance 
etc. Each funding source comes with different mandates and 
restrictions, each is allocated to and controlled by different elements 
of the bureaucracy, each has different constituencies and different 
oversight arrangements in the Congress. No coordinator however exalted 
his title and plenipotentiary his powers can exercise effective control 
over the manner in which these funds are allocated and spent. I know, 
having tried to do so Somalia, Haiti, Bosnia, Kosovo and finally 
Afghanistan. Only in the Balkans, where Congress had combined most 
forms of assistance into a single account were we able, with the active 
and constructive participation of this committee's staff, to 
consistently match resources and policy.
    I thus recommend that the Congress and the administration work to 
regularize and institutionalize the manner in which the United States 
handles its post-conflict responsibilities, allocating roles among 
agencies an a manner likely to endure from one administration to the 
next and mandating those agencies to create a body of learned lessons, 
to develop accepted doctrine and to establish standing capabilities. 
With responsibilities clearly allocated among agencies, and with 
recognition that these agencies will likely have to meet those 
responsibilities soon and often, long-term investment will become 
feasible. Such investment should focus upon the selection, retention, 
training and career management of personnel willing to serve in such 
situations, the objective being to create a cadre of individuals 
available to fulfill these missions when the need arises and a set of 
standard operating procedures to guide them in so doing.
    As I have noted, Iraq is the sixth major American led nation-
building mission in the last decade. We should be getting better at 
this, but we are not. Iraq is the biggest nation-building challenge the 
United States has faced, at least since the late 1940's, but it will 
not be the last. We should, therefore, begin working now to avoid the 
immense and largely unnecessary start-up costs that our lack of 
foresight, planning and investment have imposed on the current and 
previous operations.

    The Chairman. Well, thank you very much, Ambassador 
Dobbins. Your remarkable experiences with these nation-building 
efforts, as well as your continuing scholarship, really make 
you a most timely witness, and we are delighted you could be 
with us today, and we look forward to asking questions of you.
    Dr. Hamre, you have already been mentioned favorably by at 
least two Senators, and I suspect the rest of us would share in 
that commendation. We very much look forward to your testimony 
today.

STATEMENT OF HON. JOHN J. HAMRE, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                        WASHINGTON, D.C.

    Dr. Hamre. Chairman Lugar and Senator Biden, all 
distinguished Senators, thank you for inviting me back. It 
really is an honor to be here.
    This is such a crucial time. The national consensus to 
carry on with the responsibilities we assumed when we went to 
war is starting to break down. If it collapses with the lack of 
a clear plan
on what we are going to do, we will have created a nightmare 
for
ourselves.
    What you are doing--what you, the committee, you, the 
chairman--is hammering out in a forging process through a major 
debate the kind of consensus we are going to need to carry us 
through. This is going to be a very difficult problem, and we 
will not succeed if you do not have these hearings. So let me 
thank you, as a citizen, for holding these hearings for the 
country. We will not have a consensus unless you create the 
debate, and so I thank you for that.
    When we returned from Iraq this summer, we said that it was 
our view that the window for success was closing. I think there 
is still a chance to win in Iraq. I am not sure that the 
chances are high if we stay with the current strategy. Probably 
you have heard, I think, both of my colleagues speak to that 
today. We are going to have to contemplate some changes.
    We are making more progress on the ground than you would 
see looking at the press reports. I think we are making 
progress on the ground. But frankly, the bad guys are making 
progress too. The Saddam loyalists are becoming more skilled in 
their attacks, and the jihadists are becoming more numerous in 
their presence. These are trends that are going to continue, 
and the current strategy of trying to do it with American-led 
military forces is probably not going to work.
    We are going to have to do two things: broadly indigenize 
the reconstruction effort in Iraq and internationalize in a 
much more broad-based way than we have to date.
    I think there is progress on the indigenization, although 
let me highlight something I learned just the other day. We 
have been recruiting policemen to serve on the beat. We need 
that seriously. In the United States Army, when you train 
recruits, you take 17 new recruits and you will have 1 drill 
instructor. When you get through basic training and you go to 
advanced individual training, there will be 50 recruits and 1 
instructor. In Iraq today, the average right now is 1 trainer 
for 200 policemen. We do not have enough resources going into 
what has to be the lead strategy for success. We have got to 
put more resources into the training of competencies on the 
ground for the security operation. This has to be a bigger 
effort on our part. As I said in other venues, we are spending 
$48 billion a year to occupy a country that only has a $30 
billion gross domestic product. Clearly, our current formula is 
not working. We have got to find a way to get Iraqis more 
involved, and that means to train them. I believe that is, 
frankly, a lead mission that we could share with the 
international community, genuinely share with the international 
community, not simply assign them roles, but genuinely share 
with them. The rest of the world, frankly, does a very good job 
with policing, and we could use their help very much in this 
endeavor.
    The President has sent to you a budget request of $87 
billion. I used to be the Comptroller for the Defense 
Department, and I know how you put estimates like this 
together. They are fairly crude. My experience was that I could 
always gain your acknowledgement and support if I was very 
transparent about how I developed the estimate, with the facts 
that I had I could count on and the assumptions I had to make 
to develop estimates for that which I did not know. I think 
that we have not had as transparent and interactive a process 
with the Congress as we are going to need to get your support.
    I strongly support the request for the appropriation, but 
the depth of support is not going to be present if we do not 
have a full transparent accounting for how we developed the 
estimate. You need to be able to go back to your constituents 
to explain why it is we are spending this amount of money and 
what we are going to get from it, and I do not think we have 
had that level of detail yet that is able to support you in 
making the decision you are going to have to make. We have to 
appropriate these funds. We cannot avoid it. If we do not fund 
the civilian reconstruction, we are going to be there longer, 
or it will collapse precipitously, and it will be far more 
dangerous.
    So I plead with my friends in the DoD. Come and share 
everything you know and what you do not know; share the 
assumptions that you have had to make to develop your request. 
I believe the Congress will work with DoD. You always did with 
me. I know you will work with the administration if they were 
very open about how they came to the conclusions. I think that 
becomes important.
    This raises the question that Brian and Jim have raised, 
and that is, do we have the organization right here in 
Washington for the reconstruction? I understand the President's 
desire to get a direct and single chain of command and line of 
accountability. That strategy would work if the Department, my 
beloved Defense Department, were adequately collaborative in 
working with others. It does not have the competencies it needs 
to do all of the tasks at hand. Unfortunately, the patterns of 
collaboration have broken down. There is not the level of 
cooperation and trust that is needed to reach across the 
Government to pull together everyone. We all have to be sitting 
in the same direction with our hands on the oars, everybody 
pulling in the same direction, to get the boat to move forward. 
And we are spending too much time battling each other with our 
oars. We have got to find a solution to that. Otherwise, if we 
cannot fix the collaboration problem, then I think the 
President needs to reconsider how he has chosen to align the 
responsibilities for the reconstruction. This is a clear case.
    Finally, let me say--and I will end--I strongly agree with 
what Brother Dobbins has said here today. While we are 
preoccupied with the current problems in Iraq--and we have got 
to fix them--we should use this opportunity to design a better 
system for the Government, so that we do not have this problem 
over and over and over again. We continue to have these post-
conflict problems because we have not created the competencies 
or resourced them adequately in the Government to handle this 
on an ongoing basis. There are bills in front of you that 
propose changes. Whether they emerge in this form or not later 
on is not the issue. You will create a better bill by debating 
it. But we have got to start creating better competencies in 
the administration. We needed it when I was there. We need it 
now.
    Thank you for the privilege of being here, and I would be 
delighted, of course, to answer any questions.

    [The prepared statement of Dr. Hamre follows:]

                Prepared Statement of Hon. John J. Hamre

    Chairman Lugar, Senator Biden, distinguished members of the 
committee on Foreign Relations, it is an honor to be able to testify 
before you today on the issue of next steps in Iraq. This is a critical 
hearing. There must be ``next steps'' for Iraq. America is now a Middle 
East power. We cannot forsake our responsibilities or avoid our 
obligations. We must succeed in rebuilding Iraq in order to help create 
a government that is representative of its people, at peace with its 
neighbors, and offers a future of hope and promise for its citizens.
CSIS Post-Conflict Assessment Trip to Iraq
    This past July, I was privileged to be able to testify before this 
committee after my colleagues and I returned from our assessment trip 
to Iraq on behalf of Secretary Rumsfeld. We returned with two broad 
suggestions--we need to dramatically ``indigenize'' the security 
program in Iraq and we need to expand the international base of support 
for the operation. At that time, we indicated that the Coalition 
Provisional Authority was rapidly running out of money and would soon 
need supplemental funds. We also stated that the security situation in 
Iraq remained problematic and, without dramatic improvements, the 
remainder of the rebuilding effort would be substantially impeded.
    In the 10 weeks since we visited Iraq, I believe there have been 
some security improvements in areas that do not get coverage in the 
American media, especially in the northern and southern portions of the 
country. We receive reports from friends and acquaintances in Iraq that 
attest to this, despite the attacks on our forces. Even with these 
advances, the country is still far from having a secure environment. 
Just last week the major pipeline from the oil fields north to Turkey 
was attacked yet again. Assaults on our troops have become more 
sophisticated and daring. The economic plundering of the country 
continues.
    We continue to believe that the highest priority for enhancing 
security should rest with expanding the role of Iraqi security 
personnel. The administration has launched new efforts to recruit 
security personnel, as contract security officers for specific 
installations, as policemen, and, increasingly, as border guards. These 
actions are a step in the right direction, even more so because it does 
not appear,
at this point, that there will be significant contributions of foreign 
military personnel. We have to continue to build the Iraqi's own 
capacity to bring security to the country.
President's Request for Supplemental Funds for Iraq
    President Bush has requested that Congress appropriate an 
additional $87 billion for Iraq and Afghanistan. I know that there is a 
great deal of controversy associated with this request. Nonetheless, 
Mr. Chairman, it is critical that the Congress appropriate these funds.
    As I said at the outset, for better or worse, America is now a 
Middle East power. We now own this problem. We cannot walk away from 
it; rather we must now shoulder it. The American people need to know 
that this investment is necessary, that the plans are well conceived, 
and the budget meets critical unmet needs. Here I believe the 
administration has not followed through adequately.
    To date, there has not been a satisfactory accounting of how funds 
are being spent or how these additional funds are being planned for. I 
used to be the Comptroller at the Defense Department and I know full 
well that we live in a world of estimates. The best, planned estimate 
will always be wrong. I know this from first hand experience. But I 
also know, from the same experience, that the sharpest critic would 
accept estimates so long as I offered a complete accounting of the 
facts upon which I based them and the assumptions I had to make to get 
there. Congress will accept estimates so long as they understand how 
they are made and if they can conclude that they are reasonable.
    I have full confidence in the current DoD Comptroller, Dr. Dov 
Zakheim. I have worked with him for years, and I know he is a 
thoroughly honest man. Unfortunately, over the past two years, a 
general level of distrust has developed between the administration and 
the Congress on budget matters and on defense issues. The lack of trust 
is limiting the development of an enduring consensus to the long-term 
challenges we face.
    Therefore, I strongly encourage the Defense Department to provide 
as complete and comprehensive an assessment as possible of the costs 
that they are incurring and are forecast to incur during the coming 
year on its Iraq operation. This as-
sessment will enable the Congress to become more directly engaged in 
supporting
the administration's efforts to help bring security to the region and 
ultimately to
America.
Assigning Responsibility for Next Steps in Iraq
    I continue to believe that we have too narrow an institutional base 
to support the reconstruction efforts in Iraq. I think it was an 
excellent idea for Ambassador Bremer to establish a liaison office here 
in Washington, headed up by Mr. Ruben Jeffries. But, I also believe Mr. 
Jeffries has too few people to support him and too little authority. In 
general, the efforts to enlist a wider base of support in the federal 
government for the reconstruction effort remain insufficient.
    This raises the question whether or not the federal 
responsibilities for rebuilding Iraq should be assigned exclusively to 
the Defense Department. I understand and appreciate Secretary 
Rumsfeld's view that the Defense Department would overwhelmingly field 
the assets required for reconstruction, and therefore the Department 
should have complete authority to undertake the task. In theory I agree 
with this point. But, in practice it has not worked. The patterns of 
cooperation inside the government broke down during the past year. DoD 
now has to manage tasks for which it has no background or competence, 
and it has not been effective in inviting the support of others in the 
government who have that background and competence. Either DoD needs a 
new approach for collaboration with others, or the President needs to 
change the assignment of responsibilities. The challenge of rebuilding 
Iraq is enormous and our ability to be effective in this effort is 
being eroded by the bureaucratic struggles here in Washington.
Conclusion
    Mr. Chairman, Senator Biden, distinguished Senators, we must 
succeed in our task to rebuild Iraq. This isn't a matter of America's 
credibility. This is a question of our security. We will be 
substantially less secure as a nation if we fail. We have made 
important progress during the past four months. The task of rebuilding 
Iraq is challenging, but it is not hopeless. We have the capacity to 
succeed, and I join you in offering my full efforts to make this 
possible.
    Thank you. I would be pleased to answer any questions you may have 
at the appropriate time.

    The Chairman. Well, thank you very much once again, Dr. 
Hamre.
    The chair would suggest that we try for 10 minutes for each 
Senator on the first round. Other Senators may join us during 
the course of that time, and perhaps we will want a second 
round if our witnesses are able to stay with us.
    I would like to begin the questioning by saying at the 
outset all of us, in one form or another, have indicated that 
we have to pull together. As you have pointed out, Dr. Hamre, 
our organization for nation-building is deficient. I think 
Ambassador Dobbins pointed out that we have been on a modest 
learning curve as to the experiences that he was describing. 
Yet some of that momentum has been lost in the process.
    This is too detailed a thing for us to work out together in 
the question and answer period, but I would just say at the 
outset I have encouraged the President in a face-to-face 
conversation to think through how our Government is organized, 
how we should try to organize it. It is a tough thing to do in 
the middle of a crisis. Yet, at the same time, it is important 
to get at least the rudiments, the pulling together, the inter-
agency cooperation, even while we try to identify these 
resources that we are talking about, sometimes in the form now 
of very talented reservists who come from other walks of life. 
I saw--and perhaps you have--some of these talented reservists 
in Baghdad when Senator Biden and Senator Hagel and I were 
there. But they are going to be gone in 3 months. In other 
words, we just simply are not really prepared, and we have to 
be.
    Having said that, we have now come to the point of the 
request by the President. Jerry Bremer will be before us 
tomorrow, and we will ask him about it directly. But he has 
been quoted as saying $50 billion to $100 billion is needed for 
reconstruction. Others have refined that more to say $75 
billion. So Senators have been asking each of us, okay, if that 
is the case, why do we hear about $20 billion or $21 billion? 
Is this a 1-year project, 2 years, 3 years, and so forth? Some 
answers seem to be that we are really talking about at least 
maybe 3 years of time and that the blanks between the $21 
billion we are putting in and $25 billion this year and then X 
dollars next year are going to be filled in by the pledging 
conferences, our allies, some new UN focus, and what have you.
    Skeptics say that it is very unlikely that the pledging 
conference in October, without enormous pressure by the United 
States, may yield very much, even this year, quite apart from 
next year or the year after. Therefore, another supplemental of 
comparable form may very well arise next year and the next 
year. At that point, some Senators and our constituents say, 
now, hold on here. We are trying to get the job done. This is a 
big figure, $87 billion even after you subtract the $64 billion 
or what have you for our military component, and get down to 
the reconstruction. How much do we need, and where does it come 
from?
    I would ask you, first of all, for your opinion on the 
adequacy of the sums and the sources. Furthermore, two other 
questions arise almost simultaneously with this. If this sort 
of a sum is required, why not set up Iraq, Incorporated or 
pseudo-sovereign Iraq, so that Iraq can borrow from the IMF, 
from the World Bank, from a consortium of banks and so forth? 
After all, are there not these extraordinary underground 
resources of oil that seem to go on potentially forever? The 
oil could be clearly strong collateral. If in fact the country 
is to be reconstructed, why don't Iraqis pay for it?
    However, the rebuttal to this quickly comes from some who 
say, well, first of all, you have to understand that Iraq owes 
a lot of money to countries. How much? We do not know. Some 
suggest $65 billion. It gets to $100 billion. Some bid $200 
billion. There are all kinds of claims coming in from various 
countries as to what the former regime owed. And there is a 
moratorium, at least for another year and 3 months I guess, in 
terms of repayment or people really exercising their claims. 
But who will be responsible? The United States or the UN? Who 
will reconcile this debt to begin to work it down to 0 so that 
there is some hope that this money coming in, maybe $75 
billion, is not totally overwhelmed by international claims.
    How do we work out the international cooperation? In other 
words, if a consortium of international groups are involved--to 
name four, say, France, Russia, Germany, Kuwait maybe--and they 
all are involved in the business plan, can we take for granted 
that they will abstain from directing funds back to those who 
are owed money in their countries? Who protects Iraq in this 
situation, even while we are internationalizing the 
responsibility and trying to make this thing work?
    These are the complex questions that we would like for you 
to muse over. There are no definitive answers, but they are 
important answers; because in the event that we are left doing 
it all by ourselves, we--the United States--make the judgments. 
One way or the other, we pay the money. As you are pointing 
out, there are some problems with this in terms of perhaps too 
much of an American presence and antagonism toward us even 
while we are trying to do good.
    Senator Biden and I were just musing here about Iraqi 
members of the Governing Council running around New York. I saw 
a couple of them at the UN yesterday, which might suggest that 
Iraq might become sovereign right away. The UN might recognize 
them as if they have any of this money, reconstruction ability, 
and what have you, but seriously entertaining this idea of them 
as Iraqi leadership commensurate with other leaders in the 
world.
    So help us in any way you can in your responses. I call on 
you, Dr. Atwood, first of all, because you started our 
discussion this afternoon.
    Dean Atwood. Mr. Hamre said good. [Laughter.]
    Dean Atwood. Those are tough questions, Senator, but they 
are the right questions. I would answer it this way. Not 
knowing a lot of the detail, I have seen the description of 
what the administration has asked for only in abbreviated form. 
I have not seen the plan.
    But it seems to me that that $20 billion is for two 
purposes. One, it is urgently required for infrastructure. 
There has to be some movement on the ground in this regard so 
that some hope can be generated among the Iraqi people. The 
second part of it is obviously for leverage. We really do want 
to go to that donor conference with something in hand, and when 
the United States does not come to the table with sufficient 
resources, other countries will not come forward. I do think 
there are reasons why other countries will be reluctant, which 
is why I made such a strong pitch for making some concessions 
as to how we control the civilian transition.
    The other thing the United States has to do at this 
juncture is go to other nations to whom Iraq owes money and ask 
them to forgive the debt. There is a good deal owed, for 
example, to Saudia Arabia. I should think that we should go to 
these countries now, France and some of the European countries 
as well, and try to get them to forgive this debt and clean the 
books because Iraq should not be responsible for Saddam's debt.
    The same is true of the multilateral organizations. There 
are about $52 million owed to the World Bank and some similar 
amount to the IMF, and we need to clear the books there. That 
is going to be much more difficult because it is difficult to 
get other nations' consent on that, but if we must try to get 
this kind of a clearing of the books for Iraq so that when it 
does have access to its oil resources, it can start to invest 
those in the country and diversify its economy. This, after 
all, was a command economy. It is going to need the same kind 
of transformation that we have seen in other places like Bosnia 
and the former communist world. So it is going to be very 
difficult for them to start and get to the point where they can 
generate wealth on their own. So they do not need to carry debt 
forward.
    Obviously, there is a good deal of attention being paid to 
any action the United States takes with respect to the oil. So 
there is going to be a great deal of nervousness if we begin to 
talk about using oil for collateral in the future. I am just 
not sure what the politics of that are at this juncture. It 
seems to me that we should be putting more emphasis on 
leveraging other donors' resources and clearing the debt.
    The Chairman. Ambassador Dobbins.
    Ambassador Dobbins. Well, very briefly, I think the amount 
that the administration has requested is not out of line with 
the amount that was devoted to previous operations which we 
assigned an extremely high priority, Bosnia, for instance. 
Based on the Bosnia analogy, our own analysis suggested that 
Iraq might require up to $16 billion in reconstruction 
assistance a year for the first several years. So this is 
within that ball park.
    The big difference between Bosnia and this, of course, is 
first of all, Iraq is 10 times bigger, and second, we are going 
to be funding probably 90-some percent of the total assistance 
rather than 20-some percent. So in the end, it is going to cost 
us 40 times more, and I suspect if you go back and look at what 
the Congress appropriated for Bosnia in the first year or 2 and 
multiply it times 40, you will get something close to what the 
administration's request is. So I think that it is a request 
that is commensurate with the real need and, unfortunately, 
with the real likelihood that other donors will come up with 
resources in the short term. And in the short term is what 
matters here. So I do support this.
    In terms of lending, Iraq is not heavily indebted to the 
international financial institutions, and therefore, once they 
are prepared to lend, it should not be a big obstacle. In 
Haiti's case, for instance, we and other donors simply paid off 
their arrears using our own assistance funds so that they would 
be paid up in the World Bank and others, and then those 
institutions were able to make loans far larger than what we 
had paid. And if we paid the $52 million to the World Bank, if 
that is what the number is, we could probably get several 
billion as a result, provided the World Bank, the Asian 
Development Bank, the EBRD, et cetera are prepared to lend, and 
they are probably not going to be prepared to lend until there 
is a sovereign Iraq or until the international community is 
prepared by consensus to make an exception. And that is what is 
going to be required.
    Given Iraq's huge overhang of existing debt, it is going to 
be hard for it to get commercial credit or governmental credit, 
and it is going to be hard for us to argue that they should pay 
our debts but nobody else's. So direct lending is going to be 
difficult I imagine.
    They could securitize their oil not by borrowing, but by 
actually selling it on an advance market. The problem is, of 
course, that that money is desperately needed just to buy food 
and medicine and other things for the population and is not 
going to be in a position to be drawn upon for investment for 
some considerable period.
    The Chairman. My time is up. I will put a fine point on 
what you said, Ambassador Dobbins. I suppose in this particular 
case, the United States would have to try to clear up not only 
the international debt with the agencies, (that is, IMF or 
World Bank) but likewise the rest of the debt.
    Ambassador Dobbins. No, I do not think that is feasible.
    The Chairman. You do not think that is feasible. In order 
to get Iraq up to the table where they could conceivably borrow 
money.
    Ambassador Dobbins. The international financial 
institutions will be willing to lend once there is an Iraqi 
government to lend to and it has cleared up its very small 
existing debts to them.
    The Chairman. Senator Biden.
    Senator Biden.  Thank you very much.
    I have three or four points I want to get through, so to 
the extent you can answer me quickly, I would appreciate it.
    Jim, you talk about the learning curve, that we have not 
seemed to learn from our experiences. For a while there, it 
looked like we were learning. It seemed to me that through the 
last administration we learned. We did it marginally better 
every place we did it. If you go from Bosnia to Kosovo, there 
was a learning curve. You were there. We actually moved.
    And this is a question you may not want to answer, but my 
impression is not so much of climbing a learning curve but of 
hitting an ideological wall. Half this administration knows the 
learning curve. Half this administration proposed doing a 
number of the things that you have already suggested and you 
said we have learned. The other half that seemed to have gotten 
the President's ear has just said no. They are stuck in the 
same spot that they were. The same ones who are not the nation 
builders, the same ones who thought this was a very bad idea, 
and the same ones who have basically, it seems to me, set out a 
set of assumptions of what would happen after we went in and 
took down Saddam. The assumptions turned out not to be correct. 
There is no plan B.
    So how much of this is the failure to understand versus the 
failure to be willing to concede an ideological point? I guess 
what I am trying to say is it is little bit like me as a 
practicing Catholic being forced deny the Trinity. The neo-
conservatives are very bright guys in this administration, 
serious people. For them to acknowledge that their assumptions 
are wrong seems to me to be something that is unreasonable 
almost to ask them to do. They are not going to do it. And what 
is plan B? Or is it just that they do not know? Is it just that 
people are sitting there going, gosh, I really do not know what 
to do here from the experience?
    Dr. Hamre pointed out--the three of us went to that police 
academy. The guys running the police academy are guys that I 
have known, you have worked with, Jim, in Kosovo, worked with 
in Bosnia. They know the learning curve. They sat there and 
told us. They told us what they needed. They told us what the 
money would be. They told us if they had all the resources they 
wanted available to them, it was going to take them at least 12 
months to 3 years before they got to the point where they had a 
prison system that functioned, got to a point where they had a 
functioning police agency in the city, let alone the country. 
And everybody knew it, but nothing happened. So we end up, 
Doctor, with 1 to 200 when they said they need 5,800 European-
trained police officers immediately. We put out a little report 
saying before they went in they needed this.
    So it does not seem to me to be a learning curve. It seems 
to me to be--and I am not being a wise guy here--an ideological 
view of what in fact is the way things should proceed and, when 
they do not, an unwillingness to go to another plan. Am I 
missing something here?
    Ambassador Dobbins. I think it is a bit of both. Clearly 
this administration would rather look for its models in the 
1940's than the 1990's because they did not want to draw on 
what they considered a failed record of the last 
administration. And certainly there were failures, but as you 
said and as I have said, we never got good, but we did get 
better and there were lessons to have been learned.
    But there is also an institutional problem. Neither State 
nor Defense ever regarded nation-building as part of its core 
competency, and they never invested in it. The State 
Department's idea of institutionalizing the lessons was simply 
to keep appointing me every time, and eventually that is going 
to play out. And there was nobody sort of in the wings to take 
over who had been trained and recruited for it.
    Senator Biden.  A valid point, one that the chairman has 
been making for 8 months here, not about you, but about the 
need, institutionally, to alter how we look at this.
    The second point: I agree with much of what you said, 
Brian, but with all due respect, all your suggestions are too 
late. I am not being a smart guy when I say that. The idea that 
going in and getting the police force, all the things you said 
are things we have been saying here for 6 months. Now to get to 
that point, it seems to me, is incredibly difficult, which 
leads me to my third point here and a question.
    I am perplexed as to why we cannot not only win the 
military battle, which we so clearly won at the front end of 
this undertaking, but also win what I think is a diplomatic war 
going on. I think the French are deliberately being 
obstreperous. I think part of their foreign policy is to 
demonstrate that the superpower is crippled, the superpower 
cannot do this. I think there is a piece of that that is real 
in terms of the French effort, notwithstanding their criticism 
that sometimes is correct about us.
    Why do we not go to the French and say, look, no problem? 
We are ready to work out--one of you said that what we need 
here is a strategically understood plan. No one has laid out a 
strategically understood plan for the rest of the world, let 
alone the American people, as to what it is. Why do we not go 
to the French and to the Germans and say, okay, we are ready to 
look at it your way, but we want to make sure? Are you prepared 
immediately to forgive all the debt that is owed you? Are you 
prepared to sign that on right now? Are you prepared to do 
that? Why are we not willing to move?
    The chairman always raises very practical but profound 
questions. Who is going to lend money to a government that is 
not a government that is recognized by anybody, particularly 
the Iraqi people? Who is going to lend money to that entity 
that is under the control of the United States? And if they are 
not going to do it under either of those two circumstances, 
there has got to be a third way here. You have got to transfer 
this entity somehow, some way, in some form, at some time in 
the nearer term, rather than in the longer term, to the United 
Nations or to an international umbrella organization that gives 
sanction to this new government or this new transitional 
government.
    Which leads me to this: The only failure in Afghanistan, in 
my view, is we have not followed through. We have not followed 
through. But what we did do is the international community went 
out with our leadership and came up with a guy named Karzai, 
came up with a mechanism by which we would transition power to 
that government and put it in place. Why is that model vis-a-
vis the international community not a model that is appropriate 
for Iraq? Is that not the way to get the international 
community to sanction, take some partial responsibility for?
    And still the UN model has always been, Brian, whoever is 
paying the biggest chunk of the tab, whoever is providing the 
biggest chunk of the forces gets to be in command. That is the 
way it has always worked. I do not see anybody rushing up to 
say--I mean, we could not give the French command. If we said 
to the French, you are in charge of the military, they would 
not take it.
    When Sergio de Mello was alive, we met with him in Jordan. 
I said, Serge, what happens if we were tomorrow to say to the 
UN, it is yours? He said, we would not take it. We would not 
take it. So there is sort of a straw man out there. The straw 
man out there is that somehow the UN wants to grab this power, 
everybody is ready to take over and call the shots, yet there 
is no possibility of that. Conversely, the UN sets up a straw 
man, acting like they want more control, they want more say; 
they have an ability to point out where they disagreed with us, 
and imply that if only we turned it over to them, they would 
work this out.
    Why do we not we just say, okay, we will work this out with 
you? We will give you our strategic plan. The United States 
says we are going to have elections within 9 months to 12 
months after a constitution is written. We set a deadline for 
the council to draw up a commission, who is going to be on that 
constitutional commission within 60 days. They have to have the 
constitution drawn up within the next 6 months, a first draft. 
There will be elections monitored by or run by the United 
Nations somewhere between 10 and 14 months down the road.
    Do we not need something concrete like that? Jim, you have 
been through all this. You have watched this play out other 
places. I mean, do we not need to be able to do that both to 
box the French a little bit, as well as force the hand of the 
United Nations? Because, with all due respect, Brian, they 
ain't ready to run in and do anything in terms of dollars. They 
have the capacity, but no one is knocking down the door to get 
to Iraq, including the United Nations right now. But everybody 
seems strategically settled in their political position that 
allows everybody to basically do nothing and us hold the bag.
    That is a little bit of a diatribe. I would like you to 
respond to it.
    Dean Atwood. Well, since I made the recommendation, I will 
initially talk about it. But I think this is part of the 
negotiations. We have to have a strategic plan, and I have not 
seen the plan that has been released yesterday here, but that 
might be a start.
    But it seems to me that there is also something symbolic 
that is stopping us from getting the consensus we need on the 
Security Council and that is our apparent unwillingness to 
yield full control of the operation. I am suggesting that if 
the UN put a non-American in charge of the civilian operation, 
for example, we would still be the predominant force behind 
that representative.
    Now, Jim worked with Lakhdar Brahimi. I did on the peace 
operations panel. We have worked with him in Haiti and other 
places. There are certain individuals within the UN system--or 
you could choose someone from outside the UN system--that would 
be perfectly competent. We worked with Carl Bildt in Bosnia who 
was a high representative of the coalition that was there. 
There are models that can be used which do not require the 
United States to be in the lead.
    So I think the combination of having a strategic plan and 
basically engaging other countries on that basis and being 
willing to step aside a bit to make it work. The most important 
thing afterall is that it does work in the end.
    Senator Biden.  Anybody else?
    Ambassador Dobbins. I think it is going to be hard to 
retrieve the international situation at this stage because the 
dialogue has so clearly broken down between those who supported 
the conflict and those who were most active in opposing it.
    I do think that what is missing, above all, is the private 
dialogue which leads to a consensus, which leads not to an 
American plan but to a common plan put forward. After all, we 
did not have an American plan for Bosnia. We did not have an 
American plan for Kosovo. We had a NATO plan which was a 
genuine compromise among the principal NATO members that was 
worked out in small, quiet groups of the French, the British, 
the Germans, the Italians, and us, hammering this out over 
months so that when we came forward publicly, we were doing so 
on the basis of a deeply understood commonality of approach. 
And that is going to be difficult to construct.
    I think the United States should take the principal 
position that we are prepared to provide others a voice in the 
management of the enterprise commensurate with their 
contribution; the larger the contribution, the greater the 
voice. That means that if the civil aspects of this are to be 
multinationalized, it means that the civil administrator has to 
respond not to a single capital but to a group of capitals, 
paying attention to them based on how much they are 
contributing. If they are contributing 5 percent, they get 5 
percent of his attention. If we are contributing 90 percent, 
that is where he gets 90 percent of his guidance. But the 
principle is that he does not have one boss. He has got as many 
bosses as people who are contributing.
    On the military side, I do think NATO offers a ready-made 
vehicle for combining American leadership with true 
multilateral participation.
    Dr. Hamre. Sir, just very quickly. When I used to be the 
Comptroller and we would blow it on a cost estimate, we would 
always say, good estimate, bad actuals. I think that what we 
have here is the administration is basically saying the plan is 
good. It is just we have had flaws in its execution.
    I think the plan probably is flawed, and we are going to 
have to go back and ask do we need a different approach? That 
is a debate, frankly, that is going to come from the 
interaction between you and the executive branch. My fear is 
the support of the American public is wearing pretty thin on 
thinking that this plan is going to work. How long they are 
going to be willing to tolerate you appropriating $78 billion 
every year is an open question in my mind. I do not think we 
can afford to fail and then just pull out. That will not work. 
So we clearly need a new plan.
    Senator Biden.  The irony is a guy like me--and I suspect 
others up here--who fundamentally if not totally disagreed with 
the administration's post-Iraq plan, is supporting them getting 
the money and getting blamed by the American people. 
Understand, I am not whining about this. I am a big boy. But 
the irony is that supporting them now, which we have to in my 
view--we have to support this effort now--is turning out to be 
a gigantic political liability, which goes with the territory. 
But I wish they would make it a little bit easier to make this 
thing work.
    Anyway, thank you.
    The Chairman. Thank you, Senator Biden.
    Senator Hagel.
    Senator Hagel.  Mr. Chairman, thank you.
    Gentlemen, thank you for spending some time with us. You 
are all experienced, dedicated public servants who continue to 
contribute to our country and the world, and we appreciate it. 
Your testimony I found, each of the three of you, was on the 
mark, excellent. All actually contributed to a better 
understanding of what
I happen to believe we need to be looking at in order to move
forward.
    We cannot fail. There is no other option here. We have to 
be successful in Iraq, Afghanistan. We have to get back on top 
of the Middle East peace process. They are all, in my opinion, 
connected, and we need to take a wider lens view of this as we 
proceed. Your testimony, the three of you, has been very 
helpful.
    If we could continue along the same line of questioning 
that Senator Biden was engaged in. What do the three of you 
think is realistic at the donors conference, obviously in terms 
of dollars?
    Then I would be interested in your thoughts on force 
structure. What is realistic? As Senator Biden said, we talk in 
great theories and ideas and plans, but what do you believe is 
possible here?
    Because it seems to me we, the United States, are going to 
have to come to a new sense of reality. I think the 
administration is getting there. I think the realities are now 
in play, and that has forced the administration to do some 
things that I suspect 3 months ago they did not have in their 
playbook. I cannot answer for that. That is my assessment of 
it. But as this thing defines itself in more uncontrollable 
ways over in Iraq and we lose more time, then it is going to 
become more and more apparent that, as the three of you have 
suggested in different ways, we are going to have to alter some 
course here and change maybe not direction, certainly 
strategies, tactics, some dynamic of who is in charge and how 
much decision-making consideration are we willing to share.
    What I have always found about that issue a bit ironic and 
strange is in fact if we wish to internationalize, if we wish 
to enlist the support of our allies and our friends, which we 
now are acknowledging publicly that we need in order to 
succeed, then why in the world are we still at least appearing 
to carry the burden ourselves? The administration in my opinion 
has not come to grips with that or at least articulated that in 
a way that is clear to the American public. It gets back to the 
transparency issues, John, that you talk about, and I think you 
are exactly right.
    But for this question, what is realistic to come from that 
donors conference? We will start with you, Dr. Atwood. Good to 
see you again, Brian.
    Dean Atwood. Likewise.
    I would say today I would be very pessimistic. I agree with 
Jim. I think it is going to be very difficult to get 
international engagement, and I am not sure that we have enough 
time. If in fact we made the concessions I recommended and we 
really looked like we were sincere in wanting to 
internationalize this, then I think we would really need time 
to work in these capitals to get them to come up with the 
resources necessary. We bring $20 billion to the table. 
Normally the United States does 25 percent of what is pledged 
at a conference. That is about what is expected of us. But $20 
billion is a lot to bring to the table, and I cannot imagine 
that we would, at this juncture--given the attitudes in the 
international community--be able to come up with even that much 
in additional funds at a donor conference now.
    I am not giving up on it. I do think we should make a major 
effort and see if we can overcome some of the problems we have 
with our allies in Europe and in other parts of the world. I am 
pretty pessimistic.
    Senator Hagel.  Thank you.
    Ambassador Dobbins?
    Ambassador Dobbins. Well, on the donors conference, I have 
seen press reports suggesting the administration does not 
expect more than, say, $1 billion in resources from other 
countries over the next year, and that seems to me to be 
realistic based on the current situation. It is going to be 
very difficult to give other countries a real feeling that they 
have a stake in this enterprise between now and October. No 
matter how forthcoming the administration is over the next few 
weeks, it is going to take longer than that I expect.
    The pledges will be multi-year pledges, not just 1-year 
pledges. So the numbers will look higher and probably will be 
higher, maybe $5 billion or even $10 billion, but that will be 
over a 5-year period.
    In terms of comparing it to the bill before you and the $87 
billion or the $20.3 billion, the comparable figure is likely 
to be, I would guess, about $1 billion. And one of the reasons 
is that in any of these donors conferences, the big pledges 
come from the World Bank, the Asian Development Bank, others, 
and they are not going to be pledging this time around, which 
is a significant obstacle.
    On forces, there has been a debate in Washington in which 
everybody is agreed we need more, but they cannot agree on what 
we need more of. So neo-con editorialists have been arguing we 
need more American troops, and neo-liberals have been arguing 
we need more allied troops, and the Pentagon has been arguing 
we need more Iraqi forces. I have to say I think they are 
probably all right. The dimensions of this problem probably are 
going to require greater efforts on the part of all.
    On the other hand, I do respect General Abizaid's view that 
this operation is already too Americanized and that itself is 
becoming an obstacle in terms of winning the support of the 
Iraqi people. So because of that, while I certainly would not 
take off the table the possibility that we might actually need 
to put more American troops in, I would say that our priorities 
ought to be more international forces and moving more rapidly 
to put Iraqis on the street.
    But we have to be careful not to just give friendly Iraqis 
guns and send them out on the street because they may be 
friendly to us, but they are not going to be friendly to each 
other, and we are going to end up with a bunch of communal or 
ethnic or religious militias which in the long term are going 
to make keeping the country together more difficult.
    So it is a difficult problem. We desperately need more 
police there. In Kosovo, we had 5,000 armed international 
police with arrest authority and weapons. As far as I know, we 
do not have a single one yet in Iraq, and we really need to 
move more quickly in those areas as well.
    Senator Hagel.  Thank you.
    Dr. Hamre, welcome.
    Dr. Hamre. Thank you, sir.
    The administration is going to ask for $20 billion. They 
are hoping to get $10 billion, and they will be lucky to get $5 
billion.
    Senator Hagel.  That is your top estimate.
    Dr. Hamre. That is my guess.
    Senator Hagel.  What is your thought on force structure? I 
thought Ambassador Dobbins laid it out pretty well. Do you 
disagree with what he said, or do you think there is a 
different direction?
    Dr. Hamre. No, sir. I agree. We are only dealing with one 
of the three security problems in Iraq right now. We are 
dealing with the Saddam loyalists I think fairly well. I do not 
think we are dealing with general criminality in the streets. 
When an Iraqi family has to pass through our checkpoint, that 
security does not go back with them to their home. So they do 
not feel safe in their home. And we do not have the policing 
that really goes into the neighborhood. So frankly what little 
security they feel now is vigilante security.
    Senator Hagel.  May I ask a specific question on force 
structure? Turkish troops, other Muslim Arab nation troops? 
Helpful? Depends on where you put them? What is, the three of 
you, your quick assessment on that question?
    Dr. Hamre. My personal view. The best way to use Turkish 
troops would be to secure the border from the Turkish side of 
the border so that we can stop the movement of black market 
smuggling going back and forth and people. I think if you are 
going to use Turkish troops inside Turkey, you have to be 
pretty careful on where you put them and how you use them and 
supervise them. But I think that we can clearly ask for a 
stronger border control.
    Senator Hagel.  Thank you.
    Dr. Atwood?
    Dean Atwood. Turkey has its own national interests that may 
not, in this case, comport with ours. They are highly 
controversial in the Kurdish areas in the north, obviously. I 
agree with Dr. Hamre. I would not want them there.
    Senator Hagel.  Ambassador Dobbins?
    Ambassador Dobbins. The necessity of using Turkish troops 
as part of the security force is a sign of our true desperation 
because in principle it is a bad idea to involve any of the 
neighboring states in securing a country of this sort.
    As to more Arab or Muslim forces, yes, to a degree. But you 
know, countries do not like to be occupied, and they 
particularly do not like to be occupied by people who look like 
them. If you are going to be occupied, you want to be occupied 
by someone who comes from a long way away, who is very rich, so 
he does not have an incentive to loot or rip your country off. 
You do not feel as humiliated by being occupied by someone who 
does not look like you, who clearly is richer and from a 
different technological status than you do by people who look 
just like you, who are from the same economic status, and 
against whom you have always measured yourself. That tends to 
be more humiliating. So as a rule, countries would rather be 
occupied by distant, different types.
    Now, the fact that language and religion would be similar 
would suggest that having some Egyptian, Moroccan, Malaysian, 
Indonesian troops would certainly make sense, and I would 
certainly encourage it, but I do not think you should look at 
it as the core of the force. I think the core of the force has 
to be a U.S.-West European core, that is, countries that can do 
two things: that can themselves, with their own resources, 
deploy and sustain a significant expeditionary force; and 
second, countries that also have large aid budgets so that when 
they take over a sector, they put in the judges and the 
administrators and the technical advisors and the money so 
their sector is a success. And there are only about half a 
dozen countries that can do that, and if they are not on our 
side, we are going to have a difficult time prevailing.
    Senator Hagel.  Thank you, all three of you. Thank you very 
much. Mr. Chairman, thank you.
    The Chairman. Thank you very much, Senator Hagel.
    Let me mention for the information of all Senators that the 
leadership on the floor, bipartisan, is trying to arrange 
stacked votes on the Interior bill to begin about 4:45. So at 
least for 45 minutes, it appears that we have clear sailing. We 
have three Senators who have questions. We will proceed with 
the thought that we may need to bring the hearing to a 
conclusion within an hour, but for the moment, why, we have an 
opportunity to continue our questioning.
    I call upon Senator Nelson for his questions.
    I am sorry. Senator Feingold.
    Senator Feingold.  Senator Nelson, thank you, and, Mr. 
Chairman, thank you.
    Let me first say we always say thank you so much for 
holding the hearing, but I want you to know how sincerely I 
feel that. I really believe what was said about the role of 
this committee. Had it been followed by those who were planning 
this Iraq operation, things would have gone very differently, 
and I want to particularly credit the three top members of the 
other party who serve on this committee, the three top ranking 
members, Senator Lugar, Senator Hagel, and Senator Chafee, who 
along with some of us--perhaps I should repeat what I was 
saying. That microphone was not working.
    Mr. Chairman, I want to emphasize how important this 
committee's work has been with regard to trying to get this 
Iraq situation right. It began when one party was in charge and 
had the majority, but it continued I think without missing a 
beat when the other party took over. I give you, Mr. Chairman, 
and the ranking member a lot of credit, but in particular, the 
three ranking Republicans, the chairman and, as I indicated, 
Senator Hagel and Senator Chafee.
    I have been able to tell my constituents that the questions 
that I have been raising and that others have been raising 
about how well this was planned were not Democrats' questions 
or Republicans' questions, but were questions that we all tried 
to raise consistently starting at the very end of July of 2002 
and straight through to today.
    This is a quiet room today, but I really believe the kind 
of testimony we are hearing from these gentlemen can do more to 
help us get through this very difficult situation than just 
about anything else. So I thank you for this, and I think as 
the information from these hearings gets back to the American 
people, it can at least give them some assurance that the right 
questions continue to be asked and that some people are trying 
to provide good answers. So thank you, Mr. Chairman.

    [The prepared statement of Senator Feingold follows:]

             Prepared Statement of Senator Russell Feingold

    I thank Chairman Lugar and Senator Biden for holding this important 
hearing, and I thank all of the witnesses for being here today.
    Today the American people are being asked to go an additional $87 
billion into debt, primarily to finance U.S. activities in Iraq. These 
activities have been explained with a wide array of shifting 
justifications, while U.S. troops on the ground continue to be saddled 
with a massive reconstruction job in the midst of ongoing guerrilla-
style attacks on them and on Iraqis associated with transition 
authorities. The very least that we can do to meet our responsibilities 
to the American people is to make every effort to ensure that our 
efforts are organized effectively and transparently and that they 
attract rather than alienate other potential donors.
    I want a bright future for the people of Iraq. I also want a bright 
future for the American men and women serving in Iraq today, and for 
the next generation of Americans, who will be called upon to pay off 
our massive debts. The stakes are very high, and after listening to my 
constituents, including many of Wisconsin's military families, I do not 
believe that we can take it on faith that we are on the right track 
today.
    I look forward to today's testimony, and to the additional hearings 
scheduled for tomorrow.

    Senator Feingold. Let me ask a question of all of you. I 
have just a few comments. I want to quote from some remarks 
that retired General Anthony Zinni delivered to the Marine 
Corps Association at the Naval Institute's Forum earlier this 
month. He talked about the challenge of trying to win the war 
now that we are confronted with disorder in Iraq, and he talked 
about our troops who are currently holding the bag, so to 
speak, when it comes to this monumental task.
    He said,

          . . . You have to build an economy, restructure the 
        infrastructure, build the political system, and there 
        is some poor lieutenant colonel, colonel, brigadier 
        general down there stuck in some province with all that 
        saddled onto him with NGO's and political wanna-be's 
        running around with factions and a culture he doesn't 
        understand.

    Does it make sense to hold the U.S. military responsible 
for getting these jobs done? And what steps can the United 
States take over the long term to ensure that the lion's share 
of this important burden does not fall on the shoulders of our 
men and women in uniform? Let us start with Mr. Atwood.
    Dean Atwood. Well, I agree with General Zinni. There are 
roles at all of the agencies that play a part in these things 
have to play. In this case, our military is still engaged in 
combat operations. They obviously ought to be also engaged in 
peacekeeping operations, but to the extent they can be 
supported by other military forces in a UN force, they may be 
free then to conduct the operations they have to conduct in the 
Suni Triangle.
    But it really is important for there to be a team effort 
here, and in the cases that Jim Dobbins is familiar with, and I 
have worked on, we have always had good coordination with the 
military. They are very important, when they feel that they 
can, in building roads. Their Corps of Engineers in these 
situations can be a very important part of the reconstruction 
effort. But it really is, it seems to me, unfair to ask them to 
do things that they are really not equipped to do. But then 
that leads to the other problem we have as a Government, and 
that is that the international affairs budgets do not enable 
State and AID to do all that is necessary to do on the ground 
in a situation like this. So you turn to the military to be 
doing things that civilians ought to be doing.
    In this case, I think there is an opportunity to transfer 
some of those resources to the agencies that have the 
capability and to unburden our military so they can do what 
they are supposed to do.
    Senator Feingold.  Thank you, sir.
    Mr. Dobbins.
    Ambassador Dobbins. Well, I think one of the reasons that 
that lieutenant colonel is out there having to handle these 
political and economic responsibilities is that the State 
Department and the other civil elements of the Government have 
not been able to mobilize and deploy personnel and resources 
quickly enough to respond to the situation. And I think 
Bremer's operation continues to be understaffed. He continues 
to have difficulty recruiting and retaining top-flight people, 
and I think there are several reasons for that.
    One is, as I have suggested, anytime you assign one agency 
the lead, you tend to disincentivize the others, and I am not 
sure that is the best way of organizing ourselves.
    The second is, as Brian has suggested, that State has been 
under-resourced for a decade or more and the result, it simply 
does not have the reserves to surge. There is no surge capacity 
in the State Department. There are no people waiting around for 
a crisis. To send people to Iraq, you have to stop them doing 
something that they are doing that also has some priority.
    And third, as I have suggested, the State Department has 
not made the investments to develop the capacity so that it 
would have people pre-identified with this kind of experience 
who had, from their previous experience, recognized this was a 
career-enhancing experience, that if they went there, it would 
lead to promotion and advancement in the service. In fact, the 
record is quite the contrary, that you are not in the 
mainstream, you are shunted aside, and you are not likely to 
profit from it. So naturally there are few real adventurers, 
people willing to take the risk either out of a national 
commitment or a sense of adventure, but people who have their 
own career prospects in line would really rather go to Paris or 
London or even some less advantageous place just to do mainline 
State Department work. So if this does not become mainline 
State Department work, you are going to have a hard time 
getting people to do it consistently.
    Senator Feingold.  Dr. Hamre?
    Dr. Hamre. Sir, when I was over in Iraq, our team went 
around to nine different cities outside of Baghdad and met with 
a lot of the military. They have done a very good job of 
getting a local town council up and running. Some of these guys 
said, ``I have never even been to a town council meeting. I do 
not know what they are like, but we made one.'' But every one 
of them said the same thing to us. They said, ``I do not know 
what to do now. I desperately need the CPA, the Coalition 
Provisional Authority, out here.'' One of our recommendations 
to the Secretary was take the CPA infrastructure from Baghdad 
and put it out into the 18 provinces. We desperately need to 
get the CPA into the field. That really has not happened. I 
think there are only three field offices.
    And the military want CPA field representatives. The 
military is not fighting to keep the civilians out. Quite the 
reverse. They desperately want to have them in. We talked to a 
soldier who said the farmers were showing up with wheat and 
saying, ``Here is where we always brought the wheat before. 
Somebody bought it from us.'' He asked us what he should do; he 
had never had this experience. He told us he desperately needed 
somebody to help him. And this is coming from our officers. 
They have done a wonderful job, but they are the first ones to 
say they are at the edge of what they can do.
    I think Ambassador Bremer still has a request for 300 staff 
personnel that has not been filled yet, and that is just for 
the headquarters. He needs structure in the field. We thought 
he needed between 20 and 30 people in each of the field 
offices. Now, if you have 18, that is still only 500 people. We 
ought to be able to figure out how to get that, and until we 
do, it is too much of a military operation, and the military 
does not have the competencies--and they will be the first to 
say it--to do the tasks they have got. So we have got to tackle 
what you just raised.
    Senator Feingold.  Thank you. You referred to transparency 
in another context. Let me ask you about the degree of 
transparency with which the CPA spends reconstruction funds 
today in Iraq. How transparent is that spending, Doctor, to the 
Iraqi people,
to the Iraqi Governing Council, to other countries that could
potentially become donors? And what can we do to improve that
transparency?
    Dr. Hamre. Sir, when I was over there, I spent a lot of 
time personally on the budget. I used to be the Comptroller, 
and frankly, most of the people who were there used to work for 
me, and so we had quite open discussions. I was impressed that 
they had a relatively good, rudimentary, but relatively good 
budgeting and programming process. It was relatively simple, 
but it was a method of categorizing the different potential 
ways to spend money, assigning values, positive and negative 
values, to those proposals, evaluating the operational 
constraints, and then a tradeoff process. So it was pretty 
good.
    We did not have a very good process for communicating that 
outside of the headquarters, frankly, and I think in general, 
we have not done as good a job as we have to in public 
communication. Saddam used to shut of the electricity anytime 
he was mad at a community. Well, now when the electricity goes 
out, they think we are punishing them. We are not telling them 
some jackass just blew up your transformer. That is why it went 
out. And we have got to communicate what is going on and we 
have not done that.
    We certainly have not done it to explain to them, here is 
how much money you have got, here is how much is coming in, and 
here is how we plan on spending it for you. I honestly believe 
they are very disciplined about only spending Iraqi money for 
the benefit of Iraqis, enormously disciplined. I was really 
impressed by that. But we certainly have not explained it in 
any adequate way. I was only there in July, and I think since 
that time, the Governing Council has been formed. They may, 
indeed, have a much better process that I am not familiar with. 
But in general, we have to do a much better job of explaining 
what we are doing in Iraq.
    Senator Feingold.  I thank the witnesses, and thank you, 
Mr. Chairman.
    The Chairman. Thank you very much, Senator.
    Let me follow on Senator Feingold's questioning about the 
setup of the nation-building group. I am, I suppose, really in 
a quandary as to really how we start doing this. This is 
difficult to do as a congressional project. In other words, it 
suggests that we ought to have a new agency of Government, and 
maybe we do not want an agency. Maybe, as you suggested, there 
are personnel in various groups that we have now who need to 
talk to each other, who need to be coordinated by the National 
Security Council or the President or whoever does this sort of 
thing. This is a difficult part of this. We keep making these 
suggestions for reorganizing for something that we really have 
not wanted to do as a Nation very badly in the past, as all of 
you have pointed out, but now we find that we really need to 
do.
    Furthermore, are we to put greater reliance upon the State 
Department and let us say that there is better cooperation 
between Defense and State? In other hearings we have 
complimented Secretary Powell on starting up the Foreign 
Service exam again, for example, so that young Americans have a 
chance to come into this. For 3 years in the last decade, we 
did not have an exam for various years. It is like having no 
2nd lieutenants in the Army for a whole year. But in terms of 
our diplomacy, we have been downsizing in terms of money and 
people. So suddenly we have some problems even if we were to 
determine who ought to do what, who has the skills, how they 
are to be found, and what kind of experiences they have.
    We have gone through hearings on hardship cases and the 
fact that a lot of hardship posts do not attract senior people. 
We have junior people there, and they are doing a great job, 
but they are not exactly fitting the idealized mold of what 
everyone thinks ought to be on the firing line of that which is 
very dangerous.
    In other words, what we are coming into is sort a host of 
deficiencies. It is bipartisan because it covers several 
administrations. Nothing necessarily happened on a particular 
individual's watch, but there we are now with this stressful 
situation.
    I am just simply curious. Each one of you is taking a look 
at our Government from outside of it. You have all been 
intimately involved in the past, maybe you will be again in the 
future for that matter. How do you go about doing this, even as 
we have these hypotheticals today of what we need to do, if our 
country really is to be equipped for national foreign policy, 
security policy, the combination of the two, given the 
interdependency in the world, and how close we are, and how 
vulnerable these new circumstances are?
    Dean Atwood. I will start by introducing the fact that John 
Hamre and General Gordon Sullivan have chaired a commission on 
these issues, and I have served on that commission, and I think 
there are a lot of excellent recommendations. So I am going to 
pass the ball to John to comment on this, but I will say one 
thing: When I first got to AID, there was so much criticism 
coming from my department at the time--I was the Under 
Secretary of State at the time--that AID just could not move 
very quickly on anything. I felt it was necessary for us to 
create a capacity to move, and the Office of Transitions 
Initiatives was the result.
    Now, we started with $20 million in that budget. It is up 
to $50 million, and I think they borrow and beg and steal from 
other parts of the Government. It is a crucial part of 
Ambassador Bremer's operation right now on the ground in Iraq. 
They can move very quickly. They have managed to look at all of 
the different things that one needs to do to reconcile 
differences within a society, whether it is community-based 
work or whether it is starting up a radio station that is 
contributing to reconciliation within a society, whether it is 
putting human rights monitors on the ground. They have done a 
whole variety of things that one needs to do to fill this gap 
between humanitarian relief, which I think is a well-run 
operation within AID, and eventually getting to a development 
stage within a country.
    But we have some very specific recommendations in this 
commission as to how the U.S. Government ought to organize. 
Then I think that we really do need to think a lot about how 
the U.S. Government interfaces with both the UN and with other 
donors in these situations as well.
    The Chairman. Would you name the title of the report and 
where it can be found?
    Dr. Hamre. Yes, I surely will. It was a blue ribbon 
commission that the Association of the U.S. Army and CSIS 
jointly hosted. I will send you copies. I will have them up 
here this afternoon. I would ask maybe you could put it in the 
record because the recommendations inside are designed to help 
improve our competencies where they exist today.

    [The report referred to by Dr. Hamre appears in the 
appendix to this hearing on page 69.]

    May I offer a few that even go beyond that?
    The Chairman. Yes.
    Dr. Hamre. Again, they are just my personal views but they 
are the kind of ideas I think we need to entertain.
    First, I think Jim said it very well. There is no 
mobilization capacity in the Foreign Service. We frankly have 
starved the Foreign Service fairly heavily during the last 
really 15 years. What qualitatively makes the Defense 
Department different and why we get asked to do things all the 
time is we can be different tomorrow than today. We can 
mobilize people. We can get out in the field and do things. 
There is not enough depth inside the State Department to be 
able to do exceptional things. You know, you work everybody 
overtime, but that is not adequate. So, first of all, you need 
more money and more people.
    Second, there is not a lessons-learned process in non-DoD 
agencies. In the military, we have a very disciplined lessons-
learned process. J-7 is in charge of it. Every time we have an 
exercise, we systematically go through at every level to 
determine what worked, what did not work. It is just as 
important to find out why it did not work. What we tend to do 
in the civilian agencies is when we get done with something, 
people move on. We need to learn from that past and collect 
that knowledge and then train that knowledge. We do not do that 
systematically on an interagency basis. So we need to do that.
    We need a training and simulation capability, an 
interagency simulation capability. The reason we do simulation 
in the military is for several reasons. One is try out our war 
plans, obviously, to train capacity to spontaneously adapt to 
circumstances you had not foreseen, and most important, to 
develop a vocabulary of terms and concepts that you can use in 
real-world circumstances that you have experienced in a 
simulation before.
    Right now, when NGO's, the international civil servants, 
the military, and the State Department all get together, they 
do not talk the same language. When the military uses the word 
``doctrine,'' it scares the hell out of the NGO's. ``Operating 
procedure'' probably is not such a frightening term. If we can 
work on simulations, we can develop a vocabulary we can share 
with each other and actually test our ideas first. I think we 
should be doing something like that.
    In the military, when congress enacted the Goldwater/
Nichols Act, it was such a profound change in the quality of 
the military. If there was one single thing that Goldwater-
Nichols changed more than anything, it was when it stipulated 
that you cannot become a general officer until you have had an 
assignment in another service. It is called the joint duty 
assignment. Maybe we ought to have a requirement that 
stipulates that you cannot be an SES in either the State 
Department or in the Defense Department until you have had a 
joint duty assignment as a GS-15 in the other Department. I am 
not saying I have got a well thought-out plan here, but it is 
an idea worth pursuing.
    If you really want to say you are not going to become an 
ambassador, you are not going to become an SES, you are not 
going to become a flag officer unless you have had joint duty 
in another agency, these people will not always be the enemy 
every time you sit down at the interagency table planning 
something. They are going to be your allies trying to figure 
out how to do it together. So we should think of that.
    We need money. I do not know how many times Brian was up 
here pleading for funds to get something going or to get his 
small coffers restored after having done something. It was just 
unending. We have got to get more resources for other agencies. 
Now, there are tools. We have budget authority. We have credit 
authority. We have got contract authority. Maybe we could be 
granting contract authority to people like AID so they can 
enter into contracts, knowing that a supplemental appropriation 
is going to come in 6 months to honor those contracts.
    There are things we could be doing in this area. We have 
got to make changes across the board. We have got lots of 
things we can do and should be doing to develop more of the 
institutional capacity to do this well when we confront it. I 
would be happy to send you a list of the things that we have 
been proposing and the commission has recommended.
    The Chairman. I would be pleased if you would. My guess is 
that at some point obviously the administration must want to do 
some of this reorganization, but we will probably need some 
statutory authority. And maybe we will have to have a dialogue 
between the administration and the Congress to stimulate this 
given the crisis we have. This is a big stimulus for the moment 
because we really have to be successful not only in Iraq but in 
Afghanistan, of course, as we have talked about. We pray not 
too many other places for the time being.
    Ambassador Dobbins. Mr. Chairman, could I just respond to 
the question? I think there are certain principles that should 
underlie an approach to trying to structure the U.S. 
Government's post-conflict stabilization and reconstruction 
efforts, and I would suggest the following.
    First is that you should look to the agencies that have the 
expertise and have the capabilities as your first source of 
those capabilities and expertise. So the Justice Department 
should be training police. The Treasury Department should be 
organizing finance ministries. So the principles should be 
where is the expertise likely to be available and it is going 
to mostly be in State and AID on the civil side, but it should 
include those other agencies.
    Secondly, the line of command and communication in the 
country concerned should be that that has been tried and 
tested, that is sanctioned in existing legislation, and which 
says that all military personnel respond through the local 
commander to the theater commander to the Secretary of Defense, 
and all civilian personnel respond through the local Ambassador 
to the Secretary of State, and that responsibility for 
coordination among agencies in this situation properly rests 
where it always does, in the White House in the National 
Security Council--that is why those institutions exist--rather 
than trying to find some single agency that has overarching 
responsibility for functions that it has no competency to 
perform.
    Thirdly, as I have suggested, I think there needs to be a 
single source of funding for the civil aspects of 
reconstruction, that is, a single appropriation upon which 
those executing these missions can draw, and a single line of 
accountability between an official, probably an official in the 
State Department, and the relevant committees for 
accountability on that funding.
    It strikes me that based on those principles, which are all 
tried and tested, really, over the last 50 years, one should be 
able to devise a system which should transcend administrations 
and changes of party and which would then lead to agencies 
being able to make investments in the knowledge that they are 
going to have to fulfill those responsibilities ultimately. 
Obviously, they are going to then be needed to give adequate 
resources to fill those. But the main message has to be that 
they are going to have to do this soon, they are going to have 
to do it often, and they are going to be evaluated on the basis 
of whether they are doing it.
    And then when you get their budget submissions, you can 
look at those budget submissions and say, have you planned 
adequately for this range of responsibilities? Where in your 
budget is the budgeting to create the surge capability so that 
when the need comes, you are going to be able to meet them?
    Finally, with respect to the immediate needs in Iraq, in 
Vietnam the State Department assigned people to Vietnam whether 
they wanted to go or not. I mean, it was simply an assignment 
that one could either leave the service or take. And it may be 
necessary to do something approaching that in Iraq if you are 
going to generate--you are not going to get 500 volunteers from 
the Foreign Service, which is only 3,500 people, to go to Iraq. 
So if that is what you are going to need, officers are going to 
have to be told, you are not going to be an ambassador or a 
deputy chief of mission until you have served 6 months in Iraq. 
So everybody who wants to go to the top, get in line and get on 
the plane for Iraq.
    Dean Atwood. Mr. Chairman, one further word and that is the 
word training. I was once the Dean of Professional Studies at 
the Foreign Service Institute. I would guess today that there 
are not courses over there now on reconstruction. There was 
also the peacekeeping school at Carlyle the Army closed at the 
beginning of this administration. General Sullivan started that 
up. I think it is superb. We need that kind of interagency 
training. Our people in the Office of Foreign Disaster 
Assistance worked very closely with the military because we 
cannot handle every disaster at AID alone, and there is 
training that goes on all the time. But if you really want to 
determine whether we are building capacity, you should look at 
where we are putting our training funds.
    The Chairman. I appreciate each of the points that you are 
making. They will be a part of the permanent record of this 
hearing so that others who want to refer to that wisdom can go 
through that check-off list. But it is an excellent one for us 
to think of.
    Just following your point, Ambassador Dobbins, it makes 
sense, as you say, to go to Treasury for people who have 
financial expertise or to Justice for those involved in setting 
up a court system or what have you. It would appear that you 
would probably need to have, to use the term one of you used, 
sort of a surge capacity. In other words, when the time comes, 
we would need to get the monies that are required for all of 
these people. If the Justice Department budget is sort of 
deficient and lean that year or the Treasury likewise, 
attempting to move those people or others out of that expertise 
may require some thoughtfulness. I think some of you made the 
point that one reason why so much reliance has gone to the 
Department of Defense is that that has been probably the 
easiest budget to manage. With some of the others, it has been 
much more parsimonious throughout and has led to some dilemmas 
that we are discussing today.
    Let me just switch the subject to something more grim, if 
that is possible, and that is, what if we are faced in Iraq, we 
as the United States, but also others if we have others with 
us, with almost an intractable situation of suicidal 
terrorists? Without picking up the example of people operating 
in Palestine and Israel precisely, the lament often comes, as 
we have discussed with Mr. Abbas when he came through not long 
ago. Our committee met with him and with Prime Minister Sharon, 
and both were commenting on the fact that there are people with 
suicidal tendencies who, regardless of what the road map is or 
what the interim plan is or so forth, conduct these activities.
    What if in Iraq we have a residual of people who, despite 
all of our best efforts at reconstruction, do likewise? Maybe 
we must get much better at communicating our message. The Iraqi 
people like us better than they do now and, as a matter of 
fact, begin to think about democracy themselves. The UN people 
still have courage and they come. But there still are people 
bombing the UN headquarters or going after the Iraqis who want 
to serve.
    My experience in interviewing Iraqis who were out at the 
neighborhood council was quite positive. I admired them. They 
were dressed just like we are in suits ready for business. 
There were some young American advisors who were helpful and 
very expert, and they almost all were reservists and they were 
all going home shortly, but nevertheless, they were offering 
witness there. The point that I asked was, how did you get 
here? Well, essentially they were sort of self-appointed. They 
volunteered. There was no election. There would not have been 
one there because people did not want to run. Most people were 
still in denial, in hiding, keeping their heads low, fearing 
the Ba'athists, if not Saddam himself, would be back after 
them. So no dancing in the streets, no embracing of liberty. 
For the moment, liberty is a pretty dangerous thing even to 
contemplate in a situation like that if you anticipate that you 
might be annihilated if you began to practice democracy
seriously.
    Are we in a transitional problem or is this a residual 
problem of the nature of terrorism or the nature of whoever we 
are dealing with in Iraq? And if so, how does reconstruction 
work, quite apart from democracy-building or building 
confidence in anybody over any period of time if this is the 
case? Do you any of you have any thoughts about this problem?
    Dr. Hamre. I have thought a lot about it. I cannot say I 
have thought well about it. As Americans, we tend to think 
about suicide bombers--because we are very much an 
individualistic society. We tend to think about it in terms of 
kind of the pathologies of depression that exist in the United 
States. We do not tend to think about suicide bombing as really 
a collective identity that is nurtured by or could be 
constrained by the societal context. And I think we have to 
start thinking about this in quite a different way. I do not 
think we can stop the willful acts of suicide by people who 
want to make a political statement.
    After all, most of the people who chose to fight us as an 
organized military committed suicide. We were going to win. It 
was a sense of duty in a context of their life that they chose 
to oppose us and die. We are going to have to solve suicide 
terrorism in a similar way, by going to the context of their 
lives, the societal
context.
    That seems to me to speak to why we have to get Iraqis 
invested in their future much more quickly than we currently 
are doing. This cannot be a prolonged period where only when 
the ``right'' Iraqis are allowed to stand up will we let them 
have a government. It is going to have to move more quickly 
than that.
    The Chairman. So we might have to make some compromises on 
the quality of the Iraqi democracy, or there might be some 
transitional form of government.
    Dr. Hamre. Yes, and we have models. The model in Hong Kong, 
it seems to me, is illustrative. That is not a democracy even 
yet, but it is a representational government, and it is 
gradually becoming more democratic. It is adopting more of the 
attributes of democratic governance. It certainly is not a 
democracy in the classic, purist definition, but it is a start 
in a direction, and it could very well be a model here.
    But we have got to be moving in that sense, and until we 
do, we are not going to have the societal framework that 
disciplines this sort of unacceptable behavior.
    The Chairman. That is a good answer.
    Let me just turn now to Senator Nelson because he has not 
had an opportunity for his questions, and I recognize him 
presently.
    Senator Nelson.  Thank you, Mr. Chairman, and thank you for 
having such an enlightening hearing, and thank you, gentlemen, 
for your comments.
    Over the next 4 to 5 years, it is estimated that $60 
billion or $70 billion are going to be needed for 
reconstruction in Iraq alone. This is what Ambassador Bremer 
has just told us at lunch today. $20 billion comes off the 
front end that he wants to come from the United States. So that 
leaves $40 billion or $50 billion from others, and he also said 
that they had only, to this point, been able to secure 
commitments of $1.5 billion. Is it realistic that the 
international community is going to provide, over 4 to 5 years, 
an additional $40 billion to $50 billion for reconstruction, or 
is the United States going to have to pony up that money as 
well on top of the first installment of $20 billion?
    Dean Atwood. Well, today it is not realistic to expect the 
international community to come forward. I do think we are 
looking at a situation where there is a good deal of urgency 
today in getting things started in Iraq, and the hope is that 
you will get to a point where there is wealth being created 
within the society not just from oil, but from other factors as 
well, and the situation stabilizes and maybe in the end you say 
we overestimated the amount that was necessary. But my guess is 
that when we look at the situation a year from now, we are 
going to want to continue whatever momentum we are able to 
achieve during that year and we will be coming back for more 
resources.
    I think it is desperately important for us to make some 
concessions to the international community. The unilateral 
approach that we have taken makes it very easy for other 
governments to say, okay, it is your problem, go for it. And I 
do not think it is all that difficult to make those 
concessions. It should not be. I mean, I realize there are some 
problems with somehow admitting a mistake here, but there has 
been some bad judgment shown. I do not think it is really all 
that difficult to suggest, for example, that we can begin to 
yield some of this control we now have over the reconstruction 
process, while staying in the game in a very big way. If we do 
that, I think we might be more successful in getting other 
countries to come forward.
    Ambassador Dobbins. I think in principle one should be able 
to realize substantial burden-sharing. The United States 
normally contributes 20 to 25 percent of the total in cases of 
this sort, allowing others, in particular, the European Union, 
Japan, and the international financial institutions to 
contribute the rest. And other countries, in particular, Japan 
and the European Union, have much larger assistance budgets 
than does the United States. So in principle, the resources 
should be there. It will mean that they will have to divert 
those resources from other priority areas, from the Balkans, 
for instance, for Europe to Iraq in significant measure if we 
are to achieve large-scale commitments from them.
    Under current circumstances, they do not feel they have a 
stake in this exercise on that scale. They tend to operate on 
the China shop principle: you broke it; you own it. So giving 
them a stake, making them feel that this is their operation, 
that they have not only an interest in it, but a voice in its 
management is not something we are going to be able to do 
overnight or over the next 30 days, but it is going to take a 
major revision in the way the administration thinks about and 
approaches the issue if, over the longer term, we are to turn 
this into a genuinely multinational enterprise.
    Senator Nelson.  And I am assuming that in order to be 
successful, it is going to have to be a genuinely international 
enterprise, at least from a window dressing standpoint, so that 
we do not have an American face as an occupier in a Muslim 
country.
    But you are right. It seems like there is going to have to 
be some kind of different message to the international 
community, and I would assume that Secretary of State Powell 
right now, Mr. Chairman, is earning his pay because he has got 
a difficult task. I did not hear it in the President's speech 
that it made it all that much more easy for Secretary Powell 
because I did not hear a plea from the President in his speech 
saying we need to embrace with the international community and 
have the kind of attitude of reaching out to try to bring them 
in.
    What do you think about the President's speech?
    Dean Atwood. I think there was at least a nod in the 
direction of the United Nations in a narrow sense. He basically 
gave a role to the United Nations, suggesting that they be 
involved in the writing of the constitution. The nod was in the 
direction of understanding that this is a much more legitimate 
approach to creating sovereignty in Iraq. Other than that, I 
did not see anything to suggest that there was any willingness 
to give up any control over the operation.
    Senator Nelson.  And I am not advocating giving up military 
control, which is an established principle.
    Dean Atwood. Nor am I.
    Senator Nelson.  Mr. Chairman, it makes it all the more 
difficult for all of us when we have to explain to our 
constituencies that it is in the interest of the United States 
that we stabilize Iraq and when $15 billion of that $20 billion 
is to build schools and roads and bridges and water systems and 
so forth that are so desperately needed in our own States and 
when we are protecting, in essence, by prefunding this, the 
debt that they have that is owed in large part to Saudia Arabia 
and Kuwait. That even if you understand that most of their oil 
revenue, even if they get it up to full production, is going to 
be taken up by their internal expenses. And yet, you look at 
what is their tax structure. Their max tax is 15 percent and we 
have a max tax of 39 percent. How do we explain those 
inequities to our constituents?
    I am asking this rhetorically. You see the struggles that 
go on that we deal with when, in fact, the interests of the 
United States are so inextricably entwined with stabilizing 
Iraq. It makes it very, very difficult.
    Let me ask you this as a final question. Do you think that 
we ought to make our appropriation of that $20 billion of the 
$87 billion going for infrastructure? Or it is really $15 
billion because $5 billion of that is training police forces. 
So do you think we ought to make that $15 billion contingent on 
the administration coming forth to the Congress with a plan, 
which the Chairman of this committee has been pleading with the 
administration ever since last fall to do? Do you think that is 
workable?
    Dr. Hamre. Well, I have been on the receiving end of a lot 
of mandates for plans when I was at DoD, and I always 
considered that my failure when that happened. If I had not 
worked with you well enough so that you knew what the heck I 
was trying to do beforehand, I had failed when you had to 
mandate in law a plan for me to submit back to you.
    Senator Nelson.  That is right. So you are talking about 
collaboration.
    Dr. Hamre. It has to be.
    Senator Nelson.  And where has it been? I think you see the 
frustration of these Senators about the lack of collaboration.
    Mr. Chairman, I rest my case.
    The Chairman. Thank you very much, Senator Nelson. Our 
committee cannot be weary. [Laughter.]
    The Chairman. I think that has been the case that we have 
been critical of some aspects of the planning certainly and of 
the operation, but only in the sense that we are determined to 
work with the administration to succeed. This is not an 
``author meets the critic'' session. It is one in which there 
is a grim business that has to take place.
    And Senator Nelson is right. There are some political 
liabilities in serving on this committee, raising questions, 
having these debates, and what have you; but at the same time, 
it is one that we enjoy because it is important, we believe. 
And you believe it is important. You, in your service, have 
exemplified that.
    So we appreciate very much your coming today. I think the 
hearing has been very helpful to each of us, hopefully to our 
colleagues who will read the record or have the advantage of 
that, and to the American people who have watched your 
testimony with the same interest that we have had. We thank you 
for coming.
    The hearing is adjourned.
    [Whereupon, at 4:43 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


       Statement Submitted for the Record by Richard N. Haass \1\
---------------------------------------------------------------------------

    \1\ A scheduling conflict prevented Mr. Haass from attending the 
September 23, 2003 hearing; his prepared statement is included with the 
permission of the Chairman.
---------------------------------------------------------------------------

               Prepared Statement of Richard N. Haass \2\
---------------------------------------------------------------------------

    \2\ Richard N. Haass is President of the Council on Foreign 
Relations. This statement represents his personal views. The Council 
takes no institutional position on policy issues.
---------------------------------------------------------------------------
    Mr. Chairman, Thank you for this opportunity to testify before you 
and your colleagues on Iraq and in particular on the question of how 
best at this point to internationalize U.S. policy.
    Let me begin by citing the case for internationalization, one that 
I subscribe to. First, and most obviously, internationalization 
promises burden sharing. Right now, helping Iraq emerge from decades of 
Saddam's misrule, war, and the war's aftermath is proving to be costly 
in terms both human and financial. Getting others to provide troops and 
police and provide economic resources and expertise is both necessary 
and desirable if we are to help Iraqis stabilize their country in a 
relatively short period of time. The scale of this effort is and 
promises to be enormous.
    There is a corollary to this point, namely, that the military, 
human, and financial costs of stabilizing Iraq are stretching us. Iraq 
is important to be sure, but so too are other foreign policy 
commitments and so, too, is the health of our economy and the welfare 
of our men and women in uniform.
    Second, internationalization should make the presence of external 
forces and individuals more acceptable to Iraqis and their neighbors. I 
don't want to exaggerate this point--the recent bombing of the UN 
headquarters in Baghdad illustrates that there are those who oppose any 
foreign presence in Iraq--but greater involvement of others (and a 
somewhat reduced U.S. profile) should translate into our being welcome 
or at least accepted longer than would otherwise be the case. This is 
certainly the case if we could persuade one or more governments in the 
Arab or Muslim world to send forces.
    Third, internationalization has the potential to heal breaches 
between the United States and many of our traditional friends and 
allies (and the international community more broadly) that opened up as 
a result of the decision to go to war against Iraq. It is important 
that we not allow differences over Iraq to spill over and undermine 
cooperation elsewhere, be it elsewhere in the greater Middle East, in 
Afghanistan, or the war on terrorism.
    The above notwithstanding, I also feel compelled at this point in 
my statement to note the limits to internationalization and what it can 
achieve. The moment is gone (if it ever existed) where it is realistic 
to expect substantial additional international military involvement. My 
sense is that the mission is widely perceived in most countries as 
being too dangerous and the politics at home too controversial for 
governments to dispatch large numbers of forces if they in fact have 
such forces at their disposal. This is unfortunate, as everyone shares 
an interest in Iraq's future success, but it is nonetheless the reality 
we must deal with.
    If this judgment is correct, it highlights the need to emphasize 
the ``Iraqi-ization'' of the security situation as quickly as can be 
accomplished. This makes sense on multiple levels, as Iraqis in uniform 
are most acceptable to their fellow countrymen, they speak the language 
and know the neighborhoods, they need the jobs. My principal concern in 
this regard is that experience elsewhere suggests that fielding and 
training local police and military units will take more time and 
resources than is often anticipated.
    I also believe there is a danger in too much internationalization 
in the security sphere. We want a UN authorized force, but not a UN 
force per se. The United States should retain command of forces in Iraq 
given the demanding security challenge. Doing this under a UN umbrella 
(as called for in the new UN Security Council resolution being 
circulated in New York) makes the most sense.
    I would only add two additional points in this regard. First, we 
should not ask neighboring states to participate inside Iraq in the 
security sphere. There is too much potential for mischief--or the 
perception of mischief that could lead to real problems. Second, we 
should avoid setting any exit dates for such a force. It is impossible 
to know in advance how long the mission will take to be completed. 
Setting artificial deadlines only raises expectations and creates 
problems down the line if and when expectations and reality do not 
coincide.
    Internationalization of the economic dimension of rebuilding Iraq 
is also desirable and necessary. The scale of the effort is large by 
any measure--Iraq is quickly becoming the mother of all 
reconstructions--and what Iraqis can be expected to fund themselves is 
likely to be quite limited for a number of years. The upcoming meeting 
in Madrid will be important. Unfortunately, both the controversy 
surrounding the Iraq war and what might be described as ``donor 
fatigue'' is likely to lead to a result in that what is pledged and 
delivered falls considerably short of what is sought.
    But whatever chance there exists of getting substantial economic 
help lies in first reaching political consensus. Passage of a new UN 
Security Council resolution is a prerequisite. To put it bluntly, 
governments and organizations will not pay if they are not allowed to 
play--and by ``play'' I mean participate meaningfully in the overall 
management of the Iraq project.
    The obvious difficulty arises in determining the details, i.e., How 
much should the writ of the Coalition Provisional Authority (CPA) be 
diluted? In principle, dilution or power sharing needs to be done vis-
a-vis both the international community and with Iraqis. As regards the 
former, the United States should resist calls to replace the CPA and 
its leadership with a UN or other international administrator. 
Observers can and will argue whether this should have been done from 
the outset, but given where things now stand, too much time would be 
lost while a new individual and organization got up to speed; necessary 
Iraqi-ization would only be delayed. In addition, the United States 
arguably has invested too much and has too much at stake for this to be 
acceptable. But this does not mean we can or should continue as we 
have. Setting up some contact or coordinating group in Baghdad, one 
consisting of key contributors, would help. At the end of the day, the 
quality of the relationships and consultations will matter more than 
the formal structure or arrangements.
    Greater Iraqi self-governance is desirable, but here, too, we 
should avoid specific timetables (the political equivalent of exit 
dates) and simply commit to transferring authority to Iraqis as quickly 
as can be responsibly and reasonably carried out is not unrealistic to 
aim for significant self-government by next summer, although experience 
in Afghanistan and elsewhere suggests that carrying out constitutional 
development and elections will take longer than hoped for. We should 
also not be averse to introducing meaningful amounts of self-rule at 
the local level before we attempt it nationally. But trying to give 
Iraqis full control of their country prematurely does them and us no 
favors.
    Mr. Chairman, I would like to close with one last thought. Nearly 
everything about the Iraq war has been controversial, and it has 
strained U.S. relationships with many of the world's governments and 
peoples. Regardless of one's view on the wisdom of the war, we should 
make a concerted effort to forge a common approach in Iraq given the 
stake that we all have in its success. But we should also devote time 
and energy to consultations about how we can all best deal with future 
Iraqs, that is, other cases where governments with a history of 
aggression against their own people or their neighbors develop weapons 
of mass destruction or support terrorism. We also need to be better 
prepared for assisting societies as they emerge from conflicts. As a 
result, greater consensus is needed for when force can legitimately be 
used and greater capacity is needed for coping with the after effects. 
In short, some ``preventive internationalization'' is called for if we 
are to be better able to cope with challenges characteristic of this 
era.
    Thank you. I look forward to your questions.
                               __________

           Additional Material Submitted by Dr. John J. Hamre

                                 ______
                                 

                  Iraq's Post-Conflict Reconstruction:
                   A Field Review and Recommendations

                             July 17, 2003

                                 ______
                                 
 [prepared by: iraq reconstruction assessment mission, june 27-july 7, 
 2003--dr. john hamre, frederick barton, bathsheba croker, dr. johanna 
                   mendelson-forman, dr. robert orr.]
                                 ______
                                 

                                Foreword

    At the request of Secretary of Defense Donald Rumsfeld and 
Ambassador L. Paul Bremer, I led a team of experts in the field of 
post-conflict reconstruction to Iraq from June 26 to July 7, 2003 to 
assess the reconstruction efforts there. The other members of my team 
were Frederick D. Barton, Co-Director of the Post-Conflict 
Reconstruction Project at CSIS; Dr. Robert C. Orr, the Director of the 
Washington office of the Council on Foreign Relations; Dr. Johanna 
Mendelson-Forman, a Senior Program Officer at the United Nations 
Foundation; and Bathsheba N. Crocker, a Council on Foreign Relations 
Fellow at CSIS. The attached report synthesizes the issues we focused 
on during our 11 days in Iraq.
    The team traveled throughout the country, visiting 11 major cities 
and two ports, including nine of Iraq's 18 governorates (provinces). We 
met with over 250 people, including Coalition Provisional Authority 
(CPA) officials and staff, coalition military officers, international 
organization representatives, non-governmental organization (NGO) 
staff, bilateral donor representatives, and Iraqis from all walks of 
life (including Iraqi political leaders, ministry and local government 
officials, police officers, professionals, NGO representatives, and 
ordinary citizens). We saw significant progress everywhere we went, but 
the enormity of this undertaking cannot be overstated; there are huge 
challenges ahead. We hope the recommendations in the attached report 
will assist in shaping a successful reconstruction in Iraq. We are 
deeply committed to that success.
    We owe everyone involved our deepest thanks. Without the strong 
support of the Department of Defense, this trip would not have been 
possible. Ambassador Bremer and the entire CPA team gave us incredible 
access and support in Baghdad and throughout Iraq. We thank Justin 
Lemmon, Matthew Fuller, Dennis Sabal, Paul Hughes, Bill Krause, and 
Ambassador Hume Horan in particular. We extend special thanks to Daniel 
Werbel-Sanborn, Milan Vais hnav, Caroline Maloney, Lena Hagelstein, and 
Vinca LaFleur for their invaluable assistance and support.

                                     John Hamre, President,
                    Center for Strategic and International Studies.

                           Executive Summary

    Rebuilding Iraq is an enormous task. Iraq is a large country with 
historic divisions, exacerbated by a brutal and corrupt regime. The 
country's 24 million people and its infrastructure and service delivery 
mechanisms have suffered decades of severe degradation and under-
investment. Elements of the old regime engage in a campaign of sabotage 
and ongoing resistance, greatly magnifying the ``natural'' challenges 
of rebuilding Iraq. Given the daunting array of needs and challenges, 
and the national security imperative for the United States to succeed 
in this endeavor, the United States needs to be prepared to stay the 
course in Iraq for several years.
    The next 12 months will be decisive; the next three months are 
crucial to turning around the security situation, which is volatile in 
key parts of the country. All players are watching chsely to see how 
resolutely the coalition will handle this challenge. The Iraqi 
population has exceedingly high expectations, and the window for 
cooperation may close rapidly if they do not see progress on delivering 
security, basic services, opportunities for broad political 
involvement, and economic opportunity. The ``hearts and minds'' of key 
segments of the Sunni and Shi'a communities are in play and can be won, 
but only if the Coalition Provisional Authority (CPA) and new Iraqi 
authorities deliver in ort order. To do so, the CPA will have to 
dramatically and expeditiously augment its operational capacity 
throughout the country, so that civilian-led rebuilding can proceed 
while there are still significant numbers of coalition forces in Iraq 
to provide maximum leverage over those who seek to thwart the process.
    To succeed, the United States and its allies will need to pursue a 
strategy over the next twelve months that: recognizes the unique 
challenges in different parts of the country; consolidates gains in 
those areas where things are going well; and wins hearts and minds even 
as it decisively confronts spoilers.
    Seven major areas need immediate attention.

   1. The coalition must establish public safety in all parts of the 
            country.  In addition to ongoing efforts, this will 
            involve: reviewing force composition and structure, as well 
            as composite force levels (U.S., coalition, and Iraqi) so 
            as to be able to address the need for increased street-
            level presence in key conflictive areas; quickly hiring 
            private security to help stand up and supervise a rapid 
            expansion of the Iraqi Facility Protection Service, thereby 
            freeing thousands of U.S. troops from this duty; ratcheting 
            up efforts to recruit sufficient levels of international 
            civilian police through all available channels; and, 
            launching a major initiative to reintegrate ``self-
            demobilized'' Iraqi soldiers and local militias.

   2. Iraqi ownership of the rebuilding process must be expanded at 
            national, provincial, and local levels.  At the national 
            level ensuring success of the newly formed Iraqi Governing 
            Council is crucial. This will require avoiding overloading 
            it with too many controversial issues too soon. The natural 
            desire to draw anger away from the coalition by putting an 
            Iraqi face on the most difficult decisions must be balanced 
            with a realistic assessment of what the council can 
            successfully manage. At the provincial and local levels, 
            coalition forces and the CPA have made great progress in 
            establishing political councils throughout the country, but 
            they need direction and the ability to respond to local 
            needs and demands. To achieve this, local and provincial 
            political councils need to have access to resources and be 
            linked to the national Iraqi Governing Council and the 
            constitutional process.

   3. Idle hands must be put to work and basic economic and social 
            services provided immediately to avoid exacerbating 
            political and security problems.  A model economy will not 
            be created overnight out of Iraq's failed statist economic 
            structures. Short-term public works projects are needed on 
            a large scale to soak up sizable amounts of the available 
            labor pool. Simultaneously, the CPA must get a large number 
            of formerly state-owned enterprises up and running. Even if 
            many of them are not competitive and may need to be 
            privatized and downsized eventually, now is the time to get 
            as many people back to work as possible. A massive micro-
            credit program in all provinces would help to spur wide-
            ranging economic activity, and help to empower key agents 
            of change such as women. The CPA must also do whatever is 
            necessary to immediately refurbish basic services, 
            especially electricity, water, and sanitation.

   4. Decentralization is essential.  The job facing occupation and 
            Iraqi authorities is too big to be handled exclusively by 
            the central occupying authority and national Iraqi 
            Governing Council. Implementation is lagging far behind 
            needs and expectations in key areas, at least to some 
            extent because of severely constrained CPA human resources 
            at the provincial and local levels. This situation must be 
            addressed immediately by decentralizing key functions of 
            the CPA to the provincial level, thereby enhancing 
            operational speed and effectiveness and allowing maximum 
            empowerment of Iraqis. The CPA must rapidly recruit and 
            fieki a much greater number of civilian experts to guide 
            key governance, economic, social, justice, and also some 
            security components of the occupation.

   5. The coalition must facilitate a profound change in the Iraqi 
            national frame of mind--from centralized autlxrity to 
            significant freedoms, from suspicion to trust, from 
            skepticism to hope.  This will require an intense and 
            effective communications and marketing campaign, not the 
            status quo. The CPA needs to win the confidence and support 
            of the Iraqi people. Communication--between the CPA and the 
            Iraqi people, and within the CPA itself--is insufficient so 
            far. Drastic changes must be made to immediately improve 
            the daily flow of practical information to the Iraqi 
            people, principally through enhanced radio ard TV 
            programming. Iraqis need to hear about difficulties and 
            successes from authoritative sources. Secondly, the CPA 
            needs to gather information from Iraqis much more 
            effectively--through a more robust civilian ground 
            presence, ``walk-in'' centers for Iraqis staffed by Iraqis, 
            and hiring a large number of Iraqi ``animators'' to carry 
            and receive messages. Thirdly, information flow must be 
            improved within the CPA itself through an integrated 
            operations center that would extend across both the 
            civilian and military sides of the CPA, and by enhancing 
            cell-phone coverage and a system-wide email system that 
            could ease the timely dissemination of information to all 
            CPA personnel.

   6. The United States needs to quickly mobilize a new reconstruction 
            coalition that is significantly broader than the coalition 
            that successfully waged the war.  The scope of the 
            challenges, the financial requirements, and rising anti-
            Americanism in parts of the country make necessary a new 
            coalition that involves various international actors 
            (including from countries and organizations that took no 
            part in the original war coalition). The Council for 
            International Cooperation at the CPA is a welcome 
            innovation, but it must be dramatically expanded and 
            supercharged if a new and inclusive coalition is to be 
            built.

   7. Money must be significantly more forthcoming and more flexible.  
            Iraq will require significant outside support over the 
            short to medium term. In addition to broadening the 
            financial coalition to include a wider range of 
            international actors, this means the President and Congress 
            will need to budget and fully fund reconstruction costs 
            through 2004. The CPA must be given rapid and flexible 
            funding. ``Business as usual'' is not an option for 
            operations in Iraq, nor can it be for their funding.

    The enormity of the task ahead must not be underestimated. It 
requires that the entire effort be immediately turbo-charged--by making 
it more agile and flexible, and providing it with greater funding and 
personnel.

                              Introduction

    The next 12 months will be critical to the success or failure of 
the Iraq reconstruction effort. The potential for chaos is becoming 
more real every day, given the unclear status of the old guard--former 
Republican Guard members and Ba'ath party loyalists; the small 
irregular militias throughout Iraq that could wreak havoc in the 
absence of a strong coalition military presence; the beginnings of 
attacks on Iraqis labeled as ``collaborators with the United States; 
and continuing attacks on U.S. military forces and soft targets--such 
as power plants and civilians (including NGO workers)--that are 
undermining the CPA's ability to provide basic service and 
reverberating into decreased popular support for the mission in the 
United States and the United Kingdom.
    There are real threats to the CPA's efforts:

  <bullet> the potential use of force (or at least intimidation) by 
        multiple internal and external players;

  <bullet> serious security breaches that could challenge U.S. 
        confidence and undermine U.S. credibility;

  <bullet> rising economic insecurity, combined with the entrenchment 
        of pre- existing black-market economic networks;

  <bullet> a lessening of support for the occupying authority within 
        Iraq;

  <bullet> suspicions about U.S. intentions with respect to oil 
        production and use of Iraq's oil revenue, and the hand-off of 
        the UN oil-for-food program, which has fed large parts of the 
        Iraqi population for years;

  <bullet> the prospect of internal fighting between factions;

  <bullet> the expansion of guerilla-like warfare.

    In our travels throughout the country, Iraqis uniformly expressed 
the view that the window of opportunity for the CPA to turn things 
around in Iraq is closing rapidly. The following factors coalesce to 
make the next few months particularly crucial.

  <bullet> The coalition has not addressed the heightened sense of 
        expectation among the Iraqis as to how quickly the coalition 
        can produce results, and frustration levels are growing.

  <bullet> There is a general sense of steady deterioration in the 
        security situation, in Baghdad, Mosul, and elsewhere.

  <bullet> There are several key impending changes of the guard--new 
        coalition military forces are rotating in; the overall lead is 
        shifting from military to civilian; and Iraqis are assuming 
        greater responsibility for key security and governance tasks.

  <bullet> The national Iraqi Governing Council came together in mid-
        July. Thousands of Iraqis are now engaged in local political 
        councils, but their function needs better definition in order 
        to link them with the national political scene and take full 
        advantage of their current level of energy and expectation.

  <bullet> The coalition forces and the CPA have set up a skeleton 
        infrastructure under extremely difficult circumstances. The CPA 
        must now become increasingly operational, but it lacks the 
        resources, personnel, and flexibility to move into the next 
        stage of the mission.

  <bullet> The coalition currently has two critical pieces of leverage 
        that must be taken advantage of: significant military forces 
        are still in theater, capable of carrying out priority tasks 
        and handling spoilers and the CPA and the military have some 
        liquidity (due largely to seized assets of the former regime).

  <bullet> A series of upcoming external deadlines will drive policy 
        decisions with respect to Iraq: (1) the U.S. budget process in 
        September; (2) the October/November donors' conference; and (3) 
        the oil-for-food transition in November.

    The coalition has made significant progress in just sixty days.\1\ 
This is due in large part to the exceptional work of the coalition 
military forces in carrying out tasks far removed from their combat 
duties. Civil affairs contingents have been key to their efforts, 
although much more civil affairs capacity was needed in the early 
stages of the reconstruction. The energy and enthusiasm of the CPA 
staff is remarkable, as is their sense of mission and dedication.
---------------------------------------------------------------------------
    \1\ For example, in the area of security, the CPA reports that 
35,000 Iraqi police officers are back out on the streets, conducting 
sensitive raids and arrests: a facilities protection service is being 
trained to guard static sites, with some promise in the south with the 
Basra River Service. In the area of governance, the CPA reports that 85 
percent of Iraq's towns have town councils up and running. The new Iraq 
Governing Council was established on July 13, 2003 and includes 
representatives of all of Iraq's major political parties, religions, 
and ethnicities, as well as three women. In the justice realm, de-
Ba'athifcation of Iraq's judges is proceeding: courts are being 
reestablished and have started to hear cases: and Iraq's laws have been 
stripped of Saddarn-era decrees. On the economic front, quick impact 
projects have begun repairing schools and government buildings 
throughout the country: civil servant and army salaries are being paid; 
low level economic activity (street markets) is burgeoning.
---------------------------------------------------------------------------
    But the enormity of tiis undertaking cannot be overstated; there 
are huge challenges ahead. Iraq is a large country with historic 
divisions, exacerbated by a brutal and corrupt regime. The country's 24 
million people, and its infrastructure and service delivery mechanisms 
have suffered decades of severe degradation and under-investment. The 
CPA lacks the personnel, money, and flexibility needed to be fully 
effective. Military officers and civilians are carrying out post-
conflict reconstruction efforts in a war zone. Every small step of 
progress is counterbalanced by fundamental problems that must be 
addressed before the CPA can capitalize on the advances seen in 
particular towns or provinces throughout Iraq.
    In order to succeed, the United States and a broadened 
international coalition will need to pursue a strategy over the next 12 
months that: recognizes the unique challenges in different parts of the 
country; consolidates gains in those areas where things are going well; 
and advances the national mindset of the Iraqi people while decisively 
confronting spoilers. To put Iraq on a successful path over the next 
year, seven major areas need immediate attention.

                          Seven Priority Areas

                     1. establishing public safety
    Virtually every Iraqi and most CPA and coalition military officials 
as well as most contractors we spoke to cited the lack of public safety 
as their number one concern. The war continues, but it has entered a 
new phase of active resistance to the coalition's efforts, involving 
attacks on U.S. troops and Iraqi ``collaborators'' as well as sabotage 
of vital infrastructure. Even outside the ``Sunni triangle'' (the area 
from Ramadi in the west, north to Tikrit, and east to Baghdad), there 
have been attacks on civilians, including NGO workers: their vehicles 
have been shot at in Mosul, and aid workers in Basra have had stones 
thrown at them at reconstruction sites. Iraqis (particularly in 
Baghdad) remain afraid to be out on the streets after dark, and Iraqi 
women do not attend school or run basic errands without escorts.
    Although the coalition military presence is large, it is not 
visible enough at the street level--particularly in Baghdad--nor is it 
sufficiently agile,\2\ implying the need to reassess the force 
composition, size, and structure. The current configuration of 
composite security forces (U.S., coalition, and Iraqi) does not 
adequately support the reconstruction mission; and attacks on coalition 
forces and civilians and the sabotage and plundering of infrastructure 
continue.
---------------------------------------------------------------------------
    \2\ A significant number of U.S. troops are engaged in static 
support rather than patrolling and policing. 5,000 troops are being 
used to guard static sites in Baghdad alone, and two and a half 
battalions are being used to guard the CPA headquarters in Baghdad.
---------------------------------------------------------------------------
    Ultimately, Iraqis will have to take responsibility for addressing 
these types of problems, but it is unrealistic to expect them to have 
the competence to do so in the near term. The new Iraqi security forces 
will face well-trained, well financed, and well-organized irregular 
forces throughout the country, in addition to the Republican Guard 
forces that may be awaiting a return. The new Iraqi security forces 
(whether paramilitary, the new Iraqi army, the Facility Protection 
Service, or the Iraqi police) will not be capable of handling security 
matters without significant international oversight and rapid response 
capacity for at least two to five years. Joint patrols with coalition 
forces and Iraqis should be initiated immediately. International police 
trainers and monitors are also needed during this time to conduct joint 
patrols with Iraqis, and train, oversee, and monitor the Iraqi police 
force.
    Finally, battalion commanders and Iraqis throughout the country 
were uniform in their assessment that without an overwhelming presence 
of coalition forces or international police, potential spoilers will 
move in, whether in the form of ``self-demobilized'' soldiers or local 
militia members (e.g., the Iranian-backed Bad'r Corps, the Kurdish 
Peshmerga, and smaller regional militias such as that operating in the 
Maysan province). The CPA has not adequately addressed the need for 
demobilization, disarmament, and reintegration (DDR) of Iraq's armed 
forces, in part because of an assumption that the ``self-
demobilization'' of the Iraqi army during and after the conflict means 
that they are fully demobilized in actual fact. The CPA must launch a 
major initiative to reintegrate these soldiers and militia members, in 
order to minimize the opportunity for them to pose security threats in 
the future.
Recommendations
  <bullet> The coalition should reassess force composition and 
        structure and troop levels, commensurate with immediate needs, 
        including that of improving street-level visibility of 
        coalition troops, particularly in Baghdad.

  <bullet> The United States could use wntract private security forces 
        to help rapidly expand security at low-risk installations, 
        freeing up some coalition troops for other security tasks. A 
        standardized policy on uniforms and identification could help 
        alleviate concerns about the proliferation of private militias 
        throughout Iraq.

  <bullet> The United States must recalibrate its expectations of how 
        quickly Iraqis can be expected to address the serious and 
        growing security problems and must plan for U.S. and UK forces 
        to be available in a rapid response capacity wherever Iraqi 
        forces are being asked to take over security tasks. The CPA 
        must also raise and rationalize the salary structure of the 
        Iraqi forces.\3\
---------------------------------------------------------------------------
    \3\ For example, most CPA and coalition military officials we spoke 
to in the field thought that the current police salary of $60/month was 
far too low to ensure a professional, corruption-free police force.

  <bullet> The CPA should decentralize the process of training and 
        equipping the Iraqi police force and Facilities Protection 
        Service to allow for faster and more enduring progress than the 
---------------------------------------------------------------------------
        centralized training of thousands of police officers.

  <bullet> The CPA must begin serious efforts to recruit international 
        civilian police (CIVPOL) and should open all possible spigots 
        for such recruitment, including the United Nations, the OSCE, 
        and any potential bilateral contributors.\4\
---------------------------------------------------------------------------
    \4\ The United Nations has considerable experience in fielding CIV 
POL forces. The Organization for Security and Cooperation in Europe 
(OSCE) alone does not have the experience or recruiting capability to 
manage a CIVPOL effort along the order envisioned for Iraq.

  <bullet> The CPA must develop and implement a reintegration program 
        that provides opportunities for demobilized soldiers to gain 
        counseling and placement, either in the new Iraqi security 
        forces or major public works projects or other jobs. 
        Reintegration programs must include all the different militias 
        throughout the country in order to protect against future 
        problems these well-organized forces could pose.
                           2. iraqi ownership
    Iraqi responsibility for their own future must be firmly 
established at the national, provincial, and local levels. At the 
national level, ensuring the success of the newly formed Iraqi 
Governing Council is crucial. The CPA runs the risk of overloading the 
new council by pushing too many controversial issues to it, which would 
undermine this otherwise positive development.\5\ The natural desire to 
draw anger away from the coalition by putting an Iraqi face on the most 
difficult decisions must be balanced by a realistic assessment of what 
the council can successfully manage.
---------------------------------------------------------------------------
    \5\ These issues include: appointing a new cabinet; approving the 
national budget; initial preparations and plans for a national 
constitutional process; food subsidies after the oil-for-food program 
phases out in November 2003: salary levels; agricultural price 
supports; the size of the new Iraqi army; de-Ba'athification follow-
through; and currency problems.
---------------------------------------------------------------------------
    The CPA has made great progress in establishing municipal and 
provincial political councils throughout the country, but those 
councils need direction as to their purpose and the ability to respond 
to local needs and demands. If not properly resourced and hooked into 
the national governing council and constitutional process, these 
councils could result in heightened expectations and dangerous levels 
of frustration, rather than positively harnessing demands for change.
Recommendations
  <bullet> The CPA must give the Iraqi Governing Council time to build 
        on a series of initial successes. The CPA itself should make 
        more progress on some of the immediate, sensitive issues--such 
        as the handling of the remaining escrowed oil-for-food money 
        that supported myriad development projects in the north, 
        retraining and stipends for former soldiers and militia 
        members, and food and agricultural subsidies--before handing 
        them over to a fragile new governing structure.

  <bullet> The CPA should provide local and provincial councils with 
        funds to address priority local infrastructure needs. Local CPA 
        overseers could sign-off on use of funds.

  <bullet> The CPA should formulate plans to link the local and 
        provincial councils to the central political and constitutional 
        processes. The CPA should convene a national conference of town 
        and provincial councils from all over Iraq to launch a process 
        of defining their relationship to the national government and 
        creating fresh channels of cooperation.

         3. putting people to work and providing basic services
    Rebuilding a functioning Iraqi economy out of failed statist 
economic structures is a daunting task. A host of thorny challenges 
persist: difficulty in restarting vital public services, particularly 
power and water; out-of-work civil servants and former soldiers; Iraq's 
crushing international debt burden; a plethora of state-owned 
industries that are not market competitive; a literacy rate that has 
been falling for decades; infrastnicture in need of serious investment; 
shortages of gas (for cars and cooking) and other key supplies; and a 
population that is predominantly young.
    The immediate needs will be providing short-term employment 
opportunities to keep people off the streets and refurbishing basic 
services such as electricity, water, and sanitation, to avoid 
exacerbating political and security problems. Low level economic 
activity is returning to normal, and markets are filling up. But there 
are long lines of Iraqis waiting for work wherever it is announced. 
Many old state-owned enterprises are not competitive, but they are a 
major source of employment and should not be closed during this most 
unstable time. Moreover, a new civil and commercial code will be needed 
to attract regional and international investment in Iraq's industries.
Recommendations
  <bullet> Develop a series of work initiatives to keep Iraqis from 
        being idle, with a particular emphasis on young, urban 
        populations.

  <bullet> Get and keep state-owned enterprises up and running in the 
        short-term to provide employment, while developing a clear 
        medium and long-term plan for privatizing those enterprises.

  <bullet> Start micro-credit programs in all provinces immediately, 
        placing a special emphasis on lending to women.

  <bullet> The CPA should do whatever is necessary to improve provision 
        of basic services, such as electricity, water, and sanitation.

  <bullet> Begin developing follow-on for the oil-for-food program, as 
        a food shortage caused by any disruption will cause a national 
        protest. This must include the transparent handling of 
        obligated resources under the program.

  <bullet> The CPA should involve Iraqis personally in the success of 
        Iraq's oil industry. Personal bank accounts or trust funds 
        funded by oil revenues should be developed, to catalyze the 
        banking system and get cash to the public.
                          4. decentralization
    The job facing occupation and Iraqi authorities is too big to be 
handled by the center. Implementation is lagging far behind needs and 
expectations in key areas, at least to some extent because of severely 
constrained CPA human resources at the provincial and local levels. 
There is a disconnect between on-the-ground realities and policy 
formulation at CPA headquarters. Decentralization of key CPA functions 
will enhance operational speed and effectiveness and allow maximum 
empowerment of Iraqis. Placing significantly more CPA civilians in the 
field would help deliver more of what is needed on the ground and 
improve the general understanding of the reconstruction.
Recommendations
  <bullet> The CPA must be given adequate resources and personnel to 
        immediately establish 18 provincial CPA offices, including 18 
        provincial civil administrators with clear authorities and 
        appropriately staffed offices of 20-30 people.\6\ Attaching one 
        political adviser to each battalion command will not be 
        sufficient. Each CPA provincial office will need funds for 
        operational support and flexible funding and authority for 
        quick impact projects.
---------------------------------------------------------------------------
    \6\ Based on our informal survey of governorates we visited, there 
is general consensus that each provincial CPA office will need between 
20-30 people in order to ensure an effective hand-off from military to 
civilian lead and give the CPA the operational capacity it needs to 
address priorities.

  <bullet> The Department of Defense should establish a headhunting 
        capacity in the United States to help identify, recruit, and 
        retain a steady pool of civilian talent to fill the CPA's 
        needs. Given the broad nature of the tasks, this office should 
        have strong interagency support, from State, USAID, Treasury, 
        Justice, Agriculture, and other relevant departments. At the 
        same time, the United States must internationalize the 
        recruiting effort for CPA civilians. Potential talent within 
        other foreign governments and international organization 
        officials with experience in Iraq and the region should be 
        identified. This effort must break through the lingering pre-
        war differences with logical partners on the civilian front.
                 5. changing the iraqi national mindset
    The CPA must facilitate a profound change in the Iraqi national 
frame of mind--from centralized authority to significant freedoms, from 
suspicion to trust, from skepticism to hope. The CPA needs to 
effectively communicate its strategy and vision--what will success look 
like, what does the United States intend to provide, and how long will 
it stay. This will require an intense and effective communications and 
marketing campaign, not the status quo. Communication--between the CPA 
and the Iraqi people and within the CPA itself is insufficient so far. 
The CPA message is not getting out, either to the Iraqi people or 
within the CPA. All potential constituencies are not being adequately 
exploited; every CPA interaction with Iraqis should be considered a 
communications opportunity. Radio and television programming are the 
most critical means to getting the message out.\7\ Without seeing or 
hearing Bremer and others, disinformation will continue to prevail over 
truth on key policy issues, such as U.S. intentions about Iraq's oil 
money.
---------------------------------------------------------------------------
    \7\ Based on our interviews, Iraqis are dismissive of the Iraqi 
Media Network--the CPA-funded indigenous media outlet--noting that it 
does not have good programming and is only on the air during certain 
limited times of the day.
---------------------------------------------------------------------------
    Under the current set-up, the CPA is isolated and cut off from 
Iraqis. Most CPA officials we interviewed confirmed that the CPA does 
not know even close to what it needs to know about the Iraqi people. 
(This problem is worst in Baghdad; in other areas, CPA and military 
officers are in more regular contact with Iraqis.) The CPA does receive 
information from Iraqis at the local, regional, and national levels, 
but it does not have the organizational tools to assess that 
information adequately.
    Finally, there is a need for enhanced communications flow within 
the CPA structure--both to provide updated, real information to CPA 
staff about Iraq news and to enhance communication on policy matters 
between the CPA front office and the rest of the organization, 
especially the regional and provincial offices. Serious time is also 
being lost because of the absence of reliable telephone communications 
nationwide, which inhibits the transmission of timely information.
Recommendations
  <bullet> The CPA should engage in blanket marketing in every venue it 
        can access, including using advertising on every channel that 
        feeds into Iraq and public service messages. Every interaction 
        with Iraqis should be seen as a message dissemination 
        opportunity, including salary distribution centers, oil-for-
        food distributions, and town meetings.

  <bullet> All day programming is needed on a revamped and upgraded 
        Iraqi Media Network, with a focus on television programming. 
        The CPA also should encourage the establishment of more local 
        TV stations, which have proved more successful in getting out 
        CPA's messages in areas such as Karbala and the north. Creating 
        a ``headline news'' type of program would address Iraqis' 
        desire to hear both the CPA global messages and very practical 
        information about such pressing issues as power outages, 
        sensitive arrests, sabotaged infrastructure, and dismissals of 
        former Ba'ath party officials.

  <bullet> The CPA should establish walk-in centers staffed by Iraqis 
        and use Iraqi ``animators'' to give average Iraqis ways to make 
        their views known to coalition authorities. The CPA should 
        utilize international players--particularly the UN specialized 
        agencies--that have been on the ground in Iraq for years to 
        boost its capacity to collect information and views from 
        Iraqis.

  <bullet> The CPA must create an effective fusion mechanism into which 
        all information collected at headquarters and in the field can 
        be fed, to ensure it is being used to the fullest extent.

  <bullet> The CPA headquarters should focus on engaging and building a 
        community among all CPA employees. Regular town meetings 
        featuring Ambassador Bremer and other senior officials would 
        help. Daily email briefs containing real, hard information--
        including information on the latest attacks and about basic 
        services--should be provided to all CPA employees.

  <bullet> The CPA should convene regular interactive meetings with its 
        regional and provincial offices, whether in person or by video 
        conference.

  <bullet> The CPA should expand current contractor capacity to 
        encourage the provision of regular nationwide telephone service 
        immediately.

              6. mobilizing a new reconstruction coalition
    Relying on the war coalition will not produce sufficient resources 
or capacity. The scope of the challenges, the financial requirements, 
and rising anti-Americanism in parts of Iraq argue for a new coalition 
that includes countries and organizations beyond the original war 
fighting coalition. The recent donor discussions at the United States 
in late June reflected low projections for donor financial support, 
further highlighting this need. The Council for International 
Cooperation (CIC) at the CPA is a welcome innovation, but it must be 
dramatically expanded and supercharged if a new and inclusive coalition 
is to be built.
Recommendations
  <bullet> The United States, working with the G-7 and the World Bank, 
        should oversee the donor coordination process, including by 
        keeping a central databank of resource needs and donor 
        fulfillment of those needs. Donor coordination efforts should 
        be broadened beyond the 15 states that are currently members of 
        the CIC, and those efforts should be bolstered by providing the 
        CIC support staff in Europe and the United States.

  <bullet> The CPA should reach out broadly to other countries in its 
        efforts to recruit civilians to fill its staffing needs, as the 
        U.S. government will not be able to fill those needs on its 
        own.

  <bullet> The CPA should take advantage of the UN's unique capacities 
        in support for constitution drafting, access to regional and 
        Iraqi legal expertise, and gender and education issues. The CPA 
        should utilize the UN's systems, including the oil-for-food 
        network, as a valuable means of connecting with Iraqis.

  <bullet> The CPA should draw on valuable international expertise to 
        assist the Iraqis in dealing with war crimes and the legacy of 
        Saddam Hussein.

                        7. money and flexibility
    The CPA currently has four sources of revenue: appropriated funds, 
oil revenue, vested assets in the United States, and assets that have 
been seized in Iraq. Of these, seized regime assets are the most 
flexible and readily available, but these are finite--and in any case, 
the overall resources available are inadequate to the challenges at 
hand. It is highly likely that the CPA will need supplemental 
appropriations to get through fiscal year 2004. Oil revenue projections 
for the next few years are low--the CPA expects production to reach 1.5 
million barrels per day (bpd) by the end of 2003 and 2.5 million bpd by 
the end of 2004. It is currently at around 600,000 bpd. The CPA expects 
to earn $5 billion in oil revenue by the end of 2003, but this 
projection may decrease if security problems persist and oil 
infrastructure continues to be targeted. Power shortages are also 
hampering efforts to restart oil production.
    The CPA is badly handicapped by a ``business as usual'' approach to 
the mechanics of government, such as getting permission to spend money 
or enter into contracts. This approach is not reasonable given the 
urgency of the situation in Iraq. There also appear to be unnecessary 
limitations in the area of contracts.
Recommendations
  <bullet> The CPA should be given complete flexibility to spend 
        money--even appropriated funds and vested assets--as it views 
        necessary without project-by-project oversight by Washington. A 
        process should be established to ensure appropriate 
        accountability for all spending, through regular reports from 
        the CPA back to Washington. Any funds appropriated in the 
        future for Iraq reconstruction needs should not require prior 
        notification of Congress. Congress could request quarterly 
        reports detailing how appropriated funds have been spent on 
        reconstruction activities in Iraq.

  <bullet> The United States needs to ensue that Iraq's revenues are 
        not encumbered by past or future obligations. This will require 
        resolving the debt issue within the U.S. government, and 
        pushing Iraq's creditors to forgive or significantly reduce 
        Iraq's outstanding debt burden. The United States should also 
        avoid encumbering future oil revenues to generate immediate 
        income. \8\
---------------------------------------------------------------------------
    \8\ It will be critical that the CPA handle oil revenues as 
transparently as possible. Iraqis we met with spoke of continuing 
suspicions about U.S. intentions with respect to their oil industry.

  <bullet> The relevant United States government agencies should deploy 
        military and civilian contracting officers to the theater to 
---------------------------------------------------------------------------
        streamline the contracting processes.

  <bullet> The Department of Defense should create a strong office in 
        Washington to support the CPA's needs, including recruiting of 
        appropriate civilian personnel.

                               Conclusion

    Eleven days in Iraq left indelible images in our minds. Fathers 
escorting young girls to school; young men waiting in long lines 
everywhere jobs are announced; young kids flashing the thumbs-up sign 
(and swarming around us asking for money); a rebuilt prison with a 
newly installed manager; retrained Iraqi police officers directing 
traffic; snaking lines of cars at gas stations; a festive 4th of July 
party thrown by the Kurds in the north (and celebrating 4th of July at 
Saddam's palace in Baghdad); racing through small towns in heavily 
armed convoys; 19-year old American soldiers standing out in 120 degree 
heat to guard Iraqi sites, and chatting on street corners with Iraqi 
children; the blackness and heat of the night with power shortages; the 
pleasure of a shower after days without running water; the energy, 
commitment, and intensity of Iraqis as they discussed their country's 
future; the natural beauty of the mountains in the north and Iraq's 
fertile crescent; the pride and professionalism of Iraqi members of 
newly established town councils; the palpable fear of Iraqis out in the 
street after the sun ges down, and the security bubble U.S. officials 
work in; the high expectations of Iraqis as to what the United States 
can provide, and their frustration and anger over intermittent 
electricity and water service; the resourcefulness of U.S. and British 
troops as they restart civil society; the sincere efforts of civilians 
to forge ahead despite the looming insecurity; devastated university 
buildings in Basra, completely ravaged by looters; the opulence of 
Saddam's palaces; and Iraq's ancient history and cultural richness.
    As we traveled throughout the country, it was impossible not to be 
impressed by the character and drive of the coalition forces, the 
dedication and enthusiasm of the CPA, the wearied endurance of the 
Iraqi people, and the enormity of the opportunities, challenges, and 
risks before them all.
    The U.S. government has chosen to use a different model for post-
conflict reconstruction in Iraq. Not only is it being led by the United 
States, but it is being led by an institution--the Department of 
Defense--with relatively untested capacities. There has been progress 
to date, but using a new model heightens the challenges and requires a 
new definition of relations and responsibilities.
    The United States will need significant international assistance--
from the United Nations, other international organizations, and 
bilateral donors. Security forces, CIVPOL, information flows, and 
ensuring a ready supply of CPA personnel with relevant capabilities are 
just four such areas.
    The U.S. government--both the executive branch and the Congress--
must change certain business as usual practices in order to maximize 
the CPA's opportunities to be successful. The CPA needs more resources, 
personnel, and flexibility. We owe it to our people in the field, and 
to Iraqis, to provide everything necessary to get this right. U.S. 
credibility and national interest depend upon it.

                               __________

       A Wiser Peace: An Action Strategy for a Post-Conflict Iraq

                              January 2003

      [project directors: frederick barton and bathsheba crocker]
                                 ______
                                 

                           Executive Summary

  <bullet> If the United States goes to war with Iraq, winning the 
        peace will be critical. This report takes no position on 
        whether there should be a war. But, the success of any U.S.-led 
        effort to disarm Iraq of weapons of mass destruction and drive 
        Saddam Hussein from power will be judged more by the commitment 
        to rebuilding Iraq after a conflict than by the military phase 
        of the war itself. At stake are the interests not only of the 
        United States, but of Iraqis, the region, and the broader 
        international community.

  <bullet> Past experience from Haiti to Afghanistan has shown that in 
        order for post-conflict reconstruction efforts to be effective 
        after the shooting stops, preparations must be well in train 
        before the shooting starts. Thus, as military buildups move 
        forward for war in Iraq, it is increasingly important for the 
        United States and the United Nations to step up preparations 
        for post-conflict reconstruction.

  <bullet> Yet, so far, military deployments to the Gulf and 
        humanitarian contingency planning have not been matched by 
        visible, concrete actions by the United States, the United 
        Nations, or others to prepare resources and personnel to handle 
        the immense reconstruction challenges post-conflict Iraq will 
        present.

  <bullet> This report recommends ten key actions that U.S. 
        policymakers and the United Nations must take before the 
        conflict starts in order to maximize potential for success in 
        the post-conflict phase in Iraq. These recommendations draw on 
        ongoing work by the Post-Conflict Reconstruction Project, a 
        collaborative effort between the Center for Strategic and 
        International Studies and the Association of the U.S. Army, and 
        reflect lessons learned through first-hand experience with 
        post-conflict reconstruction efforts over the past decade.

   1. Create a Transitional Security Force that is effectively 
            prepared, mandated, and staffed to handle pre-conflict 
            civil security needs, including the need for constabulary 
            forces.

   2. Develop a comprehensive plan for securing eliminating weapons of 
            mass destruction.

   3. Plan and train for other critical pre-conflict missions necessary 
            to lay the foundation for a peaceful and secure Iraq that 
            will enhance regional security.

   4. Establish an international transitional administration and name a 
            transitional administrator.

   5. Begin developing a national dialogue process and recruit a 
            national dialogue coordinator.

   6. Recruit a rapidly deployable justice team of international legal 
            experts, judges, prosecutors, defense attorneys, 
            corrections officers, and public information experts.

   7. Identify and recruit international civilian police officers.

   8. Call for a debt restructuring conference and push the United 
            Nations Security Council to begin a review of past war-
            related claims against Iraq.

   9. Begin an immediate review of sanctions against Iraq and prepare 
            necessary documentation to suspend or partially lift those 
            sanctions.

  10. Convene a donors' conference for Iraq.

  <bullet> The United States has declared a commitment to a democratic, 
        economically viable future Iraq. It is time to move from 
        rhetoric to action.

  <bullet> To win the peace and secure their interests, the United 
        States and the international community must commit the 
        resources, military might, personnel, and time that successful 
        post-conflict reconstruction will require in Iraq--and they 
        must start doing so now.

                  Part I: Introduction and Background

                       winning the peace in iraq
    As the United States and its allies intensify military preparations 
for a war with Iraq, it becomes more important each day to step up 
preparations for addressing post-conflict needs. indeed, recent 
experience in Haiti, the Balkans, East Timor, Afghanistan, and 
elsewhere has demonstrated that ``winning the peace'' is often harder 
than fighting the war.
    So far, however, signs of military build-up and humanitarian 
contingency planning have not been matched by visible, concrete actions 
by the United States, the United Nations, or others to position 
civilian and military resources to handle the mytiad reconstruction 
challenges that wifi be faced in post-conflict Iraq. This situation 
gravely threatens the interests of the United States, lraqis, the 
region, and the international community as a whole.
    The stakes are enormous. For much of the Middle East, Iraq will be 
a test case for judging U.S. intentions in the region and the Islamic 
world. The outcome of a war with Iraq and any post-conflict 
reconstruction efforts will be critical for Turkey, a major U.S. ally; 
for future relations with other friends and allies in a strategically 
important region; for world oil flows; for Iran; and for the Israeli-
Palestinian conflict.
    The United States has declared a commitment to a democratic, 
economically viable future Iraq. Now, it is time to match rhetoric with 
action.
    This report recommends ten steps the United States and the United 
Nations should be taking now and throughout the conflict phase--
preferably with the heavy involvement of other multilateral and 
regional organizations, as well as key allies, donor nations, and 
regional neighbors--in order to prepare for the post-conflict 
challenges in Iraq, and to avoid the pitfalls of past experiences. 
While the recommendations are obviously based on the assumption that 
there will be a U.S.-led military conflict with Iraq, this report takes 
no position on whether there should be a war against Iraq. Some of the 
recommendations--particularly on the Iraqi debt question--could be 
relevant even if war is avoided. Moreover, certain recommendations--
especially on the economic front--could be an inducement to regime 
change in Iraq.
    Attempting to define what a future Iraq should look like would 
detract from what we are convinced must be a primary goal, namely, 
engaging Iraqis early and fully in running their country post-Saddam 
and in making key decisions about its future. That said, the following 
guideposts would point toward a promising future for a prosperous Iraq 
at peace with itself and its neighbors:

  <bullet> Provide a safe, secure, and non-intimidating environment for 
        Iraq's people, while protecting Iraq's borders and securing oil 
        production facilities.

  <bullet> Secure and eliminate Iraq's weapons of mass destruction.

  <bullet> Create the opportunity for Iraqis to participate in 
        governing Iraq and to shape their political future.

  <bullet> Begin to develop a rule of law culture in Iraq.

  <bullet> Disencumber Iraq of the financial obligations of the Saddam 
        Hussein regime in order to maximize the potential for Iraq to 
        become a viable, self-sustaining economy.
              current efforts: insuffic1ent and incomplete
    Recent press reports suggest that the Bush administration is 
formulating a plan for the post-conflict reconstruction of Iraq. 
According to these reports, the administration's plan involves pairing 
an American military commander (who would provide security for the 18 
or so months the American military presence is maintained) with an 
international civilian administrator who would be tasked with 
rejuvenating the economy, restarting the flow of oil, reopening 
schools, rebuilding political institutions, and administering 
assistance programs. Very little information has been provided about 
the nature of the transitional administration, but the UN Mission in 
Kosovo has been cited as a potential model. The State Department has 
also sponsored a constructive series of ``Future of Iraq'' working 
groups drawing on Iraqi opposition groups and others in the diaspora, 
on such issues as judicial reform, war crimes trials, public finance, 
and local governance in a post-Saddam Iraq.
    Similarly, the United Nations is doing some contingency planning, 
mostly on humanitarian issues, for which it has asked the United States 
and other donors to contribute $37 million. While a UN task force has 
identified major areas that will need to be addressed by UN 
humanitarian agencies if a conflict with Iraq occurs, its recently 
released report only lists ``other matters which require early 
guidance,'' including ``the need to give early consideration, regarding 
the role, if any, of the United Nations regarding post-conflict 
administration.'' \1\ The UN's Department of Peacekeeping Operations 
(DPKO) reportedly is planning to create an office that could help 
administer humanitarian assistance and administer an Iraqi government, 
but there is no sign of serious discussion of more detailed planning 
with respect to post-conflict reconstruction needs.\2\
---------------------------------------------------------------------------
    \1\ Likely Humanitarian Scenarios, United Nation's Report, Dec. 10, 
2002, at http://www.casi.org.uk/info/undocs/waro21210.pdf [hereinafter 
``Likely Humanitarian Scenarios''].
    \2\ Colum Lynch, Iraq War Could Put 10 Million in Need of Aid, UN 
Reports, Washington Post, Jan. 7, 2003, at A12. United Nations 
Secretary-General Kofi Annan recently noted that UN experts are ``doing 
some `preliminary thinking' about a possible post-conflict political 
organization and administration in Iraq.'' Edith M. Lederer, Annan Sees 
No Reason for Attack on Iraq, Associated Press, Jan. 14, 2003.
---------------------------------------------------------------------------
    To turn pre-conflict aspirations into successful post-conflict 
action, money and manpower have to start moving--and there is not a 
moment to lose. The following are concrete, measurable steps that would 
signal a move from planning to action.
    Constabulary-like forces must be recruited to serve in a 
transitional security force. Comprehensive plans must be laid for 
handling weapons of mass destruction (WMD) in post-conflict Iraq. A 
transitional administrator for Iraq must be named. International civil 
servants must be recruited. international civilian police (CIVPOL) 
officers must be recruited. International lawyers and judges must be 
recruited to fill any post-conflict vacuum in the justice sector; and 
Iraq's laws must be vetted now for consistency with international human 
rights laws. A conference on debt must be convened. The United Nations 
and the United States must lay preparations for the suspension or 
lifting of sanctions. The United Nations or any major donor country 
must call a donors' conference to solicit funds for humanitarian 
relief, a post-conflict civilian mission, and immediate reconstruction 
needs in Iraq.
          the situation in iraq: challenges and opportunities
    Iraq presents unique challenges and opportunities--political, 
social, economic and strategic. Evidence suggests that Iraqis at all 
levels of society are desperate for a return to normalcy after a 
quarter century of war and economic suffering. That will not, however, 
mean their passive acceptance of whatever the international community 
may seek to impose.
    In contrast to Afghanistan, Iraq is far from a failed state. It has 
a centralized government with a functioning bureaucracy; indeed, it 
would be counterproductive if the existing Iraqi administration were 
purged too radically. Nor is Iraq a haven for religious fundamentalism. 
In contrast to Iran and Saudi Arabia, its government is secular. Though 
the rule of law and respect for human rights will have to be 
reestablished, Iraq does have a workable constitution and salvageable 
legal codes.
    Iraqi society is divided among Shia Arabs, Sunni Arabs, Kurds, and 
other small minority populations. Its population is largely educated, 
sophisticated, and urban. Any political representation of the Shia--who 
comprise over 55 percent of the population--would be a revolutionary 
change in the balance of power, as the Sunni minority has traditionally 
ruled. That said, Iraq has little history of inter-ethnic or communal 
violence, and though scattered revenge killings and reprisals are 
likely post-Saddam, major violence and ethnic cleansing has 
historically been state-driven. Some fear that the Shia are potential 
allies of their co-religionists in Iran, but Iraqi Shia soldiers fought 
hard against the Iranians during the Iran-Iraq war.
    Iraq's enormous security apparatus presents both liabilities and 
opportunities. The army, secret police, and intelligence services must 
be disbanded and, to the extent necessary, restructured or reintegrated 
into society. Much of the existing civilian police, however, will be 
available and should be used; they will be crucial in maintaining 
secutity in the post-conflict period.
    Economically, while Iraq has extensive oil wealth, it will not be 
able to cover all its own post-conflict needs. Whether or not a 
retreating Iraqi force razes the oil fields, the oil industry's 
infrastructure will have to be largely rebuilt; it will be years before 
Iraq's natural patrimony can fully be brought to bear on the 
reconstruction effort. Even then, the pace of Iraq's recovery will be 
determined by the international community's ability and willingness to 
renegotiate Iraq's enormous foreign debt burden and enforce a grace 
period that will give Iraq time to get back on its feet.
    The United Nations is making plans to satisfy the basic 
humanitarian needs of the Iraqi population for as long as a year, but 
the bulk of citizens may require assistance for much longer. Sixty 
percent of Iraqis currently depend on government handouts for their 
most basic needs.\3\ The agricultural sector has steadily declined over 
the past decade, and most Iraqis have long since used up their 
financial and matetial assets. Absent the existing Oil-for-Food 
program, Iraqis will lean heavily on humanitarian relief organizations, 
donors, and a future government to provide the basic foodstuffs, clean 
water, energy, and limited health care to which they are accustomed. 
Extensive humanitarian support may be required for some time--to allow 
the Iraqi economy to undergo those reforms necessary to provide the 
population with jobs and essential commodities.
---------------------------------------------------------------------------
    \3\ Likely Humanitarian Scenarios.
---------------------------------------------------------------------------
    Finally and crucially, Iraq possessed, and may still possess, 
significant stockpiles of weapons of mass destruction (WMD). Saddam may 
deploy WMD in response to an invasion, thereby complicating the 
military phase of the conflict itself as well as the reconstruction 
effort. People wili likely flee any affected areas, adding to the one 
million internally displaced persons already estimated in Iraq. For the 
international community, halting proliferation of Iraq's WMD will mean 
not only finding, securing, and destroying such weapons and materials, 
but dealing with the skilled scientific and technical community 
involved in their development.
              recent post-conflict reconstruction efforts:
                  persistent problems, lessons learned
    While the record from Haiti to Afghanistan shows that some post-
conflict reconstruction efforts have been successful, the United States 
and the international community have faced persistent problems. If we 
are to avoid these pitfalls in Iraq, we must heed the lessons learned:

  <bullet> Ensure advance planning for civilian missions.  In 1999, one 
        dedicated UN employee in the Department of Peacekeeping 
        Operations was responsible for simultaneously recruiting more 
        than 4,000 civil servants to serve in the UN missions in Kosovo 
        and East Timor. \4\ Both missions experienced security, 
        authority, and law enforcement vacuums as a result of severe 
        delays in full deployment of the civilian missions. In Kosovo, 
        delays in staffing the international mission allowed spoilers 
        in the form of former Kosovo Liberation Army (KLA) officers to 
        wrest control of government functions, eventually forcing the 
        UN Mission in Kosovo (UNMIK) into negotiations and alliances 
        that have caused long-term difficulties.
---------------------------------------------------------------------------
    \4\ Joel C. Beauvais, Benevolent Despotism: A Critique of U.N. 
State-Building in East Timor, 33 International Law and Politics 1101, 
1124 n.89 (2001).

  <bullet> Do not underestimate post-conflict security needs.  In 
        Afghanistan, the viability of President Hamid Karzai's 
        government has been undermined by a lack of adequate security, 
        due in part to the failure to extend the international security 
        force (ISAF) outside Kabul. In Kosovo, the initial NATO Kosovo 
        Force (KFOR) was neither prepared for a major degree of score-
        settling violence, nor properly mandated to handle law 
        enforcement or constabulary duties, which led to a volatile and 
---------------------------------------------------------------------------
        dangerous security vacuum.

  <bullet> Appropriately prioritize assistance for the justice sector.  
        In East Timor, donor unwillingness to fund prison-building 
        forced civilian police to release several alleged serious 
        criminals because of insufficient detention and correction 
        facilities. UNMIK's early missteps in choosing the applicable 
        law, and delay in bringing in international judges and 
        prosecutors, continue to plague the functioning of Kosovo's 
        judiciary and have hampered efforts to instill in Kosovars 
        trust and respect for the rule of law, inadequate justice 
        sector assistance in the Balkans has marred longer-term efforts 
        to tackle organized criminal activity that now ravages the 
        region.

  <bullet> Deploy better CIVPOL, faster.  The United Nations has 
        repeatedly lagged in recruiting adequate numbers of 
        international civilian police officers (CIVPOL), and CIVPOL 
        have generally tended to be poorly trained and equipped, 
        undermanned, and under-resourced.

  <bullet> Find the right balance of external and internal 
        decisionmakers.  In Kosovo and East Timor, UN post-conflict 
        missions have been criticized for insufficiently involving 
        nationals in decision making and implementation, thereby 
        delaying the development of democratic self-governing 
        capacities. In contrast, the ``light footprint'' approach in 
        Afghanistan, which relies too heavily on a single personality--
        Hamid Karzai--is drawing complaints as symbolic of inadequate 
        international commitment to reconstruction.

  <bullet> Ensure sufficient funding for and focus on long-term 
        development needs.  About 75 percent of the $1.5 billion spent 
        on assistance in Afghanistan thus far has been devoted to 
        short-term humanitarian assistance rather than longer-term 
        reconstruction assistance--limiting the government's ability to 
        deliver benefits to its people, and damaging Karzai's 
        legitimacy. in Kosovo, three and a half years into UNMIK's 
        mission, the United Nations is only just beginning seriously to 
        focus on development. Most of Kosovo still experiences rolling 
        power blackouts on a daily basis, and there is no sign of a job 
        creation plan despite an unemployment level over 50 percent and 
        the youngest population in Europe.

  <bullet> Improve donor transparency, accountability, and 
        coordination.  Every recent post-conflict reconstruction case 
        has suffered from insistence on donor flag-waving, earmarking 
        of funds, and duplication of effort in some areas combined with 
        underfunding of others. The lack of a transparent mechanism to 
        track and account for all funds pledged and coming into a 
        country for post-conflict reconstruction efforts has caused 
        problems in the past due to a lack of donor accountability, 
        double counting of funds pledged, and delays in disbursement. 
        There are some promising signs of donor coordination efforts in 
        Afghanistan, but an imbalance among donors willing to provide 
        funds directly to the Afghan government through UN-led trust 
        funds, and those that insist on providing funds bilaterally or 
        through international non-governmental organizations, has 
        hampered efforts to support the fledgling Afghan government.

  <bullet> Insist on close, effective coordination and consistent 
        mandates among military, humanitarian, and civilian actors.  In 
        Afghanistan, the U.S. military's initial reliance on regional 
        warlords conflicted with the international community's efforts 
        to strengthen Karzai's government and increased instability 
        throughout the country, sending mixed messages about the 
        international community's commitment. In Bosnia and Kosovo, 
        friction between the security forces and the international 
        administrations over capturing war criminals has undercut the 
        authority of the international administrations and undermined 
        efforts to change attitudes in those countries about the 
        importance of the rule of law.

    We have the opportunity to learn from past cases in order to do 
better in Iraq--which is particularly crucial given the enormity of the 
stakes involved.

                      Part II: Ten Recommendations

    The Post-Conflict Reconstruction Project has identified four broad 
categories under which a variety of tasks must be performed: security, 
governance and participation, justice and reconciliation, and social 
and economic well-being. Within these categories, we have focused on 
the ten critical recommendations we believe U.S. policymakers and 
international organizations must pursue if the post-conflict 
reconstruction of Iraq is to succeed.\5\
---------------------------------------------------------------------------
    \5\ Our recommendations do not cover the entire spectrum of actions 
that must take place; for example, they do not address planning and 
preparation for humanitarian needs in Iraq. Based on past experience, 
both U.S. and UN humanitarian agencies and NGOs have proved adept at 
planning and implementing emergency relief programs in post-conflict 
settings. These organizations possess skilled individuals, are well 
organized and funded, and can rapidly mobilize resources. In addition, 
our recommendations do not directly address how to deal with Iraqi 
officials accused of war crimes or crimes against humanity. That said, 
according to media reports, the U.S. government has been building cases 
against Saddam Hussein and a dozen or so of the most notorious members 
of his inner circle and is certain to make the prosecution of these 
officials a top priority if the Iraqi government is ousted. Given the 
egregious nature of the alleged crimes, it is difficult to imagine a 
scenario in which coalition forces would not make an immediate and 
concerted effort to apprehend and extricate the alleged perpetrators. 
We also do not highlight the issue of a truth and reconciliation 
process for Iraq, but this too will be critical. Although the Bush 
administration reportedly is considering proposing a Truth and 
Reconciliation Commission modeled on South Africa's, any reconciliation 
process must be Iraqi-driven, not imposed from the outside. A national 
dialogue process such as that recommended below would be one venue for 
Iraqis to address this question.
---------------------------------------------------------------------------
                                SECURITY

1. Create a Transitional Security Force that is effectively prepared, 
        mandated, and staffed to handle post-conflict civil security 
        needs, including the need for constabulary forces.
    To avoid a dangerous security vacuum, it is imperative to organize, 
train, and equip for the post-conflict security mission in conjunction 
with planning for combat. Thus, prior to beginning combat operations, a 
U.S.-led coalition force should complete detailed preparations for the 
organization and command structure of a Transitional Security Force 
(TSF). The TSF would be part of the combined coalition force but would 
focus primarily on the mission of civil security--augmenting and 
overseeing civil policing efforts at the provincial and local levels; 
working closely with an appointed civilian transitional administrator 
and his staff; and supporting the security requirements of humanitarian 
and emergency relief efforts.
    Swift deployment of adequate, experienced security forces mandated 
in constabulary duties is essential to avoid a civil security vacuum in 
conjunction with regime change in Iraq. The United States must 
immediately identify and train a core force of U.S. military troops to 
perform constabulary (i.e. joint military and law enforcement) duties 
in Iraq. Working with its coalition partners, the U.S. must also 
immediately identify and ready other constabulary forces--such as the 
Italian Carabinieri, the French Gendarmerie, and appropriate regional 
forces--to ensure their timely arrival in theater.
    It is equally imperative that coalition leaders begin plans for 
using the existing Iraqi police force to the maximum extent possible to 
minimize any gaps in routine law enforcement functions. Although senior 
Ba'ath party functionaries and members of the security forces will 
presumably be removed from the police force as part of a de-
Ba'athification process, at less senior levels, there should be a 
significant number of Iraqi police officers who could be used by 
coalition constabulary forces to help maintain law and order in the 
immediate post-conflict period. After 1991, the Kurds successfully 
converted parts of this same force into a useful local civilian police 
force, once officers loyal to Saddam had been removed.
    Coalition force planning must include pre-conflict coordination 
with the designated transitional administrator in order to ensure a 
common mandate with respect to post-conflict civil security 
requirements, and to establish effective lines of communication that 
will be critical once the transitional security force and the 
international civilian mission are on the ground in Iraq. The coalition 
force also should begin liaising with humanitarian relief organizations 
and NGOs in order to establish a workable foundation for communication, 
coordination, and security in a post-conflict Iraq.

2. Develop a comprehensive plan for securing and eliminating weapons of 
        mass destruction.
    Weapons of mass destruction (WMD) pose a grave threat to allied 
forces, the Iraqi people, and regional and global security. Iraq has a 
long and well-documented history of WMD development and use, including 
at least ten chemical attacks against Iranians and Kurds. A collapsed 
Iraqi regime could lead to a massive proliferation disaster if Iraq's 
WMD, delivery systems, and scientific and industrial infrastructure are 
not immediately secured.
    Eradicating the WMD threat will require detailed planning and 
coordination across the U.S. government and international spectrum, 
including UN Monitoring, Verification and Inspection Commission 
(UNMOVIC) inspectors currently in Iraq. Success in planning and 
execution will rely on an unprecedented degree of information gathering 
and intelligence sharing to identify potential weapons sites and 
relevant scientists and technicians.
    A task force involving all relevant U.S. government agencies--in 
particular, the Defense, State, and Energy Departments and the 
intelligence community--must develop comprehensive plans for:

  <bullet> Tracking down WMD (the fact that UNMOVIC has not yet 
        publicly confirmed specific WMD locations suggests the need for 
        a detailed and dynamic search during both the combat and post-
        conflict periods);

  <bullet> Securing facilities (combat forces will have to hold WMD 
        sites and storage/production facilities until the weapons can 
        be inspected and destroyed);

  <bullet> Making sure Iraqis involved in the weapons programs are 
        contained (the scientists and technicians responsible for the 
        Iraqi WMD program must be identified and prevented from fleeing 
        the country); and

  <bullet> Destroying or removing WMD from Iraq.

3. Plan and train for other critical post-conflict missions necessary 
        to lay the foundation for a peaceful and secure Iraq that will 
        enhance regional security.
    In addition to the critical mission of securing and destroying WMD, 
U.S.-led coalition combat forces will be integrally involved in at 
least six major areas necessary to securing Iraq and enhancing regional 
security. These mission tasks cannot be delegated to constabulary or 
local police/security forces.

  <bullet> Parole. Retraining, and Reintegration of the Regular Army.  
        Coalition forces must begin the extensive preparations 
        necessary for the parole (return to civilian life) and/or 
        retraining of the Iraqi Army, which will be an important part 
        of the reconciliation process. Soldiers must be returned to 
        garrison, fed, and clothed. Each soldier must also be 
        identified, photographed, and provided with paperwork 
        validating a legitimate parole. Their arms and equipment must 
        be collected and stored securely. Many will be transported 
        home. This must be done in conjunction with the implementation 
        of civil retraining and reintegration programs. Failure to 
        promote former combatants' reintegration into a legitimate 
        security organization or their return to civilian life leads to 
        long-term difficulties for reconstruction and development 
        efforts and can cause serious security problems. Based on 
        historical precedents, military planners should allow at least 
        120 days to complete the demilitarization process and begin an 
        aggressive re-training and reintegration program for Iraqi 
        combatants.
      Long-term security challenges and requirements for defensive 
        self-sufficiency are too great in iraq to justify completely 
        demobilizing the military. Longstanding regional grievances and 
        animosities pose a significant threat to a defenseless Iraq. 
        Based on legitimate security concerns, the need to secure 3650 
        kilometers of border area (including nearly 1500 kilometers 
        with Iran) and the size of neighboring military forces, the 
        Iraqi National Army--currently 350,000 strong--should he 
        restructured and retrained as a defensive force of no fewer 
        than 150,000 regular troops, with a capacity for reserve 
        augmentation. \6\ If a coherent, credible Iraqi army is not 
        quickly recreated, the United States will bear the burden of 
        defending the borders indefinitely. It will be imperative to 
        instill a new, apolitical culture within Iraq's restructured 
        military as part of the effort to break the political and 
        leadership role the military has traditionally played in Iraq.
---------------------------------------------------------------------------
    \6\ The number of troops needed for Iraq to maintain a defensive 
force was derived according to an analysis of the size and relative 
capabilities of regional nations' military forces. 150,000 regular 
troops augmented by reserve forces would be sufficient to maintain 
Iraq's territorial integrity and prevent an offensive war without the 
need for significant assistance from allied forces.

  <bullet> Protecting Iraq's Oil Infrastructure.  Iraq is thought to 
        have the second or third largest oil reserves in the world, and 
        the petroleum industry could be harnessed over time to fund 
        much of the reconstruction effort and provide capital to a 
        post-conflict government. It is therefore essential that Saddam 
        be prevented from destroying the country's oil infrastructure 
        as he attempted to do in Kuwait after the 1991 rout by U.S. and 
        coalition forces. Coalition forces must also identify 
        appropriate units that can safeguard that infrastructure from 
        potential takeover attempts once it is no longer protected by 
---------------------------------------------------------------------------
        Saddam's forces.

  <bullet> Protecting Iraq's Territorial Integrity.  Coalition leaders 
        must obtain credible border guarantees from Iraq's neighbors, 
        particularly Turkey and Iran, and be prepared to use 
        intelligence assets and combat forces in a deterrent role. 
        Similar guarantees must be obtained from the Kurdish opposition 
        parties that they will not declare an independent state of 
        Kurdistan or move militarily on Kirkuk or Baghdad in the wake 
        of regime collapse. While many regional actors have a stake in 
        a post-Saddam Iraq, unilateral actions or influence by such 
        actors will undermine a cohesive and coordinated reconstruction 
        effort.

  <bullet> Demilitarization and Elimination of the Republican Guards 
        and Special Republican Guards.  The Republican Guard and 
        Special Republican Guard are distinct entities created to 
        protect Saddam and provide a counterweight to the Regular Army. 
        These units have received enough funding and training to be a 
        threat to a new government and have been sufficiently 
        compromised from a human rights standpoint to be unusable as a 
        viable security force in the future. It is imperative that this 
        force be demobilized quickly and thoroughly. Some members may 
        be eligible for parole after being cleared of potential war 
        crimes or serious human rights violations; others may be 
        subject to war crimes trials or a local reconciliation process 
        and will need to be segregated from the rest of the population 
        until these proceedings take place.

  <bullet> Security of Ba'ath Party Headquarters and Saddam's Palaces.  
        Coalition forces must prepare in advance to stop destruction of 
        Ba'ath party headquarters and presidential palaces and secure 
        these premises after Saddam falls. It is likely that Ba'ath 
        party headquarters and presidential palaces house information 
        that will be relevant to war crimes and WMD. It is also likely 
        that Ba'ath party officials will attempt to destroy much of 
        this information.

  <bullet> Dismantling of Internal Security and Intelligence Apparatus.  
        Finally, the coalition forces must lay preparations now for 
        dismantling Iraq's internal security and intelligence apparatus 
        after a conflict. The internal security forces and intelligence 
        structure infiltrate every part of Iraqi society and permeate 
        every Iraqi government institution. They must be completely 
        dismantled in order to eradicate the climate of fear and 
        oppression that currently marks Iraqi society.

                      GOVERNANCE AND PARTICIPATION

4. Establish an international transitional administration and name a 
        transitional administrator.
    The United States has indicated a possible desire to see the United 
Nations run an international civilian administration in Iraq. The 
United Nations must begin setting up such an administration now so that 
it is prepared to stand-up a mission by the time the conflict ends. 
Although preparing a post-conflict mission in a member state would 
place the United Nations in a politically delicate situation, failure 
to do so only invites a repeat of past problems associated with hastily 
planned post-conflict civilian missions that were painfully slow to 
arrive in the field, and could lead to a destabilizing vacuum of 
political authority. it also would mean a longer initial period of U.S. 
military occupation of Iraq, which would heighten anti-American 
sentiment in Iraq and throughout the Islamic world and may be difficult 
to sustain when the United States simultaneously is pursuing a war on 
terrorism and dealing with a provocative North Korea.
    Other options for post-conflict governance in Iraq have been 
considered, but all have serious drawbacks. New leadership from inside 
Saddam's regime or a new Iraqi military government would continue the 
status quo, provide no hope for a different future, and potentially 
lead to erosion of the central government's control and a breakdown in 
national unity. The possibility that high-level Iraqi government 
officials and military leaders have engaged in war crimes, human rights 
violations, or crimes against humanity would call into serious question 
their legitimacy. The Iraqi opposition, meanwhile, is split along 
religious, ethnic, tribal, and ideological lines and has not proved 
able to coalesce around any one candidate or group of leaders, let 
alone offer a specific vision of how Iraq should be governed after 
regime change. It commands questionable legitimacy inside Iraq because 
it has ties to Washington and has been cut off from daily realities in 
Iraq. But Saddam has systematically killed or destroyed any potential 
leaders inside the country, leaving a political void that may take some 
time to fill.
    In the interim, a multinational civilian administration in Iraq 
would avoid pitfalls attached to military occupation and the absence of 
broadly acceptable Iraqi leaders, while carrying with it the legitimacy 
of international approval.
    The UN Security Council must appoint a transitional administrator 
as early as possible to allow him to immediately begin planning his 
administration, working with core staff members, and liaising with 
military officials and humanitarian organizations. If political 
concerns preclude appointing an administrator before the conflict 
begins, the United Nations should appoint a coordinator to oversee the 
immediate process of setting up the transitional administration.\7\ 
Waiting until the conflict is over would be a waste of valuable time, 
increasing the risk for Iraqis and the challenge for the international 
community. Similarly, core staff members--including 18 provincial 
transitional administrators--should be recruited now, and should make 
any necessary preparations so they can immediately deploy to Iraq as 
needed. The United Nations should solicit funds now to spend on 
planning the civilian administration, to pay its salaries and other 
necessary expenses, and to support ``quick start'' reconstruction 
projects--such as reopening schools, providing access to clean water, 
and rebuilding ports--that could begin right away.
---------------------------------------------------------------------------
    \7\ In a January 14 press conference, Annan noted that the United 
Nations is ``doing some thinking, without assuming anything'' about 
putting together post-conflict structures for Iraq. But he stated that 
it would be ``premature'' to start discussing the appointment of a 
Special Representative to the Secretary-General (SRSG) for Iraq. (In 
Kosovo and East Timor, the
SRSGs doubled as the transitional administrators.) Annan, Press 
Conference, UN Headquarters,
Jan. 14, 2003, at--http://www.reliefweb.int/w/rwb.nsf/
6686f45896f15dbc852567ae00530132/62824 
daecd7167ef49256caf001e2a9a?OpenDocument
---------------------------------------------------------------------------
    The UN Security Council members must begin discussions of the 
transitional administration's mandate and should draft the necessary 
Chapter VII resolution so that it could be passed as soon as it is 
needed. The mandate must be robust, flexible, and unambiguous; it must 
provide the mission full executive, legislative, judicial, and 
financial authority. At the same time, the administration should be 
streamlined, relying on existing Iraqi infrastructure and technocratic 
talent rather than importing an international cadre.
    To ensure that Iraqis play the key role in their country's 
reconstruction, the mandate should emphasize maximum use of the 
existing Iraqi civil service at the local and national levels and call 
for Iraqi heads of government ministries and the use of Iraqi advisory 
councils wherever useful. The United Nations should develop a ``de-
Ba'athification'' process for vetting the various Iraqi government 
ministries and institutions that could begin as soon as the 
transitional administration hits the ground. The United Nations could 
start now to identify potential Iraqi ministers--drawing on the pool of 
talent throughout Iraq, Kurds, opposition figures, and others in the 
Iraqi diaspora--perhaps working with existing structures such as the 
coordinating committee of 65 Iraqi opposition members or the various 
working groups of the State Department's Future of Iraq Project.
    The mandate also should call for maximum decentralization of 
government services, and should stress paying salaries at the municipal 
level, which could have an immediate beneficial effect. A high degree 
of decentralization will increase the influence of suppressed regional 
voices and speed the de-Ba'athification process and the identification 
and cultivation of lraqis who will become the future leaders of Iraq.

5. Develop a national dialogue process and recruit a national dialogue 
        coordinator.
    The viability of any new government in Iraq depends on giving all 
Iraqis a tangible role and stake in its formulation. One effective 
means is a national dialogue process similar to the Loya Jurga in 
Afghanistan. This would involve a graduated selection of delegates from 
throughout Iraq and the diaspora, starting at the grassroots level in 
all of Iraq's 18 provinces, who would deliberate on issues key to the 
future of Iraq--such as whether Iraq should be a federal democracy and 
a national process for reconciliation and dealing with past wrongs. A 
national dialogue would maximize Iraqi input into the nature of their 
future state; open up a political process in Iraq; create an 
environment in which local talent and capacity can be developed and 
thrive; and encourage civil society development. It would ensure that 
the framework, timetable, and overall structure of Iraq's future 
government and political systems are Iraqi-driven and directed.
    The United Nations should appoint a special coordinator for the 
national dialogue process--ideally an Iraqi--who could begin developing 
the outlines of a model now. The coordinator could work with the 
coalition force command and the nascent transitional administration to 
begin planning for municipal and provincial level meetings that would 
lead to selection of delegates to a national assembly. In collaboration 
first with Iraqis in the diaspora and then with Iraqis throughout the 
country, the coordinator could begin to define the timing, form, and 
agenda of a national dialogue process. The agenda might include 
defining a new political and government system for Iraq; setting a 
timetable for elections; setting a timeline for phased withdrawal of 
the international transitional administration; revising or drafting a 
new Iraqi Constitution and legal codes; and devising a process for 
dealing with past wrongs, such as a truth and reconciliation commission 
or a general amnesty.

                       JUSTICE AND RECONCILIATION

6. Recruit a rapidly deployable justice team of international legal 
        experts, judges, prosecutors, defense attorneys, corrections 
        officers, and public information experts.
    The United Nations should recruit standby teams of justice sector 
specialists--international legal experts, judges, prosecutors, defense 
attorneys, and corrections officers--who could rapidly be deployed to 
Iraq's 18 provinces, to work with and train existing Iraqi personnel as 
well as to supplement their capabilities as needed. Another appropriate 
body--such as the European Union or an experienced NGO--could also be 
called on to assist in creating these teams. Although there is a 
significant amount of human and physical judicial infrastructure that 
can be built on when re-constituting the Iraqi justice system, there 
will be undoubtedly be gaps. It is likely, for example, that critical 
actors in the judicial arena will be seen as tainted as a result of 
having enforced Saddam's laws for so long. It may be necessary for 
international officials to fill their positions temporarily until 
additional local talent can be harnessed.
    These teams should be given intensive pre-deployment language, 
culture, and situational training--in addition to being educated in the 
body of applicable law in Iraq, once that has been decided. The United 
Nations should draw on regional and Iraqi talent and expertise to 
ensure greater grounding in local traditions, including language and 
customs.
    In addition to designating teams for the field, the United Nations 
should create a team of Iraqi expatriate lawyers and international 
lawyers to vet Iraq's existing laws and Constitution for consistency 
with international human tights laws and to decide on the interim body 
of law to be applied in Iraq after the conflict.
    When stripped of arbitrary Saddam-era decrees and amendments, the 
existing Iraqi legal codes should be partially salvageable. The near-
total absence of rule of law in Iraq probably has less to do with the 
content of existing statutes than it does with discriminatory, 
arbitrary, and lackluster enforcement. If the existing codes can be 
salvaged once vetted, they could be used as the interim body of 
applicable law in Iraq immediately after the conflict. If not, the 
United Nations should develop a framework of model laws that could be 
used as the interim applicable law in Iraq. A careful and thorough 
vetting--and a firm, advance decision on an interim body of law--is 
needed to preempt the applicable law debate that has undermined the 
reconstruction of Kosovo's justice sector.
    The past twenty years have eroded the Iraqi peoples' trust in their 
judiciary and law enforcement organizations. In order for Iraqis to 
begin to trust the transformation of these institutions from mechanisms 
of repression to defenders of human rights and rule of law, the 
international community must undertake a massive outreach and education 
initiative.
    To that end, the United Nations should assemble a team of Iraqi and 
international legal and public information specialists, charged with 
educating the Iraqi populace about the importance of the rule of law 
and human rights and the role of the international justice teams. These 
specialists would educate Iraqis about reforms to the legal code and 
promote dialogue between international personnel, community leaders, 
and the public.

7. Identify and recruit international civilian police officers.
    Building on existing local capacity, international civilian police 
(CIVPOL) will most likely play the role of advisors, supplementing 
rather than replacing a sizable Iraqi civilian force. The United 
Nations should immediately begin a recruitment process to organize a 
limited force of well-trained, well-equipped international civilian 
police to be utilized as police supervisors, mentors, and trainers in 
the immediate post-conflict environment.
    The record of recent large-scale CIVPOL deployments in Bosnia, 
Kosovo, and East Timor has been mixed, at best. Bringing in substantial 
numbers of CIVPOL to bolster local law enforcement capacity has been 
resource-intensive and extremely slow going. International CIVPOL have 
generally tended to be poorly trained, poorly equipped, undermanned, 
and under-resourced. Deploying limited numbers of CIVPOL, while relying 
primarily on existing Iraqi personnel and infrastructure, could 
alleviate some of these problems.
    Iraq has between 35,000-58,000 civilian police. A mechanism must be 
developed to vet the existing police force in order to cleanse it of 
the political remnants of Saddam's regime. The top tiers of the police 
force likely will be removed from their positions either as part of 
this de-Ba'athification process or because they may choose to leave on 
their own accord. The remaining officers could be employed under the 
supervision of international authorities--most likely the transitional 
security force, until CIVPOL is deployed in force.
    Decentralization should be the first step in revamping the existing 
force. Police officers should be paid at the local level by municipal 
authorities in order to break down the overly centralized command and 
control structure.
    The United Nations also should begin developing plans for the 
reconfiguration and standardized retraining of the Iraqi police, the 
reconstitution of Iraqi police academies, and the administrative 
decentralization of the police. The transitional administration will 
need to institute a re-training program in order to instill the new 
chain of command, reinforce the principles of civilian control of the 
police, and educate and train Iraqi police on human rights standards 
and any changes in Iraqi laws.

                     SOCIAL AND ECONOMIC WELL-BEING

8. Call for a debt restructuring meeting and push the United Nations 
        Security Council to begin a review of past war-related claims 
        against Iraq.
    Iraq's financial burden is an estimated $383 billion, including 
foreign debt, compensation claims, and pending contracts. Even if this 
figure were massively discounted, Iraq would have a debt-to-export 
ratio that would place it in the World Bank's most burdened category, 
far surpassing the average of 3:1 for highly indebted poor countries 
(HIPC). Iraq must be freed from this overwhelming debt and claims 
burden so that its oil revenues can be used to help pay for 
reconstruction--estimated to cost tens of billions in the first year 
alone, and as much as $25 billion to $100 billion overall.
    Saddam has amassed $62 to $130 billion in foreign debt, most of it 
in short-term loans from commercial banks but including some long-term 
debt to foreign governments. Iraq has not been paying its debt 
throughout the period of the UN sanctions regime. Protection from debt 
repayment should be included as part of a formal renegotiation of 
Iraq's external debt. The U.S. government should lead the call for 
convening a meeting of sovereign claimants and creditors to discuss a 
speedy and effective debt renegotiation. This could be done as a formal 
Paris Club restructuring, through the International Monetary Fund, or 
through a specifically created debt forgiveness/reduction mechanism. 
Development of a sovereign bankruptcy mechanism for Iraq could also be 
considered. Major creditors and claimants should agree to a five-year 
moratorium on Iraq's external debt, similar to what the Paris Club 
creditors agreed to for Yugoslavia in 2001.
    Iraq's overall financial burden includes $172 billion in unsettled 
claims related to the Gulf War, which have been submitted to the United 
Nations Compensation Commission (UNCC). In addition, there are $43 
billion in claims already resolved by the UNCC, which so far have been 
paid at a rate of about $4 billion per year from Iraqi oil revenues as 
part of the Oil-for-Food mechanism. There are also reported to be $100 
billion in reparations claims related to the Iran-Iraq War, although 
the UN Security Council has never decided on a formal mechanism for 
resolving these claims. The United States should begin discussions at 
the Security Council with regard to calling on the UNCC to cease 
consideration of all unsettled Gulf War compensation claims. The 
Security Council also should call on the UNCC to halt or discount 
further payment of already resolved claims, for which $27 billion is 
still owed.
    Finally, Saddam Hussein's regime has entered into contractual 
arrangements that could limit funds available for reconstruction. Iraq 
has pending contracts with Russian, Dutch, Egyptian, United Arab 
Emirates, Chinese, and French entities estimated at $57.2 billion, 
primarily in the energy and telecommunications sectors.
    The United Nations should establish a mechanism for reviewing the 
legality and legitimacy of these contracts.

9. Begin an immediate review of sanctions against Iraq and prepare 
        necessary documentation to suspend or partially lift those 
        sanctions.
    In order for the United States to mobilize an effective post-
conflict humanitarian and reconstruction response in Iraq, certain 
provisions of the iraq Sanctions Act of 1990 (P.L. 101-513) (ISA) will 
need to be waived. The ISA and certain other U.S. statutory provisions 
relating to Iraq's status as a terrorism list country and WMD concerns 
prohibit inter alia all U.S. imports from and exports to Iraq (except 
for certain humanitarian goods as part of the Oil-for-Food program); 
all foreign military sales to Iraq; all commercial arms sales to Iraq; 
the exports of dual use items to Iraq; all forms of U.S. assistance 
under the Foreign Assistance Act and the annual foreign operations 
appropriations acts, other than emergency medical and humanitarian 
assistance; and require U.S. opposition to international financial 
institutions' loans or assistance to Iraq. The ISA also blocks all 
Iraqi property in the United States' freezing Iraqi bank accounts, for 
example.
    The President can waive the ISA's provisions, upon 15-, 30-, or 60-
day advance notice, depending on the sanctions to be waived and the 
determinations he is required to make. New legislation, or use of 
extraordinary presidential authorities, would be required to waive 
certain other sanctions. Although it would probably be desirable to 
retain certain sanctions even after a regime change--such as 
restrictions on sales and exports of military items and nuclear 
regulatory commission licenses--some provisions will have to be waived 
in order for U.S. government officials, humanitarian organizations, and 
private citizens to participate in the post-conflict reconstruction 
effort.
    A working group should be convened immediately involving all 
relevant U.S. government agencies--in particular the Departments of 
State, Defense, Treasury and Commerce--to begin discussions on which 
U.S. sanctions should be lifted after a conflict and to start preparing 
necessary documents. The goal is to prevent undue delay of American 
humanitarian and reconstruction responses in a post-conflict Iraq.
    UN Security Council Resolution 661 (August 1990) is the foundation 
of the international sanctions regime. Resolution 661 prohibits import 
of Iraqi goods and most exports to Iraq, and freezes Iraq's funds and 
assets. Resolution 687 (April 1991) expressly added weapons and 
military materiel to the list of goods prohibited for export. 
Subsequent resolutions have built on these and tied lifting the 
sanctions to satisfaction of demands regarding payment of debt and 
compensation, weapons of mass destruction, and repudiation of 
terrorism. Resolution 986 (1995) allowed for limited sale of oil in 
exchange for humanitarian goods--the Oil-for-Food program--and this 
remains the only permitted avenue of goods out of and into Iraq. Though 
it may be possible to continue to provide humanitarian goods through 
the Oil-for-Food program, further reconstruction needs will demand at 
least a partial lifting of the UN sanctions.
    Because these sanctions can only be lifted through a Security 
Council resolution, a UN working group should be convened immediately 
to begin discussions and drafting language to lift those sanctions 
necessary to allow a robust humanitarian and reconstruction response.

10. Convene a donors' conference for Iraq.
    Funds will be needed right away for at least three critical 
objectives--to meet emergency humanitarian needs; to start up the 
international civilian mission; and to launch ``quick start'' 
reconstruction projects. The United States should work with major 
donors, the World Bank, the International Monetary Fund, and the United 
Nations to convene a donors' conference to these ends.
    Having humanitarian resources available will allow the NGO 
community to begin its preparations at the earliest date and also could 
free up some of the Oil-for-Food funds for other purposes, such as 
restoring local government services (police, lights, trash, and 
schools) and other tangible community needs.
    Funds also should be raised ahead of time to pay for the 
international civilian administration, to ensure that at least the core 
administration can be inserted into Iraq immediately after a conflict. 
Previous UN post-conflict missions have been painfully slow to arrive 
in the field, due in part to a lack of sufficient, immediately 
available funding.
    Even assuming that Iraqi-generated funds could be used for 
reconstruction projects soon, the potential to use such funds will not 
be realized in the immediate term. Funds should therefore be raised for 
reconstruction projects that the international civilian administration 
could undertake right away. The lack of such funds in East Timor led to 
protests in front of UN buildings to complain that the UN mission was 
not ``doing anything.'' It took over a year for critical reconstruction 
projects (such as road rebuilding) to get started in Afghanistan, 
leading to major frustration on the part of the Afghan government with 
UN agencies and major donor countries.

                               Conclusion

    Winning the peace in Iraq will be critical--for the Iraqi people; 
for the prospects of a peaceful and secure Iraq free from weapons of 
mass destruction; for regional stability; and for perceptions of 
America throughout the Middle East and among Muslims worldwide. Getting 
post-conflict reconstruction in Iraq wrong could prove devastating to 
the interests of the United States, Iraqis, and the international 
community more broadly.
    Lessons learned from previous post-conflict reconstruction efforts 
highlight a number of consistent mistakes and pitfalls that can and 
should be avoided. One clear lesson is the importance of pre-conflict 
planning, preparation, communication, and coordination. Anticipating 
and preparing for the myriad tasks that must be performed in countries 
emerging from conflict is an arduous task, but one that must be 
undertaken before the fighting starts if post-conflict reconstruction 
efforts are to be effective once the shooting stops.
    Simply talking about planning is not enough. The United States and 
the United Nations must immediately take the concrete actions outlined 
here if we hope to be successful in what will be a long and costly 
process of reconstructing Iraq. Ad hoc, under-funded, and delayed 
efforts driven by unrealistic timelines and political considerations 
will not work. The United States and the international community must 
commit the resources, military might, manpower, and time that will be 
required in Iraq--and we must start doing so now.
                               __________

               Final Report of the Bi-Partisan Commission
                    on Post-Conflict Reconstruction

                              January 2003

         CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES (CSIS)
              AND THE ASSOCIATION OF THE U.S. ARMY (AUSA)

                                 ______
                                 

                              PLAY TO WIN

                           Executive Summary

    One of the principal lessons of the events of September 11 is that 
failed states matter--for national security as well as for humanitarian 
reasons. If left to their own devices, such states can become 
sanctuaries for terrorist networks, organized crime and drug 
traffickers as well as posing grave humanitarian challenges and threats 
to regional stability.
    While the United States has great interests at stake, however, U.S. 
institutions and ways of doing business have not kept pace with the 
rapidly changing environment since the end of the Cold War. Despite 
over a decade of recent experience in trying to address the challenges 
of failed states and rebuilding countries following conflict, U.S. 
capacity for addressing these challenges remains woefully inadequate.

    The United States cannot get involved in all failed states or try 
to rebuild all countries following conflict, nor should it try to do 
so. The appropriate role for the United States will depend on the 
interests and values at stake, as well as the role that other 
international actors can and should play. Although the U.S. 
contribution will vary from operation to operation, decision makers 
will nevertheless have to make judgments about what kind of assistance 
options they want to be able to make available for future U.S. 
engagement. The notion of comparative advantage should be central to 
determining the portfolio of long-term capabilities and mechanisms in 
which the U.S. government should invest to create those options.

    Some in the United States might argue that enhancing U.S. capacity 
to work in post-conflict environments is a recipe for automatically 
dragging the United States into ``other people's messes.'' In fact, as 
a superpower with a global presence and global interests, the United 
States does have a large stake in remedying failed states. Far from 
being a recipe to force us to do more in this area, having a clear 
vision of our comparative advantages, objectives and strategy, as well 
as corresponding capacities, will give us more, not less, flexibility 
and leverage to determine what role we should play and what roles other 
international and indigenous actors should play.

    This bi-partisan Commission on Post Conflict Reconstruction was 
convened by the Association of the U.S. Army and the Center for 
Strategic and International Studies to make recommendations on what the 
United States will have to do to enable itself to help countries 
successfully rebuild themselves following conflict. The commissioners--
27 distinguished individuals with extensive experience in the U.S. 
Congress, military, various executive branch agencies, international 
organizations, and non-governmental organizations--met throughout 2002 
to consider recommendations that surfaced over two years of research, 
expert working groups, and vetting with current policy-makers and 
practitioners.

    This report represents the Commission's final assessment of the top 
priority issues that the United States needs to address. It makes 17 
specific recommendations broken out by the substantive pillars of post-
conflict reconstruction--security, justice and reconciliation, economic 
and social wellbeing, and governance and participation--as well as by 
the four crucial ``enablers'' that facilitate successful engagement: 
strategy and planning, implementation infrastructure, training and 
education, and funding.

    It is our firm belief that if policy-makers take steps to implement 
these recommendations, the United States will dramatically improve its 
ability to protect itself, promote its interests and values, enhance 
its standing, and improve the lot of people around the globe.

                     The Challenge of Failed States

    September 11 provided an undeniable impetus to revisit the question 
of post-conflict reconstruction by forcing the United States to 
reevaluate its approach to dealing with failed states. For national 
security as well as for humanitarian reasons, failed states--if left to 
their own devices--can provide safe haven for a diverse array of 
transnational threats, including terrorist networks, global organized 
crime, and narcotics traffickers who also exploit the dysfunctional 
environment. As such, failed states can pose a direct threat to the 
national interests of the United States and to the stability of entire 
regions. President Bush has recognized the gravity of the threat in his 
recently released National Security Strategy, which goes so far as to 
argue that ``America is now threatened less by conquering states than 
we are by failing ones.'' \1\

    \1\ For a more in-depth discussion of failed states, see Gordon R. 
Sullivan and John J. Hamre,``Toward Post-Conflict Reconstruction,'' The 
Washington Quarterly, Autumn 2002.

    Afghanistan--torn by decades of war, internal strife, and 
repression--exemplifies some of the dangers posed by failed states. 
Although Afghanistan provides the first major reconstruction test of 
the war on terrorism, it will not be the last. Similar challenges exist 
elsewhere, in locations ranging from the Middle East and South Asia to 
the Horn of Africa, where terrorist groups have already exploited the 
vacuum of state authority and are likely to seek further advantage as 
Afghanistan ceases to provide them sanctuary. As much as some in the 
United States would like to avoid involvement in nation building, 
failed states are a reality that cannot be wished away. Indeed, some of 
the possible candidates for failure in coming years are countries in 
which the United States already has a defined national security 
interest--from Iraq and the Occupied Territories in the Middle East to 
North Korea and Cuba. As the situation in Afghanistan has demonstrated, 
the United States and the international community ignore collapsed or 
---------------------------------------------------------------------------
weak states at their peril.

    However, not all failed states are created equal. Not all will be 
equally important to the United States and the international community. 
Each stable country must gauge its involvement in failed or failing 
states according to its own interests. Nor can a ``one size fits all'' 
approach be used to address the broad diversity of cases. Although 
conceptual threads link these situations, the approach to dealing with 
failed and dangerously weak states must be tailored to each case.

    At the outset of the twenty-first century, there are many ongoing 
conflicts rooted in state failure in addition to a number of other 
causes. It is in the interest of the United States and the 
international community to bring conflict to a lasting and sustainable 
close. This is a daunting task. The record of success in assisting 
failed states emerging from violent conflict is mixed, with fifty 
percent of nations emerging from conditions of violent conflict 
slipping back into violence within five years. \2\ Certainly, in an 
interconnected world, with the resources available and the consequences 
so dire, the international community can and must break this dangerous 
cycle of conflict.

    \2\ Jean-Paul Azam, Paul Collier, and Anke Hoeffler,``International 
Policies on Civil Con-
flict: An Economic Perspective.'' December 14, 2001, p. 2, cited at 
http://users.ox.ac.uk/ball0144/azam_coil_hoe.pdf (accessed July 3, 
2002).

    Unfortunately, U.S. security and development agencies still reflect 
their Cold War heritage. The kinds of complex crises and the challenge 
of failed states encountered in recent years do not line up with these 
outdated governmental mechanisms. In short, post-conflict 
reconstruction is an orphan of the post-Cold War world and the United 
States needs to revamp its governmental structures to reflect present-
---------------------------------------------------------------------------
day realities.

    If regional stability is to be maintained, \3\ economic development 
advanced, lives saved, and transnational threats reduced, the United 
States and the international community must develop a strategy and 
enhance capacity for pursuing post-conflict reconstruction. Significant 
international interventions to help rebuild countries are certainly not 
the answer for every failed or failing state; nevertheless, 
international involvement will be essential in many cases. Even when 
other options are pursued--such as quarantining failed states, carving 
them up, absorbing them into larger entities, establishing a 
transitional authority, or backing a party in the hopes it can win a 
war and re-establish order--they will most often succeed when 
reconstruction capabilities exist and can be used to supplement 
whatever other measures are undertaken. In essence, the question is not 
whether the United States and the international community will have to 
help reconstruct states, but rather when and how they will do so.

    \3\ If reconstruction is not effective, failed states often slide 
back into patterns of instability which seep across borders and drag 
down fragile regions. In recent years, this dynamic has
been all too evident from west and Central Africa, to Central and South 
Asia, to Southeastern
Europe.

---------------------------------------------------------------------------
             The Commission on Post-Conflict Reconstruction

    Over the last year a distinguished bi-partisan group of members of 
Congress, military leaders, and senior policy experts who have served 
in the U.S. government, international organizations and the not-for-
profit sector have convened to consider a range of possible U.S. 
responses to the major challenge posed by failed states. This report 
reflects the conclusions of the Commission.

    The Commission was charged with making recommendations to improve 
U.S. capabilities to undertake post-conflict reconstruction. All its 
deliberations, however, were undertaken with the explicit assumption 
that the challenges of post-conflict reconstruction are an 
international problem and responsibility, and that the design of U.S. 
capacity should take into account the international context and a broad 
range of international actors. The next section of this report, 
therefore lays out a general framework for creating a cohesive 
international response to post-conflict reconstruction. That section is 
followed by a discussion of the specific role of the United States in 
post-conflict reconstruction efforts.

    The heart of the report that follows focuses on the challenge of 
enhancing U.S. response capabilities. It is divided into eight areas 
that require attention, each with a corresponding set of specific 
recommendations. Four of the areas requiring attention are the 
substantive ``pillars'' of post-conflict reconstruction efforts: 
security; justice and reconciliation; economic and social well-being; 
and governance and participation. Creating an effective U.S. response 
capacity also requires improvements in four key capacity ``enablers'': 
strategy and planning; implementation infrastructure; training and 
education; and funding.

    It is hoped by this Commission that the recommendations made in 
these eight areas comprise a realistic, achievable plan to create a 
more coherent and effective U.S. post-conflict reconstruction capacity, 
and in so doing, offer current and future U.S. leaders the tools 
necessary to advance U.S. interests and to reduce the amount of 
conflict around the world.

     Framework for a Cohesive and Strategic International Response

    In many post-conflict environments, the chaos on the ground is 
paralleled only by the chaos of the international response. Various 
governmental agencies, international organizations, international 
financial institutions, and non-governmental organizations come from 
all parts of the globe to help. They bring much needed resources, 
expertise, and energy, but they also bring very different assumptions, 
working styles, and goals.

    While creating a perfectly cohesive effort in any post-conflict 
country is not possible, there are a number of straightforward 
principles that, if followed, can maximize the unity of the 
international effort.


    The people of the country in question must own the reconstruction 
process and be its prime movers.  Following conflict, indigenous 
governance structures are often very weak or non-existent and the local 
human resource base is greatly diminished through war-induced deaths, 
brain drain, displacement, removal of previously empowered individuals 
and groups, and forgone investment in human capital. Though this bleak 
starting point often forces outside actors to play a disproportionately 
large role in the early stages of the rebuilding process, every effort 
must be taken to build (or rebuild) indigenous capacity and governance 
structures as quickly as possible. Leadership roles in the 
reconstruction effort must be given to host country nationals at the 
earliest possible stage of the process. Even if capacity is limited, 
host country representatives should chair or co-chair pledging 
conferences, priority-setting meetings, joint assessments of needs, and 
all other relevant processes. Representatives should be elected, or may 
be designated by a peace process. Where these avenues do not exist, the 
international community must help create mechanisms for legitimate host 
country leaders to be elected or appointed. In addition, all 
international actors should seek out host country partners from day 
one. If they do not exist, international actors should help to develop 
them and impart the knowledge and skills necessary to succeed in the 
job.


    A coherent international strategy based on internal and external 
parties' interests is crucial.  While major international actors have 
called for strategic coordination in post-conflict settings, the simple 
fact is that no general model of, or processes for, strategy 
development and coordination exists. For any strategy development 
exercise in these difficult environments to succeed, it must be based 
on four key tenets. First, all involved must recognize that post-
conflict reconstruction is not a technical or ``normal'' developmental 
process, but rather a fundamentally political one. Second, any outside 
intervention must be designed with the interests of all the key actors 
involved, both within the country and outside, with an eye to blocking 
spoilers and empowering legitimate peace-seeking actors. Third, host 
country leaders and outside actors must agree on top priorities and 
sequence their interventions accordingly. Fourth, while a coordinated 
strategic plan may exist on paper, only a small team of key external 
actors working in-country will be able to effectively leverage 
international resources and influence the interest calculations of key 
actors. Senior representatives of the international community in 
partnership with host country representatives should conduct joint 
assessments of needs, prioritize them, and design a strategy to help 
shape pledging conferences and other major decision-making fora.


    The international community must address the problem of post-
conflict reconstruction holistically, building and deploying capacity 
to address a broad range of interrelated tasks.  As United Nations 
secretary general Kofi Annan has noted,``All the tasks--humanitarian, 
military, political, social, and economic--are interconnected, and the 
people engaged in them need to work closely together. We cannot expect 
lasting success in any of them unless we pursue all of them at once as 
part of a single coherent strategy. If the resources are lacking for 
any one of them, all the others may turn out to have been pursued in 
vain.'' \4\ The range of tasks that should be considered in any given 
post-conflict reconstruction operation are easily identified, and fall 
into four main areas: security; justice and reconciliation, economic 
and social well-being, and governance and participation. \5\

    \4\ UN secretary General Kofi Annan, speech to the UN General 
Assembly, New York, February 2002.

    \5\ For a full listing of tasks in these four areas, please see the 
``Post-conflict Reconstruction Task Framework,'' AUSA and C5I5, at 
www.pcrproject.org.


    Security is the sine qua non of post-conflict reconstruction.  
Though every case is different, there is one constant--if security 
needs are not met, both the peace in a given country and the 
intervention intended to promote it are doomed to fail. Unless 
comprehensive security needs are addressed up front, spoilers will find 
the weak areas and retain leverage to affect the political outcomes, 
vitiating the peace. While security is essential, it will never be one 
hundred percent guaranteed and the perfect must not become the enemy of 
the good. In order to achieve acceptable levels of 
security,``coalitions of the willing'' and UN peacekeeping operations 
need coherent military leadership and core troops from a lead nation 
that provide the backbone of the operation. The international community 
must also enhance its ability to deploy civilian police to address 
temporary needs. In addition, efforts to design and reconstruct or 
reform local security institutions, including both military and police, 
---------------------------------------------------------------------------
must begin early in the peace process.


    Success is made on the ground.  Another key to effective 
international involvement in post-conflict reconstruction efforts is 
empowering and organizing representatives in the field. Strategy in a 
post-conflict environment must be closely tailored to the particular 
characteristics of the country, and as such, should be heavily informed 
by those closest to the situation. Because actors with various mandates 
are in the field at any given time, they must be left to devise an 
appropriate division of labor at the country level. Donors and 
international organizations should therefore structure their post-
conflict authorities to devolve maximum power, money and authority to 
their representatives in the field.``Country teams'' which meet 
regularly inside the country (but which are not necessarily co-located 
physically) should include representatives not only from the UN system 
and/or the lead nation, but also the International Financial 
Institutions, Multilateral Development Banks, key NGOs, and any 
military or security personnel operating in theater. Civil-Military 
Cooperation Centers (CIMICs) should be a standard part of the package 
where military or peacekeeping operations operate alongside other 
reconstruction efforts.``Friends Groups,'' which formally bring 
together governments with means and interests in supporting the peace 
and reconstruction process, should be cultivated and formed at early 
stages of the process.


    International interventions are extraordinary and should take all 
necessary measures to avoid undermining local leaders, institutions and 
processes.  A significant international presence is often needed in a 
post-conflict situation in order to provide security, reassure the 
indigenous population of international financial and moral support, 
deliver needed services, and build lasting internal capacity. While a 
large international presence may be both necessary and appropriate in 
initial phases, a dominating presence can be damaging over the longer 
term. Therefore, the international community should hire local 
residents to do as many jobs as possible and should establish salary 
structures for local hires that are competitive, but that do not 
distort the local economy. And when outside support is necessary for 
key groups or individuals, it must be provided in such a way as to not 
compromise the independence and legitimacy of the parties receiving 
such support.


    Mechanisms are needed to rapidly mobilize and coordinate needed 
resources and sustain them for appropriate periods of time.  Bilateral 
donors, UN agencies and international financial institutions are 
generally more eager to script their own role in post-conflict 
reconstruction than to coordinate with other international or local 
actors. To date, virtually all these major actors have examined current 
funding mechanisms and found them wanting. Pledging conferences tend to 
extend promises far beyond what they will truly deliver and lack 
mechanisms for ensuring appropriate follow-up. Therefore, the 
international community, including the United States, should agree to 
craft a new resource-mobilizing infrastructure for post-conflict 
situations. In addition, more authority over how the money is spent 
should be provided to operation-level strategists, e.g. U.S. Directors 
of Reconstruction, Special Representatives of the Secretary General, or 
World Bank mission heads, while retaining appropriate budgetary 
oversight in New York and foreign capitals.


    Accountability is essential for both host country and international 
actors.  Holding both host country and international actors accountable 
in post-conflict settings is as important as it is difficult. Chaos 
exists after a conflict because no legal or institutional framework has 
the authority to hold people accountable in economic, political, and 
personal affairs. The influx of foreign resources into a resource-
scarce environment not only raises the potential for corruption but 
also tests the accountability of both local and international actors. 
With respect to indigenous actors, conditionality can and should be 
used to ensure accountability, but it must be carefully designed, 
focused on specific high value issues such as corruption and key parts 
of the peace accords, and rigorously coordinated so as not to pull the 
incipient government apart. Before being dispatched to a post-conflict 
site, international staff members should be required by their 
sponsoring organization to receive appropriate training and 
indoctrination on codes of conduct, local and international law, and 
accountability systems.


    The timing of an operation must be driven by circumstances on the 
ground, not by artificial deadlines or externally driven bureaucratic 
imperatives.  Timing of international actions can be a crucial 
determinant of success or failure. Unfortunately, the international 
community is not sufficiently nimble at getting into the field when its 
leverage is greatest and most needed. Nor is it effective at 
transitioning from one phase of an operation to another. Nor does it 
have a particularly strong record of executing sustainable hand-offs to 
indigenous actors before exiting. Therefore, the international 
community must dramatically enhance its ability to field civilian as 
well as military expertise promptly. It must also establish measures of 
success at the beginning of a mission and evaluate progress constantly 
in order to manage expectations and facilitate transitions from one 
phase of an operation to the next (sometimes including outside pressure 
to achieve those transitions). And most importantly, major actors must 
make an overall commitment to stay engaged over time. Any artificial 
deadlines for withdrawal, like those set by the United States in 
Bosnia, simply enable spoilers to wait the international community out. 
Achieving success is the only true exit strategy. Anything less risks 
forcing return involvement at a later date.

                     The Role of the United States

    The United States will often have a critical role to play in 
international post-conflict reconstruction efforts. Obviously, the 
appropriate U.S. role will vary on a case-by-case basis, depending in 
large part on the U.S. interests at stake and the role that other 
international actors choose to play. When vital interests are at stake, 
the United States may choose to assume a leadership role, whereas when 
such interests are absent, the government may choose to make a more 
limited contribution.

    In any case, experience suggests that U.S. leadership is often a 
critical determinant of an operation's success or failure, given both 
the unique standing of the United States in the world and the 
comparatively vast military, political, and economic resources 
Washington can bring to bear. Bosnia and Kosovo are recent examples of 
how significant U.S. diplomatic and military involvement turned the 
tide and created the conditions for success. In East Timor the United 
States provided targeted support that helped the Australian-led 
intervention succeed. In yet other cases, such as El Salvador and 
Guatemala, U.S. engagement as a principal political and financial 
supporter of a UN-led process helped to deliver the desired results.

    Because the United States cannot afford to address every shortfall 
in the international community's capabilities to assist in post-
conflict reconstruction efforts, effective U.S. participation also 
requires identifying areas where the United States holds a comparative 
advantage--those capabilities or assets that this country is uniquely 
or particularly able to bring to the table. U.S. power, for example, 
gives U.S. negotiators particular leverage in some cases, just as the 
size of the U.S. market makes enhanced trade opportunities for post-
conflict countries particularly attractive. Likewise, the global 
presence and unique logistical and technical capacity of the United 
States give it a comparative advantage in quick response.

    Although the U.S. contribution will vary from operation to 
operation, decision makers will nevertheless have to make judgments 
about what kind of assistance options they want to be able to make 
available for future U.S. engagement. This notion of comparative 
advantage should be central to determining the portfolio of long-term 
capabilities and mechanisms in which the U.S. government should invest 
to create those options.

    Some in the United States might argue that enhancing U.S. capacity 
to work in post-conflict environments is a recipe for automatically 
dragging the United States into ``other people's messes.'' In fact, as 
a superpower with a global presence and global interests, the United 
States does have a stake in remedying failed states. Enhancing our own 
capacities to deal with them effectively is in our interests. Far from 
being a recipe to force us to do more in this area, having a clear 
vision of our comparative advantages, objectives and strategy, as well 
as corresponding capacities, will give us more, not less, flexibility 
and leverage to determine what role we should play and what roles other 
international and indigenous actors should play.

    In order to succeed in the future, the United States must act now. 
Especially in the post-September 11 environment, the United States 
cannot wait for the next crisis to build its post-conflict 
reconstruction capabilities. Indeed, U.S. leadership internationally 
will only be credible if the United States gets its own house in order.

    With a concerted, coherent, bipartisan push, the United States can 
position itself to succeed in the challenging new world that confronts 
it. Enabling itself to catalyze indigenous and international 
reconstruction efforts will help to protect U.S. interests. Doing so 
will also help others to pursue that which U.S. citizens hold most 
dear--life, liberty, and the pursuit of happiness.

                  Enhancing U.S. Response Capabilities

    Luckily, the United States will not have to build its post-conflict 
reconstruction capacity from scratch. It already has some key 
institutions and a wealth of human, organizational, and material 
resources on which to draw.

    Unfortunately, the United States has tended to depend, in many 
instances, on the U.S. military to do the bulk of the work. As former 
CENTCOM Commander General Anthony Zinni has stated, the U.S. military 
has often become the ``stuckee,'' the force that gets stuck with all 
the clean up because no other alternative exists to fill a number of 
the emergency gaps. This reality has concerned a number of people, 
including National Security Advisor Condoleezza Rice, who has argued 
that ``There's nothing wrong with nation building, but not when it's 
done by the American military.'' \6\

    \6\ Condoleezza Rice,``Foundation for a Nation,'' Washington Post, 
October 29, 2001, p. A 17.

    In truth, the American military has long been involved in nation 
building and will likely continue to be. It should not, however, be the 
sole or even the principal participant in reconstruction efforts. 
Although the military may play a crucial role when it comes to security 
needs in certain cases, a host of civilian actors has a comparative 
advantage in addressing many of post-conflict reconstruction's wide 
range of needs. Non-governmental organizations, the private sector, 
international organizations, multilateral development banks, and 
civilian agencies of multiple donor governments all have a crucial role 
to play in addressing governance and participation, justice and 
reconciliation, and economic and social needs. Some of these groups 
---------------------------------------------------------------------------
even have an important role to play on security issues.

    The real challenge, therefore, is three-fold: first, we must 
identify the key response capabilities needed by the United States in 
the context of international operations; second, we must weave together 
the many existing actors and capabilities into a coherent response 
capacity within the United States, and integrate them into 
international capacities; and third, we must identify and fill top 
priority gaps in our capabilities.

    The Post-Conflict Reconstruction project has conducted extensive 
research on the needs and key gaps in each of the four substantive 
pillars of post-conflict reconstruction: security; justice and 
reconciliation; economic and social well-being; and governance and 
participation. In addition, the project has reviewed needs and priority 
gaps in four crucial areas that are ``enablers'' for creating a 
coherent and effective response capacity: strategy and planning; 
implementation infrastructure; training and education; and funding. We 
offer concrete recommendations in each of these eight areas.

                         Strategy and Planning

    Given the sheer complexity of post-conflict reconstruction efforts, 
developing a clear strategic plan of action at the outset is critical 
to success. Such a plan should articulate the U.S. interests at stake, 
define U.S. objectives for the intervention, and lay out the strategy 
for achieving these policy objectives and a clear division of labor 
delineating who is responsible for what aspects of the plan's 
implementation. Perhaps even more important than the plan itself is the 
strategy development and planning process, which allows key players to 
build working relationships, hammer out differences, identify potential 
inconsistencies and gaps, synchronize their actions, and better 
understand their roles.

    Following the disaster in Somalia in 1993, the Clinton 
administration produced a first-ever interagency political-military 
plan for an intervention in Haiti. The relative success of this process 
led in May 1997 to promulgation of Presidential Decision Directive 56 
on Managing Complex Contingency Operations (PDD-56), which called for: 
establishing an interagency Executive Committee to assist in policy 
development, planning, and execution of complex contingency operations; 
developing a political-military plan; rehearsing or reviewing the 
plan's main elements prior to execution; conducting an after-action 
review of each operation; and conducting interagency training to 
support this process. Although PDD-56 was never fully implemented, it 
did produce a number of innovations in use today.

    After coming into office, the Bush administration's National 
Security Council staff drafted a National Security Presidential 
Directive (NSPD) which built on PDD-56, but which is broader in scope 
in that it provides guidance on providing warning, advanced planning, 
prevention, and response options for complex contingency operations. 
Unfortunately, this NSPD has yet to be signed by the President, and the 
administration has pursued an ad hoc response in Afghanistan that 
displays weaknesses that could have been corrected based on lessons 
learned from experience over the last decade.


Recommendation

1. Replace the current ad hoc USG strategy and planning process for 
        addressing post-conflict reconstruction situations with a 
        standing comprehensive interagency process.

  <bullet> The President should sign and fully implement the draft 
        National Security Presidential Directive on complex 
        contingencies (NSPD-XX) that has been written by his NSC staff, 
        and develop a companion NSPD specifically designed to organize 
        U.S. government participation in post-conflict reconstruction 
        efforts.


  <bullet> The National Security Advisor should designate and 
        appropriately resource a directorate at the NSC to be in charge 
        of interagency strategy development and planning for post-
        conflict reconstruction operations.

                     Implementation Infrastructure

    Even if a perfect strategy and accompanying set of plans is 
designed in Washington, the United States cannot succeed unless it has 
the appropriate mechanisms to implement them. Currently the U.S. 
government has a number of implementing agencies that perform key tasks 
in post-conflict environments. However, there are three key gaps when 
it comes to implementation: lack of civilian leadership in the field 
that can ensure operational coherence; lack of a mechanism to rapidly 
mobilize existing civilian human resources inside and outside the U.S. 
government; and inadequate development and use of mechanisms for 
coordinating civilian and military efforts in the field.


Recommendations

2. Establish new Director of Reconstruction posts to lead U.S. post-
        conflict reconstruction efforts in the field.

  <bullet> The President should work with Congress to create a new 
        authority for ``Director of Reconstruction'' (DR) posts, 
        responsible for directing U.S. efforts in the field in specific 
        countries in which the United States has intervened. The 
        President would appoint said Directors of Reconstruction when 
        the circumstances in a given country or region require it. 
        Unlike traditional special envoys who negotiate or shepherd 
        political agreements, these DRs would be responsible for 
        implementing large, multidisciplinary U.S. government programs 
        after an agreement has been reached.


  <bullet> The National Security Advisor should chair an interagency 
        process to determine the criteria to be used for selecting 
        Directors of Reconstruction. These should include extensive 
        operational experience, with exposure to various agencies of 
        the U.S. government.


  <bullet> The National Security Advisor should task the Secretary of 
        Defense and the USAID Administrator to negotiate memoranda of 
        understanding with the Secretary of State (in whose Department 
        the support structure for the DRs will be housed) for 
        operationalizing stand-by support for DRs needs.


  <bullet> The Secretary of State should create a core support unit 
        within the State Department to support all DRs (and Special 
        Envoys prior to the reconstruction phase).


3. Create a robust civilian rapid response capacity modeled on the 
        Federal Emergency Management Agency (FEMA) that could mobilize 
        U.S. experts from federal, state and local levels as well as 
        from the private and non-profit sectors.

  <bullet> The President should create a quasi-autonomous FEMA-like 
        International Emergency Management Office (IEMO) within USAID 
        to support Directors of Reconstruction in the field. Such an 
        office would provide the Directors with immediate access to 
        U.S. government capacity and the pre-agreed means to call upon 
        those agencies that could help in the rebuilding process. This 
        office would build and maintain ``on-call'' lists of post-
        conflict reconstruction experts as well as provide support for 
        mobilizing these experts whether they are inside or outside the 
        federal government. These should include judicial specialists, 
        police, penal officers, planners, human rights monitors, 
        settlement negotiators, constitution writers, former Peace 
        Corps volunteers, and related on-call civilians in critical 
        early response areas.


4. Refine and standardize the Joint Interagency Coordination Group 
        (JIACG) guidelines, building on successful experiences with 
        Civil-Military Cooperation Center (CIMIC) operations and in the 
        Joint Forces Command series of experiments. Standardize and 
        institutionalize support for such centers both when U.S. forces 
        run a military operation and when other friendly forces do so.

  <bullet> The Secretary of Defense, Chairman of the Joint Chiefs of 
        Staff and the Secretary of State, along with representatives of 
        USAID and the NGO sector, should further hone and 
        institutionalize a JIACG model. These centers should be the 
        central node for information sharing and operational 
        coordination. They should be located ``outside the wire'' of a 
        military compound, should be subject to the paramount civilian 
        leadership in theater (a Director of Reconstruction, a Special 
        Representative of the Secretary General, or High Rep), and 
        should have immediate access to the force commander, military 
        logistics, security support and consultations on operational 
        planning and execution. Technology may facilitate a ``virtual'' 
        teaming concept, which eliminates or reduces the need for 
        physical co-location and associated impact on some actors.

                                Security

    Post-conflict situations, almost by definition, have at their core 
a security vacuum that is often the proximate cause for external 
intervention. Indigenous security institutions are either unable to 
provide security or are operating outside generally accepted norms. 
Security, which encompasses the provision of collective and individual 
security to the citizenry and to the assistors, is the foundation on 
which progress in the other issue areas rests. Refugees and internally 
displaced persons will wait until they feel safe to go home; former 
combatants will wait until they feel safe to lay down their arms and 
reintegrate into civilian life or a legitimate, restructured military 
organization; farmers and merchants will wait until they feel that 
fields, roads, and markets are safe before engaging in food production 
and business activity; and parents will wait until they feel safe to 
send their children to school, tend to their families, and seek 
economic opportunities.

    ``Security'' addresses all aspects of public safety, particularly 
the establishment of a safe and secure environment and the development 
of legitimate and stable security institutions. Security encompasses 
the provision of collective and individual security to the citizenry 
and to the assistors. In the most pressing sense, it concerns securing 
the lives of citizens from immediate and large-scale violence and 
restoring the state's ability to maintain territorial integrity. The 
security situation also calls for diverse capabilities--including 
border patrol; customs support; weapons collection; large-scale 
(belligerent groups) and targeted (indicted persons) apprehension 
conducted in coordination with police; and disarmament, demobilization, 
and reintegration (DDR)--that do not fall directly within the purview 
of a military force focused on high-intensity conventional combat.

    As conditions change, the overall security situation no longer 
warrants the large presence of military forces prepared to engage in 
high-intensity combat with belligerents. This, however, often occurs 
well before legitimate indigenous security institutions are organized, 
trained, and equipped to assume local security responsibilities. The 
strains within the intervening military forces as they adapt their 
roles and force levels to the changing security situation, coupled with 
the inability of the indigenous security forces to assume increased 
responsibility, can create a security gap.

    A second major gap in U.S. and international capabilities is in the 
area of demobilizing, disarming, and reintegrating combatants--the DDR 
process. Dealing with combatants, whether they are organized in formal 
national security forces, paramilitary units, or private militias, is 
one of the most pressing and recurring challenges of any post-conflict 
situation. Failure to respond to this problem adequately and to promote 
combatants' incorporation into a legitimate security organization, or 
more frequently a return to civilian life, leads to long-term 
difficulties across all areas of reconstruction. DDR is not a clean 
three-step process, and a viable strategy must dismantle command and 
control structures; relocate soldiers to communities; limit the 
circulation and individual possession of weapons and small arms; and 
provide employment, educational opportunities, and community 
reintegration programs. While the U.S. government and various 
international organizations have recognized that DDR is key to securing 
peace, in case after case a weak DDR process is responsible for 
reversals by the peace process. This is true, at least in part, because 
both at the international level and within the U.S. government no 
single organization or agency ``owns'' the problem.


Recommendations

5. The United States government should take the lead in creating and 
        supporting a multinational Integrated Security Support 
        Component (ISSC), providing units specially organized, 
        equipped, trained, and manned to execute post-conflict security 
        tasks.


  <bullet> The Secretary of State and the Secretary of Defense should 
        present to the North Atlantic Council a proposal for an 
        Integrated Security Support Component that would structure, 
        train and equip selected units within the NATO Response Force 
        for execution of security tasks in a post-conflict 
        reconstruction environment. This proposal would complement and 
        enhance the Bush Administration's current proposal to NATO for 
        a 20,000-25,000 person Response Force with rapidly deployable 
        ``high end'' war-fighting capabilities. This ISSC should also 
        be designed to complement and reinforce European efforts to 
        create a European Rapid Reaction Force (RRF).


  <bullet> To demonstrate U.S. leadership and commitment, Congress 
        should enact legislation establishing and funding a reserve 
        unit of between 1000 and 1500 personnel, (potentially with dual 
        authorities modeled on the U.S. Coast Guard's role with the 
        Department of Transportation and the Department of Defense). 
        This unit should be earmarked for the ISSC and capable of 
        integrated operations with Multinational Special Units of the 
        type employed in the Balkans and capable of executing security 
        tasks such as control of belligerent groups, crowd control, 
        apprehension of targeted persons and groups, and support to 
        police investigations and anti-corruption tasks. The 
        legislation should direct the Secretary of State, Secretary of 
        Defense, Attorney General, and Secretary of the Treasury, under 
        DoS lead, to establish the organization, equipment, training, 
        personnel, and employment parameters for this unit.


6. In order to ensure a more holistic and effective response to the 
        problems of disarmament, demobilization and reintegration, the 
        United States should designate a lead agency to coordinate and 
        execute DDR efforts.

  <bullet> The President should designate USAID the lead agency for DDR 
        affairs, and the Director of OMB, working with the Congress, 
        should move budget and oversight responsibility from various 
        agencies to reflect this shift. The President should instruct 
        USAID and DoD to sign a memorandum of understanding that would 
        enumerate the responsibilities that would be assigned to DoD 
        with respect to disarming personnel and units, as well as 
        decommissioning and controlling weapons in those cases where 
        the U.S. has deployed military personnel to the theater in 
        question.


  <bullet> The USAID Administrator should create a DDR unit within 
        USAID that would possess lead responsibility for developing a 
        coherent strategy for DDR, coordinating it, and managing it 
        financially. The office would include staff from all the 
        relevant agencies--including State and DoD--in order to 
        strengthen planning capacity and the ability to respond to 
        urgent DDR needs.

                       Justice and Reconciliation

    As violent conflict ends, societies often confront a lack of the 
mechanisms and institutions for upholding the rule of law and dealing 
with past abuses--processes that are crucial to rebuilding. Although 
efforts to achieve justice and reconciliation can differ greatly in 
nature, they both establish processes to address grievances, both past 
and present, in hope of forging a more peaceful future. If such 
grievances are not addressed, the explosion of lawlessness, corruption, 
and crime that often accompany post-conflict vacuums can undermine all 
gains that international assistance makes. Assistance to establish 
justice must, therefore, be timely in order to be effective.

    Unfortunately, the international community and the United States 
have performed poorly in this area, indeed failed, in many 
interventions. One of the key reasons is that there is a shortage of 
qualified international civilian police available for short-notice 
deployments to exercise temporary executive police authority in some 
cases and to train and monitor indigenous police forces.


Recommendations

7. Design and organize a civilian reserve police system to support both 
        national homeland security needs and post-conflict 
        reconstruction. Units from such a volunteer force could be 
        mobilized and deployed abroad on order of the President to 
        serve U.S. national interests in post-conflict reconstruction 
        operations. These individuals would have rights and protections 
        similar to military reserve forces.

  <bullet> The President should establish a Task Force of federal, 
        state and local police representatives to design a police 
        reserve system.


  <bullet> The Congress should authorize the creation of such a reserve 
        based on the Task Force's recommendations.


8. Expand the U.S. government's legal authority and capacity to train 
        indigenous police forces.

  <bullet> The Congress should replace Section 660 of the Foreign 
        Assistance Act of 1961, as amended, with new legislation 
        outlining available authorities. Until then, U.S. agency 
        lawyers should better utilize the often ignored 1996 ``post-
        conflict waiver'' in Section 660 to allow U.S. assistance to be 
        used for training indigenous police. The replacement act should 
        maintain appropriate conditions on funding to protect human 
        rights objectives and ensure accountability, while 
        rationalizing and consolidating the numerous amendments and 
        simplifying the mechanisms for applying resources to legitimate 
        requirements.


  <bullet> The President should move the International Criminal 
        Investigation Training Assistance Program (ICITAP) from the 
        Department of Justice to the Department of State's INL Bureau 
        to enable more effective integration of U.S. support for 
        training of indigenous police forces and support for community 
        policing. Community policing programs should be developed in 
        close coordination with USAID, and the Department of Justice 
        should remain involved in helping to identify and recruit U.S. 
        national expertise in justice administration and policing. The 
        President should request, and the Congress should fund, a 
        robust increase in funding for police training.

                     Social and Economic Well-being

    It is no coincidence that states emerging from conflict are also 
among the world's poorest. Fifteen of the world's twenty poorest 
countries have experienced internal conflicts in the last 15 years. \7\ 
The spill-over of violence, arms, and refugees often destabilizes 
neighboring states. Any visitor to these war-torn states recognizes 
that without economic hope there can never be peace. But reconstruction 
creates the competing demands of securing a politically sustainable 
peace and economic stabilization. Although poverty is seldom a direct 
cause of violence or civil war, it is often a symptom of the decline of 
a state's capacity to protect and provide for its citizens.

    \7\ There are 78 countries considered to be the poorest in the 
world, representing about 2.4 billion people. Thus, approximately one-
fourth of this group has also been conflict-ridden since the end of the 
Cold War. The World Bank. Post Conflict Reconstruction: the Role of the 
World Bank, Washington, D.C. 1998. p. 2.

    Despite more than a decade of experience in post-conflict 
reconstruction, the U.S. government has yet to form a coherent vision 
of dealing with these tasks. It lacks a deliberate program for linking 
immediate post-conflict needs with medium and long-term development. 
Until recently, socioeconomic tasks were considered part of long-term 
development assistance programs that could only begin once peace was at 
hand. We now know that development can and should take place even when 
parts of a nation are at war. Research also shows that at the end of 
conflict, a small window of opportunity exists to restore economic hope 
---------------------------------------------------------------------------
and social well-being.

    Among the most challenging issues in post-conflict reconstruction 
is how to re-establish people's livelihoods. Unfortunately, a gap 
exists in the U.S. government's ability to address livelihood creation 
for crucial parts of the affected population in a cohesive and 
effective manner. Standard types of economic stimulus programming are a 
beginning, but may be less effective if other types of programming are 
not also in place. For example, creating an agriculture restoration 
program will not be as useful as it should when there is no concurrent 
effort to repair roads that allows producers get their crops to market. 
The types of issues encompassed under this general ``livelihood 
creation'' rubric, include any number of situation-specific programs 
that address unemployed youth, micro finance programs, food for work or 
food for school, restoration of basic infrastructure, and specifically 
focus on the role of women in livelihood creation after war. Employment 
and training for demobilized soldiers also falls into this basket of 
immediate concern in light of what recent research supports on the role 
of employed young men as a high risk factor in returning to war. 
Currently USAID is the principal U.S. government agency tasked with the 
job of restoring livelihood both in the immediate post-conflict 
recovery period and in long-term development, yet their programs are 
neither consistent nor coordinated in a sensibly sequenced way, at 
least in part because of very different funding mechanisms.

    A second gap in the economic and social arena is in addressing the 
central role that natural resources often play in fueling violence. 
Civil wars have created great opportunities for profits through 
underground economies that are often not available during peace. 
Weakened states, no longer able to manage economic policies and the 
institutions that govern them, are targets for rent-seeking groups. 
Criminals engaged in illicit economic transactions pay no taxes, and 
armed groups that can exact cash or resources through extralegal 
activities act as spoilers to peaceful resolution of conflict. In 
countries where a natural resource is a primary export commodity (where 
export income accounts for more than 25 percent of GDP), the chances of 
these resources becoming a means to fuel instability and conflict are 
greatly increased. In spite of the evidence that reducing the profits 
of war is one way to restore stability, the U.S. government has yet to 
develop a coherent strategy that addresses this issue.

    A third gap in U.S. government capacity in the economic and social 
area is in constructively engaging the diaspora of a country in the 
rebuilding process. Citizens of affected nations who reside in the 
United States are often among the most important contributors to the 
overall process of rebuilding, both in terms of monetary remittances 
and in terms of expertise willing to return home. Through a variety of 
legal, but unregulated means, they provide some of the most basic 
support to families left behind. Since September 11, the U.S. 
government has focused on money transfers intended for nefarious 
purposes. Indeed, the United States needs to find a way to block money 
transfers intended for illicit armed groups or in contravention of 
sanctions, even as it ensures that legitimate money transfers continue 
to be able to reach family members. In addition, the U.S. needs to find 
a way to facilitate the return of those foreign nationals or permanent 
residents who desire to go home temporarily to help rebuild their home 
country.


Recommendations

9. Develop a coherent strategy and accompanying capability to create 
        livelihoods in immediate post-conflict environments.

  <bullet> The USAID Administrator should establish a specific office 
        for livelihood creation within the new Bureau for Democracy, 
        Conflict and Humanitarian Assistance, and the Congress should 
        support this with appropriate long-term flexible funding. This 
        office would incorporate technical specialists from the 
        agency's office of micro-credit, Food for Peace, and other 
        offices that support both NGOs and indigenous groups to create 
        a strategy for livelihood creation with adequate funding to 
        address the broad range of needs that this type of effort 
        entails.


10. Create a mechanism for ensuring that natural resources are tapped 
        to rebuild the country.

  <bullet> The Secretary of the Treasury should work with the World 
        Bank to create a public-private trust fund program, as part of 
        a natural resources revenue strategy. This trust fund would 
        capture income from international extractive industries 
        operating in post-conflict states so that it could be used to 
        supplement development programs, such as meeting recurrent 
        costs for essential services and government administration.


11. Create a strategy and mechanisms for tapping into the human and 
        financial resources of the diaspora of the country in question.

  <bullet> The Immigration and Naturalization service should review its 
        immigration rules for U.S. permanent residents who would like 
        to participate in ``return of talent'' programs to countries 
        undergoing post-conflict reconstruction. A simple regulatory 
        fix could provide waivers for permanent residents to return 
        home for extended stays by creating a release from their 
        necessary time-in-class requirements for U.S. citizenship. 
        Lists of willing participants could be centralized in an 
        electronic database.


  <bullet> The Department of the Treasury should set up a regulatory 
        mechanism to oversee the international distribution network for 
        remittances. Such an office would provide citizens of foreign 
        countries with a more reliable and secure means of receiving 
        funds from accredited agencies while also preventing money from 
        going into the hands of illegal organizations from the outset.

                      Governance and Participation

    In many cases after a conflict, a country has neither a legitimate 
government in place nor agreement on how to arrive at a process to 
determine what constitutes a legitimate government. Even if a 
government is in place and many of the country's citizens deem it 
legitimate, war and the attendant chaos often render its ability to 
deliver services to the population virtually nonexistent. At the same 
time, many citizens are hesitant to become overly involved in the 
political rebuilding process, having been conditioned by wartime 
realities to defer to individuals who exercised authority through the 
barrel of a gun.

    Ultimately, it is the extent to which a coherent, legitimate 
government exists--or can be created--that determines the success or 
failure of post-conflict reconstruction. Having such a government is 
key to providing essential security, justice, economic, and social 
functions and to channeling the will, energies, and resources of both 
the indigenous population and the international community. Because 
little in the way of legitimate, capable government often exists in the 
wake of conflict, however, the international community must find ways 
to support this indigenous self-governing capability. The effort 
involves at least three sets of activities: (1) helping to support a 
process for constituting a legitimate government; (2) enhancing the 
government's capacities; and (3) helping to ensure broad participation 
in the government and the reconstruction process. All these steps are 
crucial to the political process of maintaining peace by identifying 
and progressively isolating potential spoilers and their independent 
bases of power.

    The international community's existing instruments for undertaking 
activities to enhance governance and citizens' participation, however, 
are poorly adapted to the special requirements of post-conflict 
environments. U.S. and international programs to promote democracy have 
grown and become increasingly sophisticated over the last decade, but 
they have continued to be oriented to transitions from formerly 
communist or authoritarian regimes with relatively greater 
institutional capacity (as in Latin America).

    All too often, governance efforts in post-conflict settings have 
boiled down to supporting formal election processes (allowing the 
international community to leave after a legitimate government has been 
elected), complemented by inchoate attempts to build civil society by 
funding a wide range of non-governmental organizations (NGOs). From 
Cambodia to Angola to Haiti, this minimalist approach to governance as 
an exit strategy has led to crucial reversals of peace processes, 
costing thousands of additional lives and wasting millions of 
international dollars, major effort, and credibility. Establishing a 
comprehensive approach to governance and participation, one that 
addresses the full range of institutions and tasks and presupposes 
support that will last beyond the first election, is necessary.

    In the wake of conflict, states, if they exist at all, tend to have 
very little ability to deliver goods of any kind to the bulk of their 
population. And yet, legitimacy in the eyes of citizens of fragile, 
transitional states often has as much to do with ending the violence 
and delivering concrete goods as it does with the formalities of 
democratic process. Any new government must earn the support of its 
people--enabling it to marginalize spoilers and supplant parallel power 
structures--by building sufficient state capacity to begin delivering 
basic security, justice, economic, social, and political goods to the 
population. Although security and justice are essential for 
establishing fundamental order, they are not sufficient. The state's 
legitimacy and effectiveness also depend on its ability to provide a 
simple set of rules and structures that help to organize basic 
political, economic, and social life. No institution is more central to 
providing this structure than plain civil administration at the 
district, provincial, and national levels.

    U.S. democracy and governance programs have four principal 
objectives: (1) to strengthen the rule of law and respect for human 
rights; (2) to develop more genuine and competitive political 
processes; (3) to foster the development of a politically active civil 
society; and (4) to promote more transparent and accountable government 
institutions. \8\ Even though these goals are laudable, consideration 
of the more fundamental question facing post-conflict societies--
building basic state capacity to deliver essential public goods--is 
largely absent. Programs intending to strengthen local government 
exist, but they are quite limited and are not complemented by any 
similar focus on enhancing the capabilities of the executive branch of 
central government.

    \8\ USAID,``Program, Performance and Prospects,'' Budget 
Justification FY 2002, http://www.usaid.gov/pubs/cbj2002/
prog_pref2002.html (accessed July 10, 2002) (Democracy and Governance 
section).

    The other major players in this arena--the multilateral development 
banks--do have programs dealing with civil administration; these tend 
to concentrate on reforming public administration, however, with a 
focus on cutting bloated bureaucracies to save on government costs. 
UNDP is engaged in civil administration capacity building, but cannot 
---------------------------------------------------------------------------
bear this burden alone.


Recommendation

12. Create a mechanism for fielding U.S. civil administration experts, 
        both through contracting and through seconding federal 
        government employees, and recruiting and paying state and local 
        officials. The United States should also build a mechanism for 
        assembling interagency, interdisciplinary teams that specialize 
        in building civil administration capacity.

  <bullet> The USAID Administrator should establish and the Congress 
        should support a line item for these activities, and USAID 
        should develop a core of specialists both within and outside 
        the government to lead the U.S. government's civil 
        administration efforts. The USAID civil administration unit 
        should also work with other donor governments whose civil 
        administration systems and capacities may be different than our 
        own. In some cases, working with another government whose 
        system is more like the one of the country in question may be 
        more productive.


  <bullet> The Secretary of the Treasury and the U.S. executive 
        director to the World Bank should urge the Bank to enhance the 
        capacity-building elements of its civil service reform programs 
        and to develop a strategy for reforming tax systems and 
        building them from scratch in post-conflict countries.

                         Training and Education

    Training and education are critical to the success of a post-
conflict reconstruction operation in two very different ways: they can 
significantly enhance the performance of the outsiders providing 
assistance, and they can help develop indigenous human resources and 
capacity in areas central to enabling the society's transition to 
durable peace and stability.

    To date, the training of U.S. government personnel to assist in 
post-conflict operations has been uneven, at best. Some organizations--
like AID's Office of Foreign Disaster Assistance (OFDA), the National 
Defense University, the Naval Post Graduate School, and the National 
and individual service war colleges--have developed excellent training 
programs for personnel being sent into the field. Others, however, 
routinely deploy people to reconstruction operations with little or no 
specialized training for the post-conflict environment. Even when U.S. 
personnel receive solid training in their particular task or skill 
area, they rarely have an opportunity to train with the representatives 
of the other U.S. agencies, non-governmental organizations, and the 
international actors with whom they will have to work in the field. The 
same is true at the strategic or headquarters level.

    In addition, training and education programs for indigenous 
organizations and individuals can be a vital form of assistance in 
helping a post-conflict society transition to sustainable peace. The 
primary objectives of such programs are to develop the human resources 
and build the institutional capacities of the host country. Such 
efforts are essential in all four pillars of post-conflict 
reconstruction: security, justice and reconciliation, governance and 
participation, and social and economic well-being. While the United 
States and the international community have developed particularly 
strong programs in areas such as training indigenous military and 
police forces, there are a number of critical areas in which effective 
training and education programs are sorely lacking.


Recommendations

13. The administration, working with Congress, should establish a U.S. 
        Training Center for Post-Conflict Reconstruction Operations.

  <bullet> The U.S. Training Center would have five key missions: (1) 
        training key interagency personnel in assessment, strategy 
        development, planning and coordination for post-conflict 
        reconstruction; (2) developing and certifying a cadre of post-
        conflict reconstruction experts who could be called to 
        participate in future operations at both the headquarters and 
        field levels; (3) providing pre-deployment training to 
        interagency personnel tapped for specific operations; (4) 
        developing a cadre of rapidly deployable training packages for 
        use in the field; and, (5) conducting after action reviews of 
        real-world operations to capture lessons learned, best 
        practices and tools and designing mechanisms to feed them back 
        into training and education programs. The President should task 
        a study to analyze options for housing the center at an 
        existing facility, creating a new one, or contracting out 
        pieces such as predeployment training to a private, or quasi-
        governmental entity such as the U.S. Institute of Peace. It 
        would need to provide training for both civilian and military 
        personnel, and would need to work closely with existing 
        training entities in the Departments of Defense and State as 
        well as other U.S. government agencies to promote maximum 
        ``jointness.''


14. Design and develop rapidly deployable training assistance programs 
        for post-conflict societies in each of the following key areas: 
        civilian control of the military (DoD civilian lead); training 
        of legal, judicial, penal and human rights personnel (USAID 
        lead); training of local entrepreneurs (Treasury lead); 
        training of civil servants and administrators (OPM lead); and 
        anticorruption measures (Treasury lead). In addition, fund 
        increased enrollment of students from post-conflict societies 
        in existing U.S. post-conflict reconstruction training and 
        education programs.


15. Increase funding support for the best of existing U.S. PCR training 
        and education programs, including those offered by the National 
        Defense University, the Naval Post-Graduate School, and the 
        U.S. Institute of Peace.

                                Funding

    In the wake of the attacks on the United States on September 11, 
2001, the Bush administration, and indeed the American people, have 
recognized the need to adequately support a broad range of 
international programs to address the threatening new environment 
Americans face. As the President has said,``We have a great opportunity 
to extend a just peace, by replacing poverty, repression, and 
resentment around the world with hope of a better day . . . In our 
development aid, in our diplomatic efforts, in our international 
broadcasting, and in our educational assistance, the United States will 
promote moderation and tolerance and human rights. And we will defend 
the peace that makes all progress possible.'' \9\ Delivering on this 
inclusive vision costs money. And as Secretary Cohn Powell has 
noted:``we cannot do any of this--we cannot conduct an effective 
foreign policy or fight terrorism--without the necessary resources.'' 
\10\

    \9\ Remarks by President George W. Bush at the 2002 Graduation 
Exercise of the United States Military Academy. West Point, New York. 1 
June 2002.

    \10\ Testimony of Secretary of State Cohn L. Powell before the 
Senate Appropriations Subcommittee on Foreign Operations, Export 
Financing. Washington, DC. April 24, 2002.

    And yet even though there is a large public constituency that 
supports increasing foreign aid, \11\ the challenge is not only, or 
even principally, a question of increasing resources to foreign affairs 
---------------------------------------------------------------------------
budgets. It is even more about how we fund foreign affairs.

    \11\ According to a recent survey conducted by The Pew Research 
Center for The People and The Press, in conjunction with the Council on 
Foreign Relations and the International Herald Tribune, 53% of 
Americans approve of an increase in the U.S. foreign aid budget. See 
``Bush Ratings Improve But He's Still Seen as Unilateralist: Americans 
and Europeans Differ Widely on Foreign Policy Issues.'' The Pew 
Research Center for The People and The Press, Council on Foreign 
Relations, and International Herald Tribune, April 17. 2002.
---------------------------------------------------------------------------
    Both the previous Bush and Clinton administrations, to varying 
degrees, attempted to substantially rework the Cold War relic Foreign 
Assistance Act of 1961, but they met with little success. The current 
President Bush has also begun the process of re-evaluating and 
retooling our foreign affairs funding machinery, this time by proposing 
an important initiative with respect to development funding. In March, 
the President proposed the creation of a new Millennium Challenge 
Account that will increase U.S. core development assistance by 50 
percent over the next three years, resulting in a $5 billion annual 
increase over current levels.\12\

    \12\ Office of the Press Secretary, The White House.``Fact Sheet: A 
new compact for development,'' 22 March 2002.

    While the proposal for a Millennium Challenge Account promises to 
help introduce an important element of competition into development 
assistance, it is unlikely to address the needs of the conflict ridden 
failed states cited by the President. The problem is that these same 
weak and failed states emerging from war have myriad problems and 
little or no institutional capacity that might enable them to meet the 
---------------------------------------------------------------------------
prerequisite benchmark criteria for receiving funding.

    Just as the newly proposed Millennium Challenge Account is no magic 
bullet for the problems of failed states, nor are current U.S. funding 
mechanisms for post-conflict reconstruction up to the task. They lack 
coherence, speed, balance among accounts, flexibility, and an effective 
ability to do contracting and procurement. An additional range of gaps 
exists as well. In the security realm disarmament, demobilization, and 
reintegration efforts (DDR) are underfunded, as is short-term support 
for non-American troops or police who might be deployed in lieu of 
American troops or police (as with Turkey's deployment in Afghanistan). 
In the area of justice and reconciliation, little money is available to 
field an emergency justice package, deploy human rights monitors, or 
support reconciliation efforts at the national or local level. In the 
economic and social arena, little fast and flexible funding is 
available to jumpstart economies, provide temporary employment, reverse 
brain drain, or address pressing social needs. In the area of 
governance and participation, no money is available to support national 
``constituting processes'' (such as the loya jirga in Afghanistan) and 
civil administration needs (including funding recurrent costs during 
the transition period).

    When the President decides that a mission is in the interests of 
the United States, he must have the ability to bring the full force of 
wide-ranging U.S. capabilities to bear on the situation in a timely 
manner, while at the same time enabling U.S. programs to respond to 
needs as they evolve on the ground. Unfortunately, no such mechanism 
currently exists.


Recommendations

16. The President and Congress should work together to craft 
        legislation that would create a new Marshall Security 
        Development Account (MSDA) that would be structured along the 
        lines of the highly successful Emergency Refugee and Migration 
        Assistance (ERMA) account.

    The MSDA would not meet all post-conflict reconstruction needs 
itself, but instead would round out the existing account structure by 
addressing immediate post-conflict needs that are not authorized for in 
existing emergency accounts (surge capacity), by supplying bridge money 
between current emergency funds and long-term development funds (both 
U.S. and international), and by providing for necessary activities that 
are not presently covered in existent account.


  <bullet> The Office of Management and Budget, along with the National 
        Security Council, should cochair an interagency process to 
        review all existing accounts that provide funding in post-
        conflict reconstruction related areas. This process should 
        identify those functions and those monies that should be taken 
        from existing accounts to provide a base funding level, in 
        addition, this process should cost out the likely needs for 
        activities not funded by current existing accounts, such as in 
        the area of building civil administration capacity. Based on 
        the outcome of that study, the Administration should submit a 
        proposal to the Congress for the new account, the required 
        funding level, and recommendations on the sources of financing 
        it. Notionally, this account will probably need to have between 
        $350 and $450 million available annually. \13\

    \13\ The MSDA monies can be thought of in two parts. The first is a 
``surge capacity'' that covers immediate, though not all emergency 
humanitarian, unanticipated costs that cannot be taken from existing, 
already disbursed accounts and before supplemental appropriations are 
available. A notional estimate of need in this area is between $150-200 
million annually. The second batch of monies are those to cover U.S. 
contributions to necessary tasks of post-conflict reconstruction that 
are not fully authorized for in existing accounts, the largest of these 
tasks include reintegration of ex-combatants (and DDR more generally), 
funding of recurrent civil administration expenditures, and policing. A 
preliminary estimate of U.S. contributions (at 25% of total cost) for 
these three areas is $17 million, $70 million, and $135 million, 
respectively, per year. These figures assume 1-2 contingencies per year 
and are drawn from a baseline established in recent post-conflict 
operations. See Office of the Secretary of Defense,``Critical Factors 
in Demobilization, Demilitarization and Reintegration,'' February 2002; 
Kees Kingma,``Demobilisation and Reintegration of Ex-combatants in 
Post-war Transition Countries,'' Deutsche Gesellschaft fur Technische 
Zusammenarbe. Eschborn, 2001; United Nations Development Program, 
``Immediate and Transitional Assistance Programme for Afghan People 
2002,'' January 2002; Ministry of Planning and Finance, East Timor 
Public Administration, ``The Democratic Republic of East Timor Combined 
Sources Budget 2002-2003,'' June 2002.


17. The U.S. government should fund effective existing accounts at 
        levels that would allow the U.S. government to meet pressing 
---------------------------------------------------------------------------
        reconstruction needs.

  <bullet> OMB should do a complete review of existing post-conflict 
        related accounts and submit an enhanced request to Congress. 
        The Congress should in turn review and act expeditiously upon 
        requests for additional funding. The overtaxed accounts that 
        deserve particular attention include: Transition Initiatives 
        (TI); International Disaster Assistance (IDA); Peacekeeping 
        Operations (PKO); Emergency Refugee and Migration Assistance 
        (ERMA); and Non-Proliferation, Anti-Terrorism, Demining and 
        Related Programs (NADR).\14\

    \14\ Initial Post-Conflict Reconstruction project staff estimates 
additional funding needs of approximately $320 million annually, broken 
out as follows: $50 million for Transition Initiatives (TI); $90 
million for International Disaster Assistance (IDA); $60 million for 
Peacekeeping Operations (PKO); $35 million for Emergency Refugee and 
Migration Assistance (ERMA); $50 million for Non-Proliferation, Anti-
Terrorism, Demining and Related Programs (NADR). For details on these 
accounts and the basis for these increases, see Johanna Mendelson-
Forman and Robert Orr, ``Funding Post-Conflict Reconstruction'' at 
www.pcrproject.org.

---------------------------------------------------------------------------
                             The Road Ahead

    How do we bring to life the post-conflict reconstruction changes 
that have been described in this report? How do we make the United 
States a more constructive partner internationally? How do we best 
leverage U.S. capacity to improve international action? The 
effectiveness of our answers should be the measure of our Commission's 
success.

    It is our belief that there are follow-on activities that will 
invigorate our recommendations.

    First, we must educate the public and policymakers about the value 
of and need for Congressional and administration commitment and action. 
Events conspire to make the case, but attention drifts. Of the policy 
priorities highlighted in the final report, some will require 
considerable outreach efforts to government officials before their 
value is realized.

    In addition to planned interaction with Congress and the 
administration, we believe that engaging the broader American public is 
critical to growing a sense of commitment to post conflict 
reconstruction. The expanding consensus among policy elites is no 
guarantee that desired changes will gather the necessary momentum to 
produce results.

    Securing the passage of proposed legislation and institutionalizing 
best practices will be the first tests.

    Second, we must expand the reach of the recommendations into the 
international community. Throughout the past decade, the United States 
has played a central role in resolving conflicts around the world, 
though never alone. In every case where the U.S. has intervened 
militarily, it has partnered with other countries, been part of a 
coalition or worked from within an international alliance or 
organization. This approach has increased the likelihood of public 
support at home and abroad and has brought fresh resources and skills 
to these complex challenges.

    As the United States makes the changes that are recommended in this 
report, it will become a better and more successful international 
partner in post-conflict reconstruction. At the same time, a number of 
other countries and multilateral institutions have proven their 
commitment. Yet much remains to be done.

    Numerous studies have highlighted the shortcomings of international 
efforts in post-conflict reconstruction. The next phase is to capture 
the priority lessons of our work and other reports in order to mobilize 
and implement change. Some will address the way we go about our work, 
from strategic focus and funding to leadership selection. Other changes 
will bring forth challenges that are not being met, such as near-term 
security and rule of law, or promising new approaches such as 
decentralization and the development of native resources for maximum 
local benefit.

    Implementing best practices in more upcoming situations will be one 
measure of progress. In some cases, applying the post-conflict 
reconstruction framework to an imminent post conflict operation through 
an ``action strategy'' will be desirable. In others, taking a 
particularly difficult issue, such as establishing public safety, and 
finding a practical result will be the desired achievement.

    The past decade has confirmed the centrality of the post-conflict 
period to achieving a more peaceful world. We know that this difficult 
work can be done better. If the recommendations that have been made are 
followed, a worthy start will result.

                               __________


    Statement Submitted by the American Association of Engineering 
                               Societies

    Mr. Chairman, members of the committee:

    The American Association of Engineering Societies (AAES), its 24 
member societies and the over one million U.S. engineers they 
represent, wish to thank Chairman Lugar and Ranking Member Biden for 
the opportunity to submit testimony for the record on the topic of 
Internationalizing Iraq Reconstruction and Organizing the U.S. 
Government to Administer Reconstruction Efforts.

    The U.S. engineering community understands that the most pressing 
task in Iraq at present is to establish secure and stable conditions 
throughout the country. One of the keys to stability is the 
reconstruction of the country's infrastructure, which is currently 
underway. Since the President declared an end to major combat 
operations on May 1, 2003, building and reconstruction efforts have 
focused on critical areas of infrastructure that will each contribute 
to substantial improvements in the lives of the Iraqi people. They are 
water, sanitation, health, education, communication, electricity, 
ports, airports, and local governance.

    The U.S. engineering community believes that reconstitution and 
engagement of the Iraqi engineering community is vitally important, not 
only to support and expand the current reconstruction efforts, but also 
to sustain a modern Iraqi infrastructure and healthy economy in the 
future. There is an important role for the international engineering 
community to play in helping the Iraqi engineering profession 
reconstitute itself to meet the challenges facing their nation.

    In conjunction with the World Federation of Engineering 
Organizations (WFEO), a non-governmental international organization 
that brings together national engineering organizations from over 80 
nations and represents some 8 million engineers from around the world, 
the U.S. Army Corps of Engineers and others, the U.S. engineering 
community has begun to work directly with the Iraqi engineering 
community during the building and reconstruction process. Through 
regular video conference calls, e-mail exchanges, meetings and the 
like, the U.S. engineering community has come together to help its 
colleagues. Some examples of the assistance include the following:


   1. Providing technical journals and literature in an effort to 
            update existing engineering skills and technology;


   2. Providing volunteer U.S. engineers willing to travel to Iraq to 
            help their colleagues;


   3. Providing contacts within the world engineering technical 
            community for general assistance in all manner of issues; 
            and


   4. Providing distance-learning opportunities through web-based 
            seminars and correspondence courses on various engineering 
            topics of interest.


    At this critical time, the U.S. engineering community appreciates 
the efforts made by the U.S. Army Corps of Engineers, the Department of 
State, and other federal agencies to help facilitate ongoing outreach 
to the Iraqi engineering community.

    Our outreach to the Iraqi engineering community is an example of 
how the U.S. engineering community is working with its world 
counterparts, to create a sustainable world that provides a safe, 
secure and healthy life for all peoples. Engineers must deliver 
solutions that are technically viable, commercially feasible, and 
environmentally and socially sustainable. The U.S. engineering 
community is increasing its focus on sharing and disseminating its 
highest quality information, knowledge, standards and technology that 
provides access to minerals, materials, energy, water, food and public 
health while addressing basic human needs.

    The reconstruction of Iraq, and indeed the survival of our planet 
and its people requires the collaboration of all professions in both 
developed and developing countries to sustain future generations. The 
goal of improving the social and economic well being of all peoples in 
the developed and lesser-developed countries is a pre-requisite for 
creating a stable, sustainable world. Although achieving this goal will 
require a broad coalition of well crafted policies, it will only be 
realized through the application of engineering principles and a 
commitment to public/private partnerships involving professionals from 
all fields including the social sciences, engineering and medicine. It 
will also require collaboration for development, acceptance and 
dissemination of innovative solutions and better use of existing 
technologies.

    Today's world is increasingly complex, and the need for U.S. advice 
and counsel in reconstruction is vital. The world engineering community 
stands at the ready to provide any manner of assistance to help in the 
creation of a sustainable world.


</pre></body></html>
